I.


 Department of Health and Human Services
                             OFFICE
       INSPECTOR GENERAL




     THE DISTRIBUTIONOF ORGANS
        FOR TRANSPLANTATION:
     EXPECTATIONS AND PRACTICES




                        f.lwJcrs.



                                    Richard P. Kusserow
                                    INSPECTOR GENERAL
          '0


               Jy-l"
                       ""d3'a          GEl - 01- 89-00550
                    EXECUTIVE SUMMARY

PURPOSE

The piIrposes of this study are to: (1) clarfy expectations governing organ distrbution practices
in the United States, (2) detennine the extent to which actual practices are in accord with
expectations, and (3) offer recommendations that facilitate close accord between expectations
and practices.


BACKGROUND

In April 1990, 20, 171 people in the United States were awaiting an organ transplant. This
number has risen sharly in recent years as the demand for transplants has grown much faster
than the supply of available organs.



In this repon, we focus on the distrbution of cadaver organs from the point of procurement to
the point of transplantation. Although the repon addresses all organs, we pay particular attention
to the distrbution of kidneys because they account for about 75 percent of organ transplants and
about 84 percent of those awaiting a transplant.

The repon is based primarly on an analysis of a data base consisting of the 17, 556 individuals in
the United States who were waiting for or received a first kidney trsplant between October 1
1987 and March 31, 1989. In addition , it draws on an on-site review of the operations of organ
procurement organizations in California , Florida, Wisconsin , and Pennsylvania; on interviews
with many individuals involved with the field of organ trnsplantation; and on a review of
pertnent literature and documents.


EXPECTATIONS

Congress and professional leaders envision the development of organ distribution practices
that are equitable to those in need, carried out in accord with a national system, and based on
the cooperation of transplant professionals. More specifcally, they expect:

      each person on a transplant waiting list to have an equal opponunity to receive a
      trnsplant, subject to established   medical criteria;

      organ distrbution to occur in accord with a national system adhering to unifonn policies
      and standards; and

      transplant surgeons and other transplant professionals to work together cooperatively in
      the best interest of all patients waiting for transplants.
FINDINGS

While there has been progress, current organ distribution practices fall short of congressional
and professional expectations in each of the three areas.



       Equity

        The access of patients to donated organs remains unequal in some important respects.

            Blacks on kidney waiting lists wait almost twice as long as whites for a first
            transplant, 13. 9 months compared with 7. 6. Such a differential remains even when
            bloo type, age, immunological, and locational factors are taken into account.

            Patients at some transplant centers wait much longer than those at others. At 15 of
            the 202 trnsplant centers reviewed, the waiting time for a first kidney transplant was
            18 months or over, at 79 it was less than 6 months.

            Highly sensitized patients-those   whose immune system makes it difficult for them
            to receive organs-wait almost   4 times as long for a kidney trnsplant as all other
            patients , 32.4 months vs. 8.


       National System

       There has been considerable progress in establishing a national system grounded in
       unifonn policies and standards for the distrbution of organs. However, organ distrbution
   .   remains heavily controlled by the individual transplant centers and confined primarily
       within the individual service areas of 72 Organ Procurement Organizations (OPOs).


    Cooperation

       The development of the Organ Procurement and Transplantation Network (OPTN) is a
       significant cooperative achievement of transplant professionals and others. Yet at the
       transplant center and OPO levels , the sense of local ownership that some transplant
       professionals have towards organs they have procured impedes the development of an
       equitable and national system forthe distrbution of organs.
RECOMMENDATIONS

The Public Health Service (PHS)

The PHS , in collaboration with the OPTN , should issue regulations to require that each OPO (1)
establish a single, unified list of patients awaiting trnsplantation and (2) distrbute donated
organs to those patients on a first come first served basis, subject to established medical criteria.

The PHS, in collaboration with the OPTN , should issue regulations to require that each
transplant center and- donor hospital in an OPO service area adhere to the centralized organ
distribution policies of the OPO governing that area.

The PHS, in collaboration with the OPTN , should support the development of medical practice
guidelines addressing organ transplantation. . 


The PHS should fund a demonstrtion effort incorporating the following two features: (1) the
establishment of a single, unified waiting list including all patients awaiting an organ transPlant
in a number of OPO service aras and (2) the mandatory distrbution of donated organs to those
patients on a first come first served basis, subject to established medical criteria.

The Health Care Financing Administration (HCFA) and the Public Health Senice

The HCFA and the PHS should support research efforts that could help reduce racial disparities
in organ allocation.

Before granting Medicare recertification to an OPO, HCFA , in collaboration with PHS , should
assure that the OPO is distrbuting organs equitably among patients, according to established
medical criteria.

Before grnting Medicare   recertification to an OPO, HCFA, in collaboration with PHS, should
assure that the OPO is conducting a rigorous, soundly based organ procurement effort.

The American Society of Transplant Surgeons (ASTS) and the American Society of
Transplant Physicians (ASTP)

The ASTS and the ASTP should conduct their own inquiries of the factors leading to longer
median waiting times for blacks than whites awaiting a kidney transplant and of any actions their
associations should take to help reduce this disparty.




                                                  111
COMMENTS

Within the Department of Health and Human Services, we received comments from PHS, HCFA
and ASPE. The PHS and HCFA agreed with the recommendations directed to them. The ASPE
raised a number of concerns about the recommendations.

Outside the Department, we received comments from the ASTS and ASTP and nUmerous other
organizations, including the United Network for Organ Sharng, the American Society for
Histocompatibilty and Immunogenetics, the Association of Organ Procurement Organizations,
the North American Transplant Coordinators Organization , the New England Organ Bank , and
the South-Eastern Organ Procurement Foundation.

In response to our recommendation directed to ASTS and ASTP, the ASTP indicated that it
recently completed a study addressing the differential access of blacks and whites to organ
trnsplantation. The ASTS noted its readiness to (a) define medical indices of patient suitabilty
for being placed on transplant waiting lists, (b) develop an allocation scheme that addresses all
(racial included) factors that affect organ transplantation , and (c) delineate standards to assess
OPO activity and perfonnance.

In appendix D , we present the detailed comments of each of the organizations and our responses
to them.
                                    TABLE OF CONTENTS


EXECUTIVE SUMMARY


INTR 0 D UCTIO N..............................................................................


FINDINGS .............................................. .......                             ..................................... 8


RECOMMENDATIONS 


COMMENTS ON THE DRAFT REPORT ...........................................................


APPENDIX A

      Statistical Methodology And Notes ...................... ............................... .......... A-

APPENDIX B


      Tables Derived From The Organ Procurement And Transplantation
      Network Data Base.... ..........

APPENDIX C

      Endnotes...................      .....,................................................................................. C­

APPENDIX D


      Detailed Comments On The Draft Report

      And GIG Response To The Comments........................................................... D-

                             INTRODUCTION€
In this report, we focus on the distrbution of organs to the more than 20, 000 people who have
been detennined to be medically suitable candidates for an organ transplant and are now
                           1 We examne the distrbution procss, from the point that an organ is
awaiting a donated organ.
                                               2 We pay parcular
procured to the point that it is transplanted.                    attention to the expectations and
practices governing the actual selection of the individuals who  wil  receive an organ transplant. 3


Throughout the report, we emphasize the distrbution of kidneys. We do that because kidney
transplants account for about 75 percent of all organ transplants and because about 84 percent of
the individuals on transplant waiting lists are awaitig a kidney transplant.

At the same time, we believe that most of th basic issues addrssed in the report are of equal
significance to the distrbution for transplantation of hears, livers, and other organs. In large
measure kidney procurement and distrbution practices have provided and wil continue to
provide the fraework for practices governing these other organs.

The basic purposes of our study are threefold: (1) to clarfy expectations governing organ
distrbution practices in the United States, (2) to determe the extent to which actual practices
are in accord with expectations, and (3) to offer recommendations that faciltate close accord
between expectations and practices.

Our methodology is based on four major lines of inquir:

     A statistical analysis of a data base consisting of the 17, 556 individuals in the United
     States who were waiting for or received their fIrst kidney transplant between October 1
                                  6 The analysis focuses on demographic and other factors
     1987 and March 31, 1989.
     associated with the length of time waiting tor kidney trnsplantation (see appendix A for a
     detailed description of data used in the analysis);

     case studies of four large organ procurement organizations and affiliated transplant centers
      in California, Florida, Wisconsin , and Pennsylvania; 7€

     interviews with representatives of national organizations involved with the field of organ
     transplantation , government policymakers, public and private researchers, and transplant
                    8 and
     professionals;

     a review of pertinent literature and documents concerning organ procurement, distrbution
     and transplantation.
. BACKGROUND

In 1984 , after congressional hearngs which addrssed the inadequate supply of organs being
made available for transplantation and the often unfai systems for distributing those that did
                   1O
become available, Congrss passed the National Organ Trasplant Act. Among other things
the legislation prohibited the buying or sellng of organs and called for the Deparment of Health
and Human Services (HS) to provide by contract for the establishment and operation of an
Organ Procurement and Transplantation Network (OPTN) and to establish a Task Force on
Organ Transplantation (hereafter referred to as the Task Force).

Congress mandated that the Task Force be composed of 25 members and stipulated the
categories of members to be appointed by the HHS Secreta. In addition to 4 ex-officio
members representing varous par of HHS, it specified that there were to be 12 from the organ
trnsplantation field (9 of whom must be physicians or scientists); 4 who as a group had
backgrounds in law, ethics, health car financing, and the social and behavioral sciences; 3 from
the general public; and 2 from the health insurance field. Congress instructed the members to
develop recoinmendations on how to achieve more effective, effcient, and equitable systems for
organ procurement, distrbution, and trnsplantation.

In April 1986, the Task Force issued its report to Congress. The recommendations set forth in
the report provided the stimulus for subs uent legislation in 1986 and for the initiation of the
OPTN called fodn the 1984 legislation. 12

In September 1986, the Public Health Service (PHS) contrcted with the United Network for
                       13 to develop the OPTN. One year later, PHS and UNOS agreed to a
Organ Sharng (UNOS)
  year contract for UNOS to operate the OPTN. The contrct calls for the OPTN to:

      improve the effectiveness of cadaver organ procurement and distrbution;

      improve and increase the access to an optimal organ trnsplant;

      improve the system for sharng renal and extrenal organs so as to: (1) facilitate
      matching; (2) improve the access to transplantation of patients whose immune system
      makes it difficult for them to receive an organ; (3) improve the outcomes of organ
      transplantation; and (4) decrease the wastage of organs;

      assure quality control by the collection, ana sis , and publication of data on organ
      donation , procurement, and transplantation; 4

      maintain and improve professional skills of those involved in organ procurement and
      transplantation; and


      members.
      maintain an OPTN governance entity or board elected by a majority vote of all OPTN
 The OPTN board, much like the prior Task Force s membership, is a diverse one , but one in€
 which transplant professionals are heavily represented. Among the 34 members of the board, €
 are physicians, and 15 of the physicians ar trsplant surgeons.€

 In 1986, Congress passed legislation that had far reaching impact on organ procurement and€
 distrbution practices throughout the countr. On    the basis of this legislation:€

       HHS had to delineate organ procurement service areas throughout the country and€
       designate a single organ procurement organization responsible for each area (previously,€
       in many areas of the countr OPOs were competing with one Clother for the procurement€
       of organs);€

       OPOs had to be members of and abide by the rules and requirements of the OPTN;€

       OPOs had to adhere to perfonnance standards established by HHS;€

      hospitals with transplant centers, as a Medcare condition of participation , had to be€
      members of the OPTN and abide by the rules and regulations of the OPTN; and€

      all hospitals, as a Medicare condition of parcipation, had to develop written
                                                                            
         rotocols for€
      identifying potential organ donors and for notify ng an OPO  of such donors.  €

 In the midst of this legislative activity, there were continued advances in transplantation€
. technology and immunosuppression therapies, resulting in improved patient outcomes. As€
 transplantation became an increasingly accepted treatment for organ failure, third pary coverage

 for the costs of the procedure became increasingly common. At the Federal level , the Medicare€
 program had long covered the costs of kidney transplantation as par of the near universal€
                                                                            16 However, in 1987 it€
 coverage accorded to individuals with end stage renal disease (ESRD).
                                                                             17 and in March 1990€
 made hear trnsplantation a covere service for Medcare beneficiares
 issued a draft re                     coverage of liver transplants in adults under certain€
                fulation proposing;

circumstances. 1



Paraleling the above   developments has been a steady incrase in the number of transplantation€
programs. By April 1990, there were 250 medcal institutions in the United States operating€
                                  19 There were 72 HHS designated OPOs that in varous ways

organ transplantation progrms.
and to varing degrs were involved in the procurement and distrbution of organs to be€
transplanted in these institutions.€

From the perspective of patients awaiting an organ transplant, these developments are of€
profound importance. They present the opportunity for a medical intervention that can€
significantly improve their physical well- being or, indeed, save their life. Yet, because the€
demand for trnsplants has risen much faster than the available supply of organs, the opportunity€
is one that wil be long delayed or never achieved by may of these patients. While there has€
always been a gap between the supply and demand, it widened appreciatively between 1986 and€
1988 (figure 1), and on the basis of preliminar data, it appears that trend continued in 1989.€
                                                     FIGURE 1
           Growth In Kidney Transplants And In The Number Waiting For Transplants
                                         1983 - 1988


                                                                                          13. 282




                                                                   916 8.967 8.             932


            I- 8                                         695-
                                           96 -
                                112 .




                              1983        1984         1985      1986        1987        1988
                                                      YEAR


           Source: ESRD Facilty Survey. HCFA. BDMS


In the pages that follow, we address the expectations and practices governing how donated
               22 are made available to the more than 20,000 people now awaiting them. We
cadaver organs
star by identifying the fundamental expectations which Congress and professionalleaders
have set fonh. Then , in our fmdings section, we indicate the extent to which these expectations
are reflected in practice. In so doing, we find some disturbing discrepancies. We close by
offering a number of recommendations on how these discrepancies might by eliminated or at
least narwed.


EXPECTATIONS

COllgress and professional leaders       ell vision the development of orgall distributioll practices
that are   equitable to those in need
             (1)
                                          carried out in accord with a natiollal system, and (3)
                                             (2)


based on the cooperation of transplant professionals.

From statutes and supporting documents, HHS and OPfN policies, the final report and other
documents of the Task Force on Organ Transplantation , and our own extensive interviews, we
found extensive and clearly stated support for the three above-noted expectations. We found that
the realization of each of these expectations was widely regarded24asEach
                                                                      essential to theexplained€
                                                                           is briefly  underlying€
legitimacy and continued advancement of organ trnsplantation.
below.€

       Congress and professional leaders expect each person on a transplant waiting list to€
       have an equal opportunity to receive a transplant subject to established medical criteria.€

There is a clear trail of authoritative congressional and professional expressions that provide the€
underpinning of the above expectation. The trail begins with the National Organ Transplant Act€
of 1984. In that legislation , Congress specified that an OPO must " have a system to allocate€
donated o ans among trnsplant centers and patients according to established medical€



            26€
criteria.   In an accompanying report, the Senate Labor and Human Resources Committee€
added the following: " An equitable policy and system is necessar so that individuals€
throughout our countr can have access to or-gan trsplantation when appropriate and€
necessar. ,,€

Two years later, the Task Force reinforced Congress ' expectation governing the equitable€
allocation of organs and defined it more specifically. In its final report, it stated the following:€

        The Task Force recommends that selection of patients bothfor waiting lists and for€
       allocation of organs be based on medical criteria that are publicly stated and fairly€
       applied. The Task Force also recommend that the criteria be developed by a broadly€



       t e walt   ng   1st. €
       representative group that wil take into account both need and probability for success.€
       Selection of patients otherwise medically qualifed should be based on length of time on€


Then, in 1988, Congress once again addressed the matter of organ distrbution.    It amended the€
1984 legislation to clarfy that in allocating organs according to established medical criteria an€
OPO must act " equitably " and must focus strctly on the allocation among patients, not€
                   28 In a report accompanying the amendment, the House Committee on Energy€
trnsplant centers.
and Commerce noted that concerns had been raised about OPOs being " in a position to show€
favoritism to patients of a parcular transplant facilty. " Whe the commttee indicated it had no€
knowledge of any parcular instace of such favoritism , it added that it expected " the Secretar€
to monitor the allocation of organs closely.€

Thus, the clear intent of Congrss is that organs be distrbuted faily without regard to such€
factors as a trnsplant candidate s income, sex , race, or residence and without regard to the€
transplant center at which that candidate expects to receive a trsplant. In one way or another€
nearly all the individuals we interviewed in the course of this study supported this congressional€
intent.€

In expressing its expectations on how an organ distrbution system should function , Congress, in€
the 1984 legislation, singled out one group that it felt needed special attention if it were to€
receive a fair opportunity for a transplant. Specifically, in callng for the OPTN to develop "€
national list of individuals who nee organs " and a "national system... to match organs and€
individuals on the list, " it indicated that paricular attention should be given to " individuals€
                                                                         30 -
 whose immune system makes it diffcult for them to receive organs.            In so doing, it
                                              31 individuals, the opportunity to receive a medically
 recognized that for these highly sensitized
 suitable organ increases as the size of the available pool of donors increases.€

 Yet , Congress did not accord the highly sensitize   with an actual preference, nor €
professionals in the transplantation field agree on how much , if any, preference they should€
receive in distrbuting organs.€

       Congress and professional leaders expect organ distribution to occur in accord with a€
       national system adhering to uniform policies and standards.€

The 1984 legislation was a response to the infonnal and fragmented practices then characterizing€
                                                       32 It recognized that it was in the public
the distrbution of organs in many parts of the countr.
interest to develop more fonnalized and systematic mechanisms guiding organ procurement,
distrbution, and transplantation throughout the countr. In this regard, the legislation enjoyed
widespread support among the organ transplant community.

Thus, as already noted, the legislation called for the OPTN to establish one nationwide list of€
individuals awaiting transplantation and " a national system" that would allow for donated organs€
to be quickly matched with medically suitable candidates on that list. Congress called for the€
OPTN to develop this capabilty through the use of computers and in accord with established€
medical criteria.

In callng for a national system , Congress essentially sought two outcomes: (1) the development€
of some common rules to which all OPTN members were bound and (2) the development of the€
technical capability to distrbute organs nationally, expeditiously, and in accord with explicitly€
stated criteria. Yet it did not mandate any such national distrbution , and. it specifically stated
that a national list and a national system could be established in regional centers instead of in one€
central location.

The Task Force reinforced the importce of developing a national system        and urged the
                                                                         33 Such policies and
adoption of " unifonn policies and standards by which  all wil abide. ,,
standads, it indicated, should address matters such as the acceptabilty of an organ for
trnsplantation, the acceptable   length of organ preservation time, andthe desirable degree of
tissue matching between donor and recipient. The Task Force noted that while diverse practices
              were to be expected during the pioneerig year of trsplantation at this point in
. and protocols
the evolution of organ transplantation, sufficient data have been developed to allow for the€
establishment of certain standards of practice. ,,

      Congress and professional leaders expect transplant surgeons and other professionals to
       work together cooperatively in the best interests of all patients waiting for   transplants.



Such an expectation is one that would apply to any complex human endeavor. Yet, it is an
imponant one to include here because it is so integral a par of the framework of expectations
characterizing not only organ distrbution , but also organ procurement and transplantation.
From the earliest efforts to enlist the support of potential donors. and donor hospitals to the post
transplant efforts to improve patient outcomes, successful perfonnance requires the cooperative
efforts, often under very strct time pressures, of a wide range of professionals. These include
but are by no means limited to trsplant coordinators, nurses, social workers, neurologists,
nephrologists, transplant surgeons, immunologists, and OPO administrators. While each of these
participants have their own paricular interests, they must work together effectively as trustees of
organs for all the persons awaiting a transplant €

It was in recognition of the complex nature of this collaborative effort that Congress called for
the unusual approach. of a private body, the OPTN , having a strong role in shaping the national
system. Congrss and professional leaders saw the OPTN and, to a lesser degree, the OPOs
themselves as forums for developing policies and protocols buttressed by broadly based
consensus.
                                      FINDINGS€
  While there has been progress, current    organ distribution practices fall short of congressional€
 alld professiollal expectatiolls ill each of the three areas.€

 Almost every individual with whom we conversed, whether in highly structured telephone€
 interviews or in the halls outside of operating rooms, regarded the establishment of the OPTN as€
 a substantial accomplishment. In varous ways , they indicated that it provided a foundation for€
 the development of an equitable national system rooted in cooperative professional relationships.€
 Yet , upon questioning, these same individuals were quick to point out that such a system has not€
 yet been achieved. Our review of the OPTN data reinforced this conclusion.€

The three more specific findings that follow indicate how current practices fall short of each of€
the three sets of expectations addressed earlier.€


EQUITY€

        The access of patiellts to donated organs remains unequal in some important respects.€

Our primar patient data base , as indicated earlier, concerns the 17 556 individuals in the United
States who between October 1 , 1987 and March 31 , 1989 were waiting for or actually received a
first kidney transplant. In analyzing the data, we found that in three respects there were
significant disparities in the access that these individuals had to kidney transplants. The
disparties related to an individual' s race, transplant center, and level of sensitization.


Race:  First, with respect to race, we found that blacks were waiting almost twice as long as
whites for their first kidney trsplant. In paricular, we found that the median waiting time for
blacks was 13. 9 months, compared with 7. 6 months for whites (see appendix B , table B- 3).

In seeking to explain this substatial difference, we were informed by professionals in the
trsplantation field that medcal considerations involving bloo type, level of sensitization
and/or age might account for some or all of the gap. However, we found that these
considerations accounted for little of the difference. For each blood type, blacks who are not
highly sensitize35 and are between 18 and 64 years of a e waite significantly longer than
whites for their first kidney trnsplant. For all blood types combined, the median waiting time
for non- highly sensitize blacks 18 to 64 years old was still nearly twice that of comparable
whites, 12. 6 months compard with 6. 9 (figure 2). Not surprisin
                                                                    6' therefore, blacks have been
receiving only about 23 percent of all cadaver kidney transplants, while they represent about
30 percent of those on kidney transplant waiting lists.
                                                              FIGURE 2

                   Estimated Median Waiting Times To First Kidney Transplant
                                             By Race And Blood Type
                                   October         1987 - March 31, 1989
                                                  1,




                                       17.


                                                 _"'H.__._.-..,,"-....._m...




            t- 10





                                                                                      All Blood Types
                                                       BLOOD TYPE

                                        Black (N=3     797) I2 White (N=8, 360)

      Note: Ages18-64, Not Highly Senstized (i. e., PRA                        =75)
      Data Source: OPTN Contractor
      Data Anlysis: OIG/OEI




                                                                                                        38 wherein
Thus, on the basis of the above-noted analysis and of a proportonal hazds analysis
we examined the independent effect of race, holding age and blood type constant, we are unable
to explain the longer waiting time of blacks on the basis of bloo type, level of sensitization,
and/or age.



In seeking other possible explanations, we considered that there might be some kind of
locational effect. We sought to determne if the longer median waiting time of blacks existed
throughout the countr or if it were concentrated at certin centers and/or certain parts of the
countr.

In this regard, we conducted two additional analyses. Both involved a calculation of the mean
ratio of black reipients ' median waiting time to that of white recipients for each transplant
registration center. With this approach , a ratio greater than 1 iRdicates that blacks waited longer
on the average, than whites. (See appendix A for further elaboration on the calculation and the€
analyses summarzed below.

In the first analysis, we calculated the average ratio for registration centers in each of 10 regions
of the countr. We found that in two regions (New England and the Plains States), the ratios
were considerably lower than in the others and that the median waiting time for blacks and

                74.
whites was about the same. In the other regions, blacks waited longer, with the ratios ranging
from 1.25 to 2.

In the second analysis, instead of pars of the countr, we focused on the percent of blacks on
waiting lists. More s ecifically, we perfonned a regression analysis of the percent of blacks on a
registration center '    waiting list against the ratio. We found that the ratio of blacks ' median
waiting time for a first transplant to that of whites was not affected by the percent of blacks on
the waiting list of a center.

Once again , therefore, we are unable to explain the substantially longer median waiting time for
blacks. Our analyses indicate that although there are some locational varances , the longer€
median waiting time for blacks is widespread, not confined to a few parts of the country or to a€
few transplant centers or .organ procureme,:1t organizations.€

There are numerous other factors that we were not able to analyze that might help account for
the disparty. What would appear to be the most consequential of these is that typically organ
                                                                                              40 In
allocation systems are at least parially based on human leukocyte antigen (HLA) matching.
response to our draft repon (see appendix D), the American Society for Transplant Surgeons
explained as follows how this practice might disadvantage blacks: " Since most donors are
white, whites are more likely to have better HLA matche than blacks with a given donor; thus,
among potential recipients the proportion of whites first offered a kidney could be greater than€
the proportion of whites waiting, because of the increased probability of a good match.€

Another possibly, important factor is the economic status of the candidates. Although nearly all€
kidney transplant candidates are Medcare covered individuals, those who are not can be subject
to financial costs which in some way inhibit their access to a transplanted kidney. Furter, even
for Medcar covere individuals the Medicar program does not cover the cost of
immunosuppressive drgs for more than one year after the transplant and does impose certain
coinsurance and deductible requirements. The associated costs can be substantial and€
conceivably can hinder access.€

Stil other considerations that might help explain the difference are (1) the patient s medical€
condition and/or wilingness to accept a donor organ when it is offered, (2) the extent of the€
social support available to the patient, (3) the fact that some patients ar on multiple waiting lists,€
and (4) the factors used to determine who is actually placed on a kidney waiting list in the fIrst€
place.€

In a recent report on black-white disparties in health car, the American Medical Association€
Council on Ethical and Judicial Affairs identified different rates of kidney transplantation as an€
indication of broader disparties in medical treatment offered to blacks and whites. It further€
more likely to receive a kidney transplant.€
                                                                     41€
noted that it was " unlikely " that medical factors alone accounted for the fact that whites were€


After reviewing disparties in varous medical treatment decisions, the CounCil concluded that in
                                                             A2 It elaborated as follows:€
part they " may reflect the existence of subconscious bias.'

             This is a serious and troubling problem. Despite the progress of the past   25   years racial€
          prejudice has not been entirely eliminated in this country. The health care system , like all
                                                                               " 43
          other elements -of society, has not fully eradicated this prejudice.

In our study, we found no infonnation to indicate that racial prejudice contributed to the
differential in black-white waiting time. Yet, considering the statement of the AMA Council , we
must recognize that it is possible that to some degree the differential may reflect such prejudice
and " subconscious bias."

Finally, the longer medan waiting times of blacks are especially significant since blacks have€
much higher rates of kidney failure than whites. Although blacks account for only about 12€
                                44 they account for 34 percent of dialysis patients in the End Stage€
percent of theU. S. population,
Renal Disease Program.

At the same time, it must be noted that blacks are less inclined to donate organs than are other€
groups. In 1988, only about468 The
                               percent of allexplanations
                                   possible
                                              cadaver kidney transplants involved the use of a€
                                                          for this situation are many and€
kidney from a black donor.
         47 but certainly among them must be the relatively small number of black procurement€
complex                                                          48 In this regard, the president of€
coordinators working for the organ procurement organizations.
    American Society of Transplant Physicians, in comm nting on our drft report (appendix D),
made an observation that warants serious consideration by all those associated with the field of
organ transplantation. It is as follows:

            Some years ago we hired a black social worker in our ESRD program. Related donor€
          transplantation, which had previously been negligible in blacks in our program, rose€
          substantially soon after he took on the position. I strongly beJieve that cadaver organ€
          donation in blacks would increase significantly if blackfamiles were approached by black

          organ procurement coordinators. Therefore;      would like to suggest that the OPO be€
          strongly encouraged to train and hire black transplant coordinators. This effort could be
          coordinated through NATCO and AOPO.

Transplant Center:    A second major respet in which we found patient access to organs to be€
unequal concerns the trnsplamcenter at which the patient was r gistered. For the October 1987
through March 1989 period, the medan patient waiting time for a first kidney transplant ranged
from a lo w of less than 1 month at pne center to a high of 71 months at another. Among the 202
centers reviewed, the median waiting time at 79 was less than 6 months for non- highly sensitized
patients; at 15 it was over 18 months (figure 3). Such wide varations existed even among
centers in the same OPO service area.
From our proportonal hazds analysis, we also found that the size of a center s waiting list had
some effect on how long a patient had to wait for a transplant. Thus, for instance, a patient
awaiting a fit  transplant in a center with 25 registrts had a 7 percent better chance of
receiving one at any point in time than a patient in a center with 100 registrts (see appendix   B
table B- 5).

 Such differences in waiting time have developed because few trsplant centers have joined€
together to develop a common list of trsplant candidates and then to distrbute donated organs€
to those candidates on a fIrst come fit served basis, subject to medcal criteria. Some have
joined together to establish a common list, but the crteria they have developed governing the
distrbution of donated organs ar apt to devote as much or more attention to the distrbution of
organs among centers as among patients. For instance, many transplant centers across the nation
parcipate in an OPO approved argement where for each pair of cadaver kidneys they
retreve, they keep one for one of their own patients and give one to the common pool. The
kidney donated to the pool is then made available to another trsplant center in the service ara,
usuall y in accord with some rotational argement.

                                             FIGURE 3€
             Estimated Median Waiting Times To First Kidney Transplant€
                              By Transplant Center€




            100€



                         7.9
         ff 80




            60 €

         .- 40




                                           12 12-                       18+ .
                                         MONTS TO TRNSPLANT€



    Data Source: OPTN Contractor€
    (October J. 1987. March 31. 1989)€
    Data Analysis: OIGIOEI€
 Lel'el of Sensitization: Finally, as professionalsjn the transplant field would expect, we found
 that the highly sensitized patients had considerably less access to donated organs than did others
 on transplant waiting lists. Even some of the professionals, however, might be surprised at the
 extent of the difference. During the I8-month period we examined, the median time that thc?
 highly sensitize waited for donated kidneys was almost 4 times that of all others, 32.4 months
 compared with 8.

 From the available data, we cannot detennine whether or not this difference has widened or
 narowed in recent year. However, the data do indicate that proportionately more women are
 highly sensitized than men and for that reason tend to have longer waiting times than men.


NATIONAL SYSTEM

          There has been considerable progress in developing a national organ distribution
          system grounded in unifonn policies and standards. However organ distribution
          remains heavily controlled by the individual transplant centers and confined primarily
          within the individual service areas of the   72   Organ Procurement Organizations.

Only a few years ago, some trsplant centers that could not use an organ they retreved would,
on the basis of private conversations and infonnal argements, send that organ to another
center. That centet might be in the same State, in another State, or, for that matter, in another
countr. That is no longer allowed. The OPTN reuires that centers and OPOs have fonnally
stated criteria governing the distrbution of organs and that OPOs use the national organ center
for distrbuting any organs that they cannot use within their individual service areas. The organ
center then distrbutes such donated organs, in accord with established criteria, to individuals on
a national waiting list it maintains.

In this and many other respects, the OPTN, as seyeral of the individuals we interviewed
indicated, has been a positive force in the development ofa national system characterized by
unifonn policies and standards. It has provided a valuable forum for bringing together diverse
interests and multiple viewpoints and, where possible, for forging common approaches based on
the national interest. It has established a computerize national waiting list as Congrss
mandated. 50 And , in the sphere of kidney transplantation , it has re uired that all donated
kidneys which match perfectly with a candidate on the national list 1 be made available to that
candidate, wherever he or she may reside in the United States.

The above ar significant achievements. Yet, in considering these and others that could be cited,
it is important to recognize that the actual distrbution of organs from donors to recipients
remains highly localized. It is localize, firs of all , in the sense that through the OPTN' s " local
use " policy, the 250 transplant centers are allowed to retain almost all of the organs that they
have retreved. 52 They enter into cooperative agreements with an OPO or other centers only at
their own will. Indeed, if they so wish, they can make arngements concerning the distrbution
of organs with a donor hospital and/or an OPO in a service area other than the one in which they
are located.
 Secondly, as would be expected from this local use policy, the distribution system is also
 localized in the sense that most organs procured within a service ara never leave that area. Only
 about 22 percent of all the kidneys retreved are distrbuted nationally, through the OPTN organ
 center. 53 This shar, which includes perfectly matched kidneys that OPOs are mandated to
 distrbute nationally and the larger number of other kidneys which they voluntarly make
 available to the national pool, has not changed appreciably in recent years.

Whether or not the shar of organs that is distrbuted nationally should be increased is a matter
of much debate within the transplant field. The debate centers around the extent to which tissue
matching should be used to detennine who receives donated organs. One camp emphasizes that
transplant recipients whose tissues, or, in paricular, whose identified human leukocyte antigens
(HLA), are well matched with those of the donors wil have improved outcomes, both in tenns
of their physical well being and the life of the transplanted organ. Thus , the proponents of this
viewpoint point out that an organ distrbution system tha allows for recipients to be matched
with a large pool of potential donor organs , either in a few regions of the countr or, better yet,
nationally, wil enhance patient outcomes and provide for the best use of a scarce resource.

The other camp, while not necessarly discounting the gains from HLA matching, stresses that
similar or even better outcomes can result by using proper drg regimens and by minimizing the
time during which a retreved organ is held in storage prior to trsplanta tion. Thus, the
advocates for this position call for minimizing the national distrbution of organs and confining
distribution to a far more limited geographic scale, one that is no larger than an OPO service area
and perhaps even smaller.


COOPERATION€

       The developmellt of the Orgall Procuremellt alld Trallsplalltatioll Network is a
       signifcallt cooperative achievemellt of trallsplallt professionals alld others. Yet at the
       transplant center and OPO levels, the sense of local ownership that some trallsplallt
      professionals have towards orgalls they have procured impedes the del'elopmellt of all
      equitable and national system for distributing organs.

Just as the   OPT has been a constructive factor in the development of a national organ
distrbution system, so too has it been an important reflection of the readiness of many diverse
interests to work together cooperatively. The same can be said of many of the OPOs.

Yet, among many transplant professionals and transplant surgeons in parcular,     there remains a
sense of ownership of donated organs they have retreved.  This orientation inhibits further
cooperative achievements and, as we have already noted, impedes the development of a more
equitable system for distrbuting organs among patients.

By a " sense of local ownership " we mean that in the course of procuring organs, many transplant€
professionals, instead of viewing themselves as trstees of donated organs for all transplant
candidates in the United States, regard themselves more as agents for patients associated with a
particular transplant center or residing in a paricular service area.
 Thus, as ratioriale, we often hear that in order for trsplant surgeons to have suffcient
 incentive to     car
                    out the demanding work of procuring organs, often during the middle of the
 night , they must have some assurces that their patients (and their paricular programs) wil
 derive some benefit from the effon. As furter rationale, we also heard that the incentive to
 donate organs might diminish if residents of a parcular OPO serviCe area found that organs
 donated in their area were being sent to other aras that are less successful in obtaining donated
 organs. 55
 The latter rationale was expressed as follows by the OPTN' s Organ Procurement and
 Distribution Committee in response to a physician s recommendation that organs be allocated on
 a national basis, irspective of local or regional needs:

          The Committee pointed out that it is widely recognized and accepted that organ procure­
        ment is enhanced by local use. Or gaT)   donation is a donation .' Those who raise money
       for transplant recipients report that donations are highest where there are local patients
        waiting for organs. Furthermore, it is inequitable to force          OPOs to by-pass their
       own patients to subsidize the ineffciency of other OPOs.',   ffcient

 Such concerns, along with the reservations about the benefits of tissue matching, have been
 extremely influential in limiting the geogrphic scope of organ distrbution. They provide the
 basis for the " keep one-share one " type of kidney distrbution system described earlier. And
 they offer the rationale for the " renal payback system that the OPTN now applies in regard to
 kidneys that OPOs are mandated to donate to the national pool. Under that system , a transplant
 center receiving such a kidney must subsequently return one to the offering trnsplant center or
       57 Such an arangement was necessar to
 OPO.                                               maintan support for the perfect match
 requirement , even though that requirement affects only aJ:)Qut 8 percent of all cadaver kidneys
. transplanted.

It should be noted that some transplant professionals do. not view the organs they procure as
belonging to their trsplant progr or even their OPO service ara, and ar in fact opposed to
the OPTN' s renal payback system and other such payback systems operating within OPO service
areas. An indication of this point of view and the rationale behind it is offered in the following
excerpt from a letter sent to the OPTN in Februar 1989 by a, ttansplantsurgeon who is the
medical director of an OPO.

         Establishing a payback system also creates the ilusion that a kidney is the property of a
       given OPO. Clearly, we need to foster the notion that organs for transplantation are a na-
       tional resource which should be used in the most effcient and successful manner possible.
          ey are not anyone s In LVL ua property.

It should also be noted that the rationales supporting the ownership argument rest on fragile
foundations. We found no valid statistical basis to support the contention that organ procurement
will diminish if transplant centers and/or OPOs are not given some payback for procured
kidneys. And, contrary to the OPTN Committee s suggestion that communities do not expect to
supply organs to other parts of the countr without a reasonable return, we found that in a
national public opinion poll , commissioned by the OPTN itself, over 75 percent of the


                                                    1'\
respondents disagreed with the statement that "donor organs should go to someone in the area
where the donor lived.
                       RECOMMENDATIONS€
During the 1980s, there has been ttmendous progrss in the field of organ trnsplantation. At
the beginning of the decade, kidney trnsplantation was stil a poor alternative for the great
majority of dialysis patients, and hear and liver trnsplants were in the very early experimental
stages. By the end of the decade, kidney trsplants had become a well established protocol for
a significant proportion of dialysis patients, with close to 9, 00 such transplants being conducted
on an annual basis in the United States. Similarly, hear and liver trnsplants had advanced well
beyond the experimental stages, with more than 3, 600 such trnsplants being carried out
annually in the country.

In this milieu of rapid medical advance, there has also been substantial advance " in the
development of complex organizational systems responsible for the distrbution of organs, from
the point of donation to the point of transplantation. This advance is reflected in the increasing
sophistication of OPO operations and in the establishment of the OPTN as a policymaking and
oversight body.€


Yet , in the midst of this progress, we have found that there ar some disturbing disparities
between the stated expectations governing organ distrbution and the practice realities. This is
most especially the case with respect to the expectation that subject to medical criteria those on
transplant waiting lists should have equal access to trsplants and the reality that in some
respects the access is quite unequaL As the number of individuals awaiting a transplant
increases, this disparty becomes an increasingly serious matter waranting national attention.

In making our recommendations, we do not impose our own or others ' judgments about the three
stated sets of expectations. A reexamination of the desirabilty of some or all of those
expectations may be waranted, but is beyond the purview and data base of this study.

Thus, we regard the expectations as given. Each is the product of long deliberation among a .
broad base of paricipants, and each is rooted in law. In our recommendations, we focus on the
practice realities and on how they might be modified to reflect more closely the three sets of
ex pectations.€


We direct our recommendations primarly to PHS and HCFA and focus primarly on the equity
issue. Each agency has responsibility for addressing this issue: PHS, through its oversight of
the OPTN, and HCFA, through its oversight of Medicare and Medicaidexpenditures in general
and its certification of OPOs in paricular. We conclude with a recommendation to the American
Society for Transplant Surgeons and th American Society for Transplant Physicians.
  THE PUBLIC HEALTH SERVICE

 The PHS, ill collaboratioll with the OPTN, should issue regulations to require that each OPO
 (1) establish a sillgle, ullifed list ofpatiellts
                                                awaitilzg trallsplantatiOlz alld   distribute
                                                                                   (2)

 dOllated organs to those patients on a first come first served basis, subject to established
 medical criteria.

 What this means is that each trnsplant center located within an OPO' s service area would
 register its own trnsplant candidates on one unified list maintained by the OPO. Each donated
 cadaver organ that then becomes available for transplantation in that service ara (except for
 those mandated by the OPTN to be distrbuted nationally), would then be offered to patients on
 that list in the order that they have been registered. The only basic exceptions would be   those
- warrnted in accord with established medical criteria (which , as we note subsequently, must be
 stated more explicitly).

 With this approach, the emphasis would be on equitable access among patients, not among
 trnsplant centers. Transplant centers would not " own " any organs that they or others have
 procure. All distrbution of organs would be based on the OPO' s list , nOt individual centers
 own lists. The result would be a system that is much more in accord with congressional intent
 as expressed in 1984 and clarfied
 in 1988.


 The PHS, in collaboratioll with the OPTN, should issue regulations to require that each
 trallsplant cellter alld donor hospital ill all OPO service area adhere to the celltralizedorga1l
 distribution policies of the OPO gover1ling that area.

 If the first recommendation is to achieve its objective of a more equitable, patient based system
 the above recommendation must also be cared out. If it were nOt, transplant centers would be
 able to undennine the first come first served approach by making organ distribution
 arangements, as some now do, with a donor hospital and/or an OPO outside the service area in
 which they ar located.

In this context, it is absolutely essential that OPOs, not trnsplant centers , be regarded as the
engines of the organ distrbution system. They should have the authority to shape and oversee
distribution policies in their service areas, in accord with guiding Federal requirements, and they
should be held accountable for the exercise of this authority. In guiding the equitable
distribution of organs, they must assure that the focus is on the equitable access of patients, nOt
transplant centers.


The PHS, in collaboration with the OPTN, should support the deJ e!opme1lt of medical
practice guidelines addressing orga1l trallsplantatioll.

Our recommendation callng    for OPOs to distrbute donated organs on a first come first served
basis responds to the National Organ Transplant Act s requirement that organs be allocated
equitably among patients. It also responds to the Act s injunction that organs be allocated in
accord with " established medical criteria.
Herein lies a certain problem. There are differences among professionals in the field concerning
the proper scope of medical crteria and how such criteria should be applied at a time when there
is a considerable shortage of donor organs. These differences involve, among other things, the



               6O
degree of emphasis that should be given to age, sensitivity level, and HLA matching in
distrbuting organs. Further, it is possible that the application of such criteria, at least in so far as
they apply to HLA matching, can contrbute to the inequitable allocation of organs among blacks
-and whites.

Thus, it appears that further examination of the content of these criteria and some resolution
concerning them is relevant to any concerted national effort to reduce the racial and other
disparties indicated in this report. In short, it is important to have a clearer definition of just
what is meant by the widely used tenn " medical criteria.

In that regard, PHS can make a valuable contrbution by supportng the development of
transplant practice guidelines, based on medical outcomes, that would serve as an authoritative
and useful reference point both for practicing professionals and for oversight bodies responsible
for assuring that organs are in fact being distrbuted equitably.

If in the effort to establish practice guidelines it emerges that certin choices concerning organ
allocation are in essence societal ones more than medcal ones, then they should be identified as
such and be addressed by the OPTN , the Deparment of Health and Human Services, and
perhaps even the Congress.

The PHS should fund a demonstration effort incorporating the followillg two features:           (I) the
establishment of a single, ullifed waitillg list includillg all patiellts awaiting all orgall
transplallt in a Ilumber of 0 PO service areas and    (2) the mandatory distributioll of dOllated
organs to those patients on a first come first served basis, subject to established medical
criteria.

There is much to be gained by regularly distrbuting organs on a geographic basis larger than that
of individual OPOs, of which there ar 72 in the countr. By allowing for a larger pool of
potential donors, larger scale organization would enhance the trnsplant opportunities of the
highly sensitized and allow for better tissue matching between donors and recipients. Also, by
bringing transplant centers now in different OPO service aras under one distrbution system,
would eliminate the differential access that patients in different OPO service areas now have to
organ transplantation.

Yet, some argue that such gains are outweighed by varous losses. Among them are the time and
financial costs associated with transpoI1ng organs longer distances. A carfully constructed
demonstrtion involving multiple OPOs could provide valuable data to infoml this debate and
contribute to the development of national policy. If, in fact, the benefits of larger scale
organization outweigh the costs, serious consideration should then be given to developing larger
scale distrbution systems throughout the nation and even to reducing the number of OPOs.




                                                  .19
THE HEALTH CARE FINANCING ADMINISTRATION
AND THE PUBLIC HEALTH SERVICE

The HCFA and the PHS should supportresearcll efforts that could help reduce racial
disparities in organ allocation.

Building on aleady initiated efforts, this research agenda should have at least two major thrusts.
One should be to conduct a thorough examination of the varous factors, medical and
nonmedical, that might help explain the differential access to trnsplantation of black and white
trnsplant candidates. As those factors become understood more clearly, policymakers wil be
able to tae corrective actions with a grater degree of confidence.

The second thrust should be to intensify research efforts to study the immunogenetics of blacks.
With blacks accounting for 34 percent of those with kidney failure and 30 percent of transplant
candidates, such efforts are of extreme imponance. Moreover, as more and better information
becomes available about the antigen specificities of blacks, they will be able to participate more
fully and equitably in organ distrbution systems that involve HLA matching.

Before granting Medicare recertification to an OPO, HCFA, in collaboration with PHS,
should assure that the OPO is distributing organs equitably among patients, according to
established medical criteria.

In the National Organ Transplant Act, Congress clearly set fonh its intent that organs be
distrbuted equitably as stated above. Yet, we have found that across the nation the access to
organ transplantation remains unequal in some important respects. This is a serious matter
which it does not appear can be explained strctly on the basis of medical criteria.

We recognize that a detennination of whether or not an OPO is distrbuting organs equitably is
not a simple matter subject to a quick assessment. Howeyer, because it is so viral a matter, we
think that HCFA must develop some way of making a reasonable judgment on it. In this regard,
the PHS, through the OPTN , can be of considerable assistance by providing data, specific to
OPO service areas, that indicate the median time of those on waiting lists and that compare the
characteristics of those on waiting lists with those reeiving trnsplants. Such data can be useful
in identifying outliers and in raising questions that HCFAshould addrss in making
                          61 To overlook this matter, or to leave it as a matter for OPOs to certify
recertfication decisions.
without any outside review, could impede the development of a more equitable system.

Thus, we urge HCFA to collaborate with PHS to detennine the kind of quantitative indicatOrs it
should rely upon to help determne if al) OPO is adhering to the congressional mandate to
distribute organs equitably among patients according to established medical criteria.

Before granting Medicare recertification to an OPO, HCFA, in collaboration with PHS,
should assure that the OPO is conducting a rigorous, sOllndly based orgall procurement effort.

Disparties in the rate of organ procurement from one OPO service area to another appear to
inhibit professional support for the national distrbution of organs. The OPTN' s Procurement
and Distrbution Committee and others we interviewed have suggested that this is because OPOs€
that are more effective in procuring organs are reluctant to serve as a source of supply for those€
that are less effective.



To addrss this concern and to promote organ prourement generaly, we encourage HCFA and
PHS to examine OPOs with relatively high rates of procurement over a 2- or 3-year period and
to determne if there are lessons leared from their efforts that might usefully be shared with
other OPOs. However, given the significance of the matter, in terms of both procurement and
equity objectives, we also urge that HCFA use the recertification process to assure itself that
OPOs ar caring out substantial, well-conceived prourement effort.

We recommend that HCFA , in collaboration with PHS, identify appropriate indicators of such€



                                                       62€
efforts to help guide its recertfication reviews. In this regard, we urge that it give paricular
attention to its perfonnance stadard governing OPO prourement. At present, HCFA has no
such standard governing hear or liver procurement, but has one calling for OPOs to proure
kidneys at a rate of at least 23 per millon population.


Given the growth in the number of hear and liver transplants, it may be a good time to develop a
procurement performnce standard that applies to them as well as to kidneys. Moreover, it may
be more meaningful to base the standard on the number of hospital deaths reported in an OPO
service area than on its population level.


THEAMERICAN SOCIETY OF TRANSPLANT SURGEONS€
AND THE AMERICAN SOCIETY OF TRANSPLANT PHYSICIANS€

The ASTS and the ASTP should conduct their own inquiries of the factors leading to longer
median waiting times for blacks thaI' whites awaiting a kidney transplant and of all)' actiolls
their associations should take to help reduce this disparity.

The search for a constrctive response to the black-white disparty highlighted in this study€
should not be limited to governmental entities. All professionals and professional organizations€
in the transplantation field should be involved in this searh. That is parcularly importnt, we€
believe, with respect to the ASTS and the ASTP, the two national organizations representing€
physicians associated with organ transplantation. 


In any inquiries they undertake, we urge ASTS, ASTP, and other organizations to give careful€
consideration to practice realities that might contribute, however inadvertently, to the disparities€
noted in this report. In this context, w urge particular attention to the following conclusion€
reached by the American Medical Association s Council on Ethical and Judicial Affairs:€

       The social disparities in treatment decisions indicate that inappropriate considerations€
      may enter the decision-making process. The efforts of the specialty societies, with the
      coordination and assistance of the American Medical Association, to develop practice
      parameters should include criteria that would preclude or diminish racial di.\parities.
    COMMENTS ON THE DRAFT REPORT

 Within the Deparent of Health and Human Services, we received comments from the Public
 Health Service (PHS), the Health Cae Financing Admnistration (HCFA), and the Assistant
 Secretar for Planning and Evaluation (ASPE). In addition , we received comments from many
 private organizations. These included the American Society of Trasplant    Physicians (ASTP),
 the American Society of Transplant Surgeons (ASTS), the United Network for Organ Sharng
 (UNOS), the American Society for Histocompatibilty and Immunogenetics (ASHI), the
 Association of Organ Procurement Organizations (AOPO), the North American Transplant
 Coordinators Organization (NATCO), the New England Organ Bank (NEOB), and the
 South- Eastern Organ Procurement Foundation (SEOPF).

  In appendix D , we present the detailed comments offered and our response to them. As indicated
  there, PHS and HCFA agreed with all of the- recommendations directed to them. In response to
 our recommendation that ASTS and ASTP conduct their own inquiries of the factors leading to
  longer median waiting times for blacks than whites, ASTP indicated that its Patient Care and
 Education Committee has alady conducted such a study and arved at findings in agreement
 with our report. The ASTS responded that it was wiling to: (a) Define medical indices of
 patient suitabilty for being placed on transplant waiting lists; (b) Develop an allocation scheme
 that addresses all (racial included) factors that affect organ distrbution; and (c) Delineate
. standards to assess OPO activity and perfonnance.

Among those commenting, most focused on our finding concerning the racial disparity and our
recommendations addressing that finding. In that regard, many noted that human leukocyte
antigen (HLA) matching was an important factor contrbuting to the disparity and that the report
should have given more co nsideration to this factor. Others noted that once a donor organ
becomes available to black candidates they may be less likely to receive it because of medical
financial, social , and/or personalconsiderations. In short, most of the respondents would have
liked the report to have delved more thoroughly into the possible causes for the racial difference.

Two of those commenting expressed considerable concern that the report implied that racial
prejudice might be contrbuting to the gap in black-white waiting times. A third (ASH!) added
that a direct way to examine this matter would be " to examine the demographics of patients
passed over for transplantation.

On our recommendation callng      for each OPO to develop a single, unified list of patients and to
allocate donated organs to those persons on a first come first served basis, PHS, NATCO, and
ASH! expressed support; the latter s support of the concept, however, was clearly based on the
associated use of allocation criteria that give some emphasis to good HLA matches. At the other
end , ASTP, ASTS, and ASPE opposed the recommendation, arguing that it would not necessarily
serve to reduce the racial disparty. The ASPE, which was critical of many of the report
findings and recommendations, added that a first come first served scheme was tOo simplistic
and overlooked many important factors that must be considered in the organ allocation process.
Finally, three commenters (ASTP, ASTS, and ASHI) urged that more attention be given to the€
need to increase organ donation rates, especially among blacks. In fact, ASTP indicated that this€
was a bigger problem than organ distrbution. Similar sentiment was expressed by some€
members of the National Kidney and Urologic Diseases Advisory Boar during a briefing which€
we gave to that body.

In response to these comments, we offer the following infonnation and considerations:€

      We revised our presentation on the factors that might contrbute to the longer median wait­
      ing time for blacks. Compared with the draf report the final report s discussion of these
      factors gives more emphasis to the possible influence of HLA matching, identifies a fuller€
      range of other possible factors, and offers a more precise explanation of the possibility of€
      racial bias. On the latter matter, we clearly state that we have no evidence of such bias,
      but that at least " subconscious bias " must be included on any list of possible causes.€

     We recognize that even with the revised text our finding concerning the racial disparty
     raises more questi ns than it answers. It is for that reason that we call for HCFA and PHS
     to support research efforts that could help reduce the disparty. Some such inquiry, we un-
     derstand, is already being supported and may help provide some answers. We urge that it
     continue and that parcular attention be given to research that seeks to add to the medical
     knowledge base on the immunogenetics of blacks (and other minorities).

     On our first recommendation callng for each OPO service ara to use a single waiting list
     and to allocate organs to patients on that list on a first come first serve basis, subject to
     medical criteria, we strss the following points:

     We recognize the complexity of the considerations governing organ allocation. At the€
     same time, we recognize the primacy of congressional expectations concerning allocation.€
     Our review of legislative history makes it quite clear that Congress intends for organs to€
     be distrbuted equitably among patients, not among trsplant centers. Our discussions

     with staff closely involved with this history also suggest that the first come fIrst served€
     principle is at the core of what Congrss means by equity and that medical factors provide€
     the only legitimate basis for deviating from that principle.€

     We recognize, as the New England Organ Bank indicates, that there is not a national€
     consensus on the medical criteria that should guide organ allocation and that there are€
     legitimate scientific disagreements concerning these criteria. Our intent here is nOt to€
     generate arificial national medical criteria, but to have the medical criteria being€
     employed in each OPO service area clearly stated and to have those criteria be the only€
     legitimate basis for deviating from the first come fIrst served rule.€

     This approach would allow for the continued evolution of medical criteria. But it would€
     not allow for the inclusion of criteria that are clearly not medical in nature. The " keep€
     one, share one " criterion would seem to be one such criterion. It is directed to achieving€
     equity among transplant centers more than among transplant patients and does not appear€
     to be in concert with the authorizing legislation.€
On the matter of organ donation, we cenainly agree that it is a vital issue requiring serious
attention throughoUt the countr. BUt as long as we have a shortage of donor organs, it is
also vital to addrss how to allocate that scare resource most   equitably. Indeed, as organ
waiting lists grow, the matter of who receives donated organs and who does not becomes
increasingly signifcant€

In this regard, it is pertnent to note that in a recent study of organ procurement conducted€
by ABT Associates, the authors urged that the Organ Procurement and Transplantation Net-€
work add a goal focusing on the equitable allocation of organs in place of one addressing€
improved access to organs. In view of the congrssional concern about equity and the real-€
ity that the OPTN is not able to affect many of the most imposing barrers to access, they€
reasoned that such a shift would be timely.€
                                           APPENDIX A€
                            STATISTICAL METHODOWGY AND NOTES€

POtential recipients of cadaver kidneys, after registering for a trnsplant, typically wait for
several months before they actually receive one. Some potential recipients wait for years. This€
appendix describes the statistical methods used for the analysis of medan waiting times to€
transplantation of cadaver kidneys in the United States from October 1 1987 through March 31€
1989. The analysis explored the relationship of medan waiting time to demographic factors and€
biological factors. €

The Data€

The analysis employs data routinely collected by the United Network for Organ Sharing
(UNOS), an organization contrcted to operate the national organ procurement and transplant
network by the Public Health Service. Data were assembled from computer fies which contain
infonnation on all people registered with UNOS for kidney transplants from. October 1 , 1987
through'March 31, 1989. These data were then transmitted to the Offce of Inspector General on
a computer tape. The tape contains infonnation on 23, 632 people registered at either 202
transplant centers or 38 organ procurement organizations (we employ the tenn registration center€
in the future to refer to bOth groups).€

The analysis focused on registrants awaiting their first trsplant. As a result, the calculations€
exclude 4 770 people who received a transplant prior to October 1, 1987, and who were on the€
registr awaiting a second or third transplant during the time period covered by the analysis.€


The analysis employed median waiting times to receive a fIrst trnsplant. Because people can
register at more than one center, it was necessar to define a unique "beginning date " and
 beginning center" for each person in the analysis. The rules used to define the beginning date
and beginning center were as follows:€

      If a person registered at only one center, that center and registration date were used.€

      If a person:€
               (a)    registered at more than one center, and€
               (b)    had not yet received a transplant by March        1989€
          then the earliest registration 4ate , and the associated center, were used.€

      If a person:€
               (a) registered at more than one center, and
               (b) received a transplant at a center other than the ones at which
                   he or she had registered,
          then the earliest registration date, and the associated center, were used.€




                                                                   A - I

      If a person:
                (a)     registered at more than one center, and
                (b)     received. a transplant at one of them,
          then the trsplanting center and the registrtion date at that center were used.

Analysis of waiting times requires both a valid begining date and a valid trnsplant date. The
data used in the analysis excluded those individuals that did not have valid dates. In 939
instances, no registrtion date appeard on the tape. In 134 instances, the transplant date
preceded the registration date. Table A- I summarzes the results of this fIrst exclusion of records
from UNOS data.


                                                TABLE A-
                      Construction Of Study   GrQup First Set Of Exclusions From Data
      Reason for exclusion                    Number excluded                Number remaining

           Transplant prior to                                                18, 862 (80%)
                                                 770 (20%)
           10/1/87

           No registration date                  939 (4%)                        923 (76%)

           Transplant date precedes                                              789 (75%)
                                                  134 ( 1 %)
           regislTation date




Only a case- by-case audit can detemrine that all dates in the data are valid. This analysis
waiting times assumes that all dates for people not explicitly excluded, as above,- are valid. As
fewer than one percent of the people in the data had clearly invalid dates, this assumption is
probably reasonable.

Of the 17, 789 people remaining in the data set, 8, 048 (45 percent) received a fIrst transplant
from October 1, 1987 through March 31, 1989. The rOUtes by which they obtained their
transplants, according to the rules specified earlier, are shown in table A-




                                                     A-2
                         TABLE A- 2€
  The Relationship Between Registration center And Transplant€
                                  Center€
                          Transplantation Routes€                                   Frequency€
           Registered at only one center, reeived trsplant     at tht center€        974 (74%)€

           Registered at only one center, received trnsplant   elsewhere
            781 (22%)€

           Registered at more than one center, recived trsplant     at center€       125 (2%)€
           of ealiest registration


           Registered at more than one center, received trsplant    at €
                                                                                     132 (2%)€
           center of later registrtion€
           Registered at more than one center, received trsplant€
                                                                                     36 ( 0%)€
           elsewhere€



The relationship of waiting time to demogrphic and biological factors was included in this€
analysis. The demographic factors include age, race, sex, and location of registration (i.€
registration center). The biological factors include blood type and peak PRA, a nieasure of the€
likelihood of finding an organ which wil not be rejected by the immune system of the recipient.€

For some of the 17, 789 people with valid waiting times to first trsplant , infonnation on€
demogrphic and biological factors was not in the UNOS data. Because the number of people€
missing values forthese factors was small , these people were excluded fonn the analysis. Table€
  3 summarzes the results of excluding these people.€


                                                 TABLE A- 3€
                 Construction Of Study Group Second Set Of Exclusions From Data€
      Reason for exclusion                    Number excluded                    Number remaining

          Missing pea PRA                         224 ( 1%)                         565 (74%)

           Missing race                              8 (0%)                         557 (74%)

          Missing blood type                         1 (0%)                         556 (74%)



Unless otherwise stated, all results presented in this appendix wil derive from analysis of the

17,556 people who appear to have complete infonnationand valid dates. In appendix B , tables€
B I and H2 summarize characteristics (age, race , sex , size of registration center, peakPRA , and€
blood type) of this group.€




                                                     A - 3€
  Median Waiting Times€

. The analysis of waiting times concentrates on estimation of the  median waiting time to first
 transplant. The median waiting time is an appropriate stat stic for summarizing the experience of
 different groups waiting for a kidney tr.nsplant. The median waiting time is the time by which
 50 percent of registrants wil have received a kidney. For example, analysis of first transplams
 from October 1, 1987 through March 31 , 1989 indicates that the overall median waiting time is
   6 months. That is; half of the people included in this analysis received a kidney within 8.€
 months, and half waited longer. This result can be generalized to the current population
 assuming that (a) currnt registrts have demogrphic and biological charcteristics similar to
 those of people in the analysis, and (b) the process of organ recovery and distrbution remains
 the same.€

 We used survival analysis techniques to calculate the estimated median waiting times. The€
 waiting time for each recipient was defined ' as the number of months from the beginning date of€
 the period covered by the UNOS data, October 1 , 1987, until the date of a first transplant. Those
 recipients nOt receiving a transplant during the study period ar considered right censored.
 While the time to first trarsplant is unknown in these recipients, they still contribute data to
 estimate fIedian waiting times. For these recipients, their nsoring date is the ending date of€
 the covered period, March . 31, 1989. This date allows us to detennine the total number of€
 months contrbuted by censored recipients.€
                                 66 are used to calculate the estimated median waiting time to first€
 Kaplan- Meier survival curves
 transplant. This method correctly. adjusts for right censoring and makes no assumptions about€
 the underlying distribution of the individual waiting times. In the analysis, we also provide €
 percem confidence intervals for the median waiting times, using the methods of Brookmeyer and€
 Crowley.€

 A further adjus tment is made in this analysis to account for what we define as prior registrants.
 Many of the recipients included in the UNOS data, among both those receiving a tr.nsplant and
 those stil waiting at the end of the study period, registered at some point prior to the beginning
 of the study period. Adjustment for these recipients is accomplished using techniques described
 by Cnaanan Ryan. -Th analysis provides estimated median waitin times b
                                                                                   J) race, sex, bloo?
                                                                       regIstrants. The results of
 group, and SIze Of regIstrtIon centeras measure by the number of
 these analyses are presented in appendix B in tables B- 3, B- , andB-

 Most of the apparent difference between the waiting times for men and women is due to the€
 higher proportion of females with high PRA. When males and females are classifed into two€
 groups by PRA level, above and below 75, it is apparnt that women , on average, are more likely€
 to be highly sensitized than men (PRA =75). Table A- 5 shows the median waiting times by sex€
 and peak PRA.€




                                                  A -€
                                            TABLE A-5€
                            Median Time To Transplant By Average Peak€
                              Panel Reactive Antibody (PRA) And Sex€


                                              Peak PRA              Peak PRA
                          SEX                   oC                   ;: = 75

                        Women                   20.                    92.

                          Men                                          91.


The longer waiting times for women in the K group largely reflect higher sensitivities than
men-as measured by average peak PRA-within the grup. However, the longer waiting times
for women in the =75 group do nOt seem to relate to a similar disparity in average PRA level.

We also found that waiting times tend to be longer in the larger registration centers (see appendix
 , table B- 5), where size of center is measured by the number of registrants for a fIrst transplant
on the rolls at some time during the study period and classified into quariles. For registrants
with peak PRA less than 75, the estimated median waiting time in the tOp 25 percent of centers
was 9. 5 months, compared to 5. 7 months in the bottom 25 percent.



Multivariate Survival Analysis



While the estimated median waiting times can provide insight into the singular effects of
variables , they do not make effcient use of all of the infonnation available. Medians only take
into account differences over the middle portion of the waiting time distrbution and do nOt show
the extent of these differences over the total length of follow-up. Also, one cannOt fully adjust
for the effects of continuously varing factors such as age and peak PRA.

To satisfy these concerns, we used the proportonal hazads method of survival analysis ?) This
multivarate approach allows one to adjust simultaneously for multiple factors, whether
continuous or discrete, over the length of the follow-up period. To adjust for the prior
registrations, we stratified by registration date. This technique is referred to as blocking and is
                      71 The registration periods, or blocks, used are presented in table A-
described by Cnaan.




                                                A-5
                                          TABLE A-6€
                        Blocking Periods Employed In Multivariate Analysis€


                        Date of registration             Number of registrants

                           up to 09/30/84
                        433

                         10/01/84- 03/31/85                       142

                         04/01/85- 09/30/85                       221

                         10/01/85-03/31/86                        404

                         04/01/86- 09/30/86                       644

                         10/01/86- 12/31/86                       421

                        01/01/87-03/31/87                         629

                         04/01/87- 06/30/87                       796

                         07/01/87- 09/30/87                        573

                         10/01/87- 03/31/89                      12, 293

                          Total in study:€                       17, 556



In appendix B table B- 6 gives results of the proportonal hazards analyses. The analyses are
also stratified, or blocked, by age and blood type, so that these factors are held constant in
assessing the effects of the other variables.

The table shows that a black has from 69 percent to 77 percent of an equivalent white registrant's
chance of receiving a ' kidney at any point in time after the date of registration. The 77 percent
figure refers to bloo types Band AB;the 69 percent figure to blood types A and O. The
probabilty of seeing a black-white disparty this great if kidneys were randomly allocated
among equivalent blacks and whites is less than 1 in a bilion. This result is statistically
signifcant.

The proportional hazards analyses also examine the effect of different PRA levels on waiting
times, holding constant other factors such as blood type. . The table also shows that a person with
a peak PRA of 75 has 40 percent of the chance of a person with a PRA of zero of receiving a
kidney at any parcular time after registering (blood type A or 0) and 33 percent of a PRA zero
person s chance for blood types Band AB.
Peak PRA appears to affect time to first transplant somewhat differently in the two different
blood type subsets. For blood types A and 0, the effect of increases in PRA becomes
increasingly severe at higher PRA levels (the PRA-squared tenn in the proportional hazards
model is negative). In other words, a PRA increase from 70 to 80 decreases one s chances for
receiving a transplant more than an increase from 10 to 20.



                                                 A-6
model is negative). In other word,   a PRA increase from 70 to 80 decreases one s chances for
receiving a trnsplant more than an increase   from 10 to 20.

For types Band AB, additional PRA increases at higher levels appear to have a diminishing
effect. Of course, a person with bloo type B and a high PRA level already has only a very
distant possibility of getting a kidney. The diminishing marginal effect of PRA increases    for

such people basically restates that fact

Finally, this analysis confinns the preliminar result that waiting times increase with the size of
the registration center. A person registering at a center with 100 registrants during the study
period has 90-93 percent of a person s chance of receiving a kidney at any point after registering
at a center where the wait list is size 25.

The proportional hazards models reported here ar just two of a number of models studied in the
course of this analysis. Other models and assumptions did not give results markedly different
from those reported above. In paricular, excluding short waiting times (some people got a
kidney the same day they registered), excluding long waiting times, restricting the analysis to
registrants after 10/1/87, or incorporating " interactions " such as black and male, or different
PRA effects for blacks and whites, did not alter the essential results regarding the significance of
race, gender, peak PRA , and size of registrtion center.

However, proportonal hazards models do assume proportonality of effect. That is, the effects
of factors like race or PRA on the probability of receiving a kidney should be multiplicative over
the entire follow-up period. Tests of proportionality show that the models used in this analysis
fail to meet this requirement for center size (blood types Band AB) and for peak PRA and
                               72 It appears that these factOrs may have some time dependence in
gender (blood types A and 0).
their effects. That is, the effect of an increase in PRA for a blood type A person who has been
waiting a long time may difer somewhat from the effect of an equivalent increase in PRA for the
same person with a short waiting time.

The investigation of such subtleties lies outside the scope of this analysis. There is no indication
that such fluctuations from the proportonal hazads assumption would alter the principal results
regarding the significance of race, gender, bloo type, PRA , and center size.


Registration Center Specific Analysis€

Additional analyses were conducted to examine the relationship between the median waiting
time by characteristics of the registrtion center s waiting list. In these analyses, for each
registration center, the median waiting time to trnsplants for white recipients and black
recipients was calculated separately. It was also detennined what percent of the registration€
centers ' waiting lists consisted of black patients. We then calculated the ratio of the black
recipients ' median waiting time to that of the white recipients for each registration center. A mtio
greater than one indicates that black recipients waited longer, on the averdge, than white
recipients.



                                                A-
To detennine the national applicability of the finding that black reipients wait longer for
transplants than do white recipients, we categorized, where possible, each registration center into
the appropriate region as defined by the Deparent of Health and Human Services (DHHS).

results of this analysis.
We then calculated for each region the mean ratio of median waiting times. Table A- 7 gives the


                                                TABLE A-€
             Mean Ratio Of Black Recipients ' Waiting Time To That Of White Recipients,
                                        By DHHS Region

                               REGION                                         MEAN RATIO€

                (CT, ME, MA , NH , RI, VT€
           II (NY, NJ, PR, VI)€                                                   1.88€

           II (DE , MD, PA , VA , WV, DC)                                         1.82€

           IV (AL, FL, GA , KY, MS, NC, SC, 1N)€
                (IL, IN , MI, MN, OH , WI)                                        1.25€

           VI (AR , LA, NM , OK , TX)€                                            1.89€

           VII (lA , KS , MO, NE)                                                 1.94€

           VII (CO, MT, NO , SO , UT, WY)€                                        1.03€

                (AZ, CA , HI, NV, GU, Trust TeITitory of
                                                                                  1.85€
                Pacific Islands, American Samoa)
                (AK , 10, OR, WA)

           Unknown€                                                               1.64€

           TOTAL€                                                                 1.81€


The " unknown " category includes those registration centers, the identity of which is nOff1ally€
encrypted by UNOS, that refused to be identified. An Analysis of Varance showed that Regions€
I and VIII were lower than the other regions but that the other regions were not significantly€
different from each other when using Duncan s Multiple Range Test. These data suggest that the€
finding of longer waiting times to transplantation for blacks is a national problem and not€
confined to any specific geographic locality.

. In a second analysis, we wished to detennine the effect of the proportion of blacks on a€
 registration center s waiting list on this ratio of median waiting times. We perforn1ed a
regression of the percent of blacks in a registration center s waiting list against this ratio. We
first used a linear model , where the ratio is assumed to have a linear relationship to the percent of
blacks on the waiting list. The gqph in figure A- I shows the plot of this ratio with the percent of
                                   2 for this model was 0. 03, which indicates that only 3 percent of
blacks on the waiting list. The R
the varation in the ratio can be explained by the varation in the percent of blacks on a transplant€
center s waiting list. The plot shows extremely wide confidence intervals (dashed line) around€
the expected value (solid line), also indicating a poor fit to the model.€


                                                     A - 8€
To detennine if there may be some curvilnear relationship, we also fit a quadratic model to the
data. The plot of this model is shown in figure A- 2. The R2 for this model was increased (0 only
 05; that is, only 5 percent of the varation in the value of the ratio is explained by the variation
in the percent of blacks on a registration center s waiting list The results of both of these
anempts at model fitting would indicate that the ratio of blacks ' median waiting time to
transplant to that of whites is not affected by the percent of black recipients , or potential
recipients, residing on a registration center s waiting list.




                                                 A-9
                         FIGURE A -€
                    RATIO OF MEDIA WAmG           "MES
                             TRSP CE WAJNG
         BY PERCENT BLACK ON
                        BLACK TO WHIT         RA110
RA 110




         o 0€



                                          o ...
                                       ..-c




          0 0€
          CD 0€




         000        00
                  00 0 0



          . 10                                           . to
                     PERCENT BLACE OM rAITII' LIST€


                    UNEA MODEL Y-B1 +B2*X€
           SaUD UNE IS   EXEC. DASHED UNE IS 95 " C.€


                             A - 10

                                   FIGURE A-2€
                    RATIO OF MEDIA WAmNG "MES€
         BY PERCENT BLACK ON           TRSP
                                        CENT WAJNG UST€
                        BLACK TO WHIT RATIO€

ROIO€




         o 0




                                              o e

  5 '€
                  " -,,-.u. -e.€



                                             0 '€




          c c

          a: C





         00=                  0 0

                          00 0





          . 10

                                                                        , '0€
                               PERCENT BlACI 01 IAITIIG LIST




                   QUADRATIC MODEL Y-B1+B2X+B3*X€
           SaUD UNE IS             EXEC,
                                    DASHED UNE IS 95            0.1.€
                                 APPENDIX
               TABLES DERIVED FROM THE ORGAN PROCUREMENT
                  AND TRANSPLANTATION NETWORK DATA BASE

Following ar six tables presenting data that are relevant to our findings and that are based on
our primar data base of 17, 556 individuals in the United States who between OctOber 1 , 1987
and March 31 , 1989, were wai ng for or actually received a first kidney transplant.
                                         TABLE B-
          Demographics Of Those Receiving And Waiting For Their First Kidney Transplant
                               October 1 1987 - March 31, 1989

                   TRANSPLANTED                 WAITING                     TOTAL
   AGE           NUMBER    PERCENT           NUMBER PERCENT             NUMBER PERCENT

                                                                 0.5      115

                    379                                                   739

 19-45            4,551           57.3         521              57.4   10, 072             57,

 46-                775           34.        3,478              36.       253              35,

 65+                164                       213                         377

 TOTAL             940           100.         616              100.    17, 556            100.


                   TRANSPLANTED                      WAITING                TOTAL
  AGE            NUMBER    PERCENT           NUMBER       PERCENT       NUMBER PERCENT

Black              792            22.        965                30.       757              27.

While              205            65.         237               54,    10, 442             59.5

Other              943            11.9        414               14.       357              13.4

 TOTAL             940           100.         616              100,       556             lOtI.O



                   TRANSPLANTED                 WAITING                     TOTAL
  SEX            NUMBER    PERCENT           NUMBER PERCENT             NUMBER PERCENT

Female             079            38.        4,424             46.        503             42.

Male               861            61.2        192               54.    10, 053             57.3

 TOTAL             940           100.         616              100.    17, 556            lOO,



                   TRANSPLANTED                      WAITING                TOTAL
QUARTILE         NUMBER    PERCENT           NUMBER       PERCENT       NUMBER  PERCENT

  First            208                        232                         440

 Second            994            12.         945               10.5      889              11.6

  Third            860            25.4 .      968              21.9       828              23.5

 Fourth            309            58.         848              65.     10, 157            62.

 TOTAL             321           100.         993              lOO,    16, 314            IOO,




                                              B- 2

                                    TABLE B-
Blood Type And Peak PRA Of Those Receiving And Waiting For Their First Kidney Transplant
                            October 1, 1987 - March 31, 1989

BLOOD          TRANSPLANTED                 WAITING                    TOTAL
 TYPE        NUMBER    PERCENT           NUMBER PERCENT            NUMBER PERCENT

               943            37,         383            24,         326           30.

               318                        197                        515

               963            12,        1621            16.         584           14.

               716            46,        5,415           56,         131           52.

TOTAL          940           100,         616           100.      17, 556         100.



 PEAK          TRANSPLANTED                 WAITING                    TOTAL
  PRA        NUMBER    PERCENT           NUMBER PERCENT            NUMBER PERCENT

               303            79.4        330            65,      12, 633          72.

25 - 49        621                        792                        413

50 -           420             5.3        678                        098            6.3

75 - 100
      596                        816            18,       2,412           13.

TOTAL          940           100.         616           100,         556          100.
                               TABLE B-€
   Estimated Median Waiting Times In Months To First Transplant By Race
                Controllng For Blood Type And Peak PRA
                                Ages 18-€
PEAK PRA LESS THAN 



                                             RACE€

BLOOD TYPE              BLACK                WHITE            OTHER€


                                                                3.1€

                         17.4                 10,              11.8€

                         15.                                   14.4€

OVERALL                  12,€

PEAK PRA GREATER THAN


                                             RACE€

BLOOD TYPE              BLACK                WHITE            OTHER

                                              21.2             61.9

                         10,                ' 20.4


                        35.5                                   19.

                        48.                   31.              28.€

OVERALL                 48.                   26.              43.€

ALL BLOOD€
TYPES AND                                                      12.€
                         13.
ALL PRA€
LEVELS€




                                   B - 4€
                        TABLE B-4
Estimated Median Waiting Times In Months To First Transplant€
                          By Sex€
               Controllng For Blood Type And Peak PRA€
                            Ages 18-4


 PEAK PRA LESS THAN 



                                         SEX

  BLOOD TYPE                  FEMALE              MALE



                               . 4.4


                                14.3                12.

                                12,                 11.3

 OVERALL                                             8.4

 PEAK PRA GREATER THAN €


                                         SEX

  BLOOD TYPE                  FEMALE              MALE

                                31.3                23,

                                20.4                 2.5
                                                    21.
                                38,                 25.

 OVERALL                        36,                 22.

 ALL BLOOD
 TYPES AND ALL                  10.
 PRA LEVELS




                                B-5
                                                  TABLE B-€
    Estimated Median Waiting             Times In    Months To First Transplant By Quartile
                               Controllng For Blood Type And Peak PRA
                                               Ages 18-€
    PEAK PRA LESS THAN


                                                              QUARTILE€

  BLOOD TYPE                     FIRST          SECOND                  THIRD         FOURTH

                                                   4.5                     4.1           5.4

                                   5.1€                                    6.1

                                                                          12.3          15.5

                                                                         10.1           12,

    OVERALL€                                                                             9.5€

    PEAK PRA GREATER THAN


                                                              QUARTILE€

  BLOOD TYPE                    FIRST€          SECOND                  THIRD         FOURTH€

                                  17.5€           21.2                   19.            39.€

                                                                                        27,€

                                 43,€             22.                    21.8€

                                 34.€             30.3                   32.4           34.3€

    OVERALL                      23.4€            27.                    24.            38.€


For an explanation a/the quartiles, see            appendix       A,   section on "median waiting times.€




                                                  B - 6€
                                                     TABLE B-6
         Results Of Proportional             Hazrds Analysis Time In Months To First Transplant 1
                        Relative Risks and        95 Percent Confidence Intervals (Clf
                                               BLOOD TYPES A AND 0                    BLOOD TYPES BAND AB€
            FACTOR                               Relative            95%                Relative    95%€
                                                  Risks                                       Risks€
Mae                                              1.05             (1.00- 1.11)           1.08              96- 1.22)€
Black                                                               64- 73)***                             68- 87)**'€
Pea PRA
(75 vs 0)
                                                                    26.63)***€            .33              11- 98)**'€

Center Waitig List Size€
                                                                    90- 96)***€                            84- 97)**€
(100 vs 25)€
                                                        659 Tralants                             281 Trasplants
                                                        798 Still Waiting€                       818 Stil Waiting€

   * p c:.                           ** p -=0.                               *** p -=0. 001

        Age and blood type held constant by blocking and adjusting for all other variables in
        the models. Results derived from the models presented in table A-




                               TABLE B-€
                 Date Of Registration Of Study Population

         DATE OF REGISTRATION                                          NUMBER                      PERCENT
               Before 1986                                                 967                            5.4€
               1186   - 616                                                506€
               7/86   - 121                                                798                            4.5€
               1187   - 617                                                432€
               7187   - 1217                                               649                           20.€
               1/88   - 618                                                952                           22.€
               7188    12188                                               180                          23.5€
               1/89    3189€                                               305                           13,€

                       TOTAL€                                           17, 789                         99,€




                                                         B - 7€
                             APPENDIX
                                     ENDNOTES

On April 2, 1990, the United NetWork for Organ Sharng report that there were 20, 171
individuals on the organ Procurement and Trasplantation Network' s national waiting list.
This included 16, 939 awaiting a transplant for a kidney, 1, 572 for a hear, 936 for a liver
328 for a pancreas, 260 for a hearung, and 136 for a lung.

In much of the. literature in the organ trsplantation field, this process is referrd to as the
 allocation " prOCess rather than the "distrbution " process, We use the latter tenn with the
understanding that it is a broader one that addesses not only the factors used in allocating
the' limited supply of organs to individuals on waiting lists, but also the actual results of
that process-that is, the individuals     ho actually received the donated organs. Given the
broad sense in which medical criteria are used to guide the final selection of patients, the
distinction betWeen allocation criteria and final results is an important one,

Our inquiry focuses on those already on transplant waiting lists, not on those who may be
candidates for such lists,

This. report follows-up on earlier Office of Inspector General reports concerning the access
to organ transplantation and the costs of organ acquisition. These are: (1) " The Access of
Foreign Nationals to U, S. Cadaver Organs, " August 1986; (2) "The Access of Dialysis
Patients to Kidney Trasplantation, " March 1987; " Organ Acquisition Costs: An
Overview," September 1987; and (4) " Kidney Acquisition Costs: A Management
Advisory Report, " November 1988.

Although the data are not available, kidney transplants almost certinly account for
even higher proportion of Federal expenditures for organ acquisition and transplantations.
While the Medicare progrm provides a near universal entitlement for those with kidney
faiure, it covers expenditures for hear and even more so liver trnsplants under more
restrcted conditions. Other types of transplants are still regarded as experimental,


In the early 1980s, when hear and liver transplants were still experimental , organ
procurement organizations (OPOs) were developing protocols for the varous activities
associated with kidney donation, procurement (a term which in this report we use
interchangeably with " retrev.al" ), and distrbution. As hear and liver transplants have
become m.ore common, the OPO have been increasingly involved in multiple organ
recoveries. While the established practices governing kidneys provided the framework for
the donation , procurement, and distrbution practices governing these other organs, there
are, .of c.oure, some differences. This is most especially the case with respect to allocation
decisions, since the receipt of non-renal organs is more likely to be a life-saving
development for the individuals involved (those with kidney failure have access to dialysis
and an alternative treatment) and since the allowable preservation time for excised hearts
and livers is much less than that for kidneys,


                                          c - 1

      The data were made avaiable to us by the United Network for Organ Sharng, the
      contrctor selected by the Public Health Service to help operate the Organ Procurement
       and Transplantation Network,

      The four OPOs selected were the Regional Organ Procurement Ag ncy of Southern
      California, the Shands Hospital at the University of Florida, the Uni ersity of Wisconsin
      Hospital, and the Delaware Valley Transplant Progr, They account for 13. 2 percent of
      all cadaver kidneys procured in the United States in 1988.

      Individuals (primarly presidents, but including some executive directors and designated
      vice- presidents) from the following organizations were interviewed: American Council on
      Transplantation Association of Organ Procurement Organizations, Nonh American
      Transplant Coordinators ' Organization , American Society of Transplant Physicians,
      American Society of Transplant Surgeons, American Society for Histocompatibility and
      Immunogenetics, American Medical. Association , American Hospital Association , United
      Network for Organ Sharng, American Nurses Association , South- Eastern Organ
      Procurement Foundation, and the American Association of Kidney Patients. Others
      interviewed included individuals from PHS and HCFA , congressional staffs, the Institute
      of Medicine, private consulting finns , and varous OPOs, immunological laboratories,
      trnsplant centers, and universities,

      These included published research; newspaper and magazine aricles; the Repon of the
      Task Force on Organ Transplantation; testimony from hearings conducted by the House
      Committee on Science and Technology; legislation and committee reports; reports issued
      or commissioned by. American Council on Transplantation, Government Accounting
      Offce, Congressional Research Service, and the National Institute of Digestive, Diabetes
      and Kidney Diseases; UNOS anicles of incorporation , bylaws, policies, board minutes,
      publications, committee reports, proposed policies, and letters of comment on current and
      proposed policies; several OPO distribution protocols; and PHS and HCFA regulations,
      including the OPTN contrct.

10.   See U. S.      Congress, House of Representatives, Committee on Science and Technology,
      Hearngs before the Subcommittee on Investigations and Oversight,            Organ Transplants,€
      98th Congrss, 1st Session , April 13, 14 , and 27, 1983 and November 7 and 9, 1983,

11.   National Organ Transplant Act P, L. No, 98- 504 1984. The Act had five major
      components: (1) est blishment of a national Task Force on Organ Transplantation to
      examine and report to Congress on the aray of issues facing the transplant community; (2)
      establishment of the Organ Procurement and Transplantation Network (OPTN) to€
      coordinate and regulate the procurement, matching, quality assurance , distribution and€
      trnsplantation functions of the trnsplant community; (3) provision for a national
      scientific registry to collect transplantation data and facilitate evaluation research; (4)€
      authorization of funding for the creation or upgrading of qualified organ procurement€
      organizations; and, (5) prohibition on the sale of human organs,€




                                                                         c - 2

12.    Repon of the Task Force on Organ Trasplantation                      Organ Transplantation:             ssues and
       Recommendations,                April 1986,


13,€   The UNOS emerged frm the South- Eatern Organ Procurement Foundation (SEOPF).
       Composed of numerous trsplant centers in southeastern and other States, SEOPF was
       established in the 1970s to faciltate the computerize matching of donors and recipients
       among the member institutions. In 1976, SEOPF made its computerize matching
       progrm available, for a fee, to all transplant centers in the United States that wished to
       register their patients, This program was called UNOS. In 1984 , UNOS was incorporated
       as anorganization separte from SEOPF. See John McDonald, " UNOS and ASHI
       American Society for Histocompatibility and Immunogenetics Quarterly,        Winter 1989,
       Vol. 13, No. 1, pp, 18- 20,

14.€   The contrct requires UNOS to provide the PHS with statistics and reports on the
       composition of the waiting list and on. trnsplantation activity,

15.€   The 1986 legislation was par of the Sixth Omnibus Budget Reconciliation Act of 1986
       (P. L.    99- 509),

       Congress also passed legislation concerning organ trnsplantation, procurement, and
       distrbution in 1988. That legislation included a number of amendments bearing on the
       PHS grant program, level of oro procurement activity, and the workings of the OPTN.
       In regard to the latter were requirments that the pPTN " establish membership criteria and
       medical criteria for allocating organs " and can out studies and demonstration projects
        for the purpose of improving procedures for organ procurement and allocation, " See the
       Health Omnibus Program Extension Act of 1988, P, L. 100- 607.

16.€   Under the Social Security amendments of 1972, Congress extended near universal
       Medicare coverage for dialysis and transplantation services for individuals with end stage
       renal disease.

17,€   The authorizing regulations stipulate criteria for covered trnsplant                          centers and guidelines

       for patient selection.

18.    Here, too, the proposed regulations stipulate criteria for covered transplant centers and
       guidelines for patient selection, Medicare already covers liver trnsplants for Medicare
       eligible children with bilar atresia, Medicaid, at State government option, also covers
       liver transplants and thus far has been the major Federal source of funding for liver
       transplants.

19.    UNOS/OPTN, Facts About Transplantation in the United States,
                                                                                                 April 1990.


20.€ Among the 72 OPOs, 50 are independent and 22 are hospital based, The OPOs perform
       some or all of the following functions: encouraging organ donation; identif ing potential
       organ donors; obtaining consent from next-of- kin; .and overseeing or coordinating the
       surgical excision of organs, the varous laboratory tests associated with transplantation , the


                                                                      C-3
        trnsportation and storage of organs, and, where applicable, the operation of a central€
        register of transplant candidates in the service ara,€

 21.    Early estimates, based on HCFA data, suggest that the number of cadaver and living-€
        related kidney trnsplants for 1989 may actually be lower than in 1986, 1987, or 1988:
          759 trsplants in 1989, compar with 8,931 in 1988, 967 in 1987, and 8, 976 in
        1986, See Alan Hull       S. Donor Procurement in 1989: Same Song, Third Verse,
        Nephrology News and Issues,               Vol. 4 , No. 3, pp. 32 and 34,

        Throughout the report, our focus is on organs procured from cadaver rather than living-
        related donors, The latter accounted for about 20 percent of all kidney transplants in 1988.
        Such donations are, of course, made with a parcular relative designated as the recipient.
        Donations of cadaver organs by the family of the deceased person cannot be targeted to
        specific individuals or places.

 23.    Throughout the report, we often use the term " professional leaders. " In so doing, we drw€
        heavily on the views expressed by the individuals we interviewed (see endnote 8) and on€
        the expressions of the Task Force on Organ Transplantation, While the latter, as noted,€
        involved more than professional leaders in the organ transplantation field, it was strongly€
        weighted with and influenced by such leaders.€

        Further, the expectations we address are basic ones involving general principles, We€
        deliberately focus on them rather than on the more detailed issues about which there are€
        more vared expectations,€

 24.    It should be noted that some individuals might add the expectation that the distribution
        system enhance the procurement of organs, This certainly is an important goal
        relationship to organ transplantation and is often used as a rationale to support particular
        configurations of the distrbution system, We address this issue further in our discussion
        of the finding concerning the cooperative relationships among transplant professionals.

        See National Organ Transplant Act, P, L. 98- 507, Title n.€

 26.    Senate Report 98- 382 ,  p. 13, Labor and Human Resources Committee, April 6, 1984€
        accompanies Senate bil 2048 which was passed in lieu of House bil 5580. The House
        Conference Report 98- 1127, p, 16, October 2 , 1984 , accompanies the Senate bil 2048 and
        reiterates that: "The conferes are particularly concerned that OPOs adopt medical criteria€
        for the equitable allocation of donated organs among transplant centers and patient,;.€

 27.    See Task Force, p, 89,€

 28.    See the Health Omnibus Program Extension Act of 1988, P, L.                100- 607,€


 29.    See Committee on Energy and Commerce, 
                House Report 100-383,   October 20, 1987 , p. 6.

. 30.   See National Organ Transplant Act , P. L. 98- 507 , Title II.


                                                            C .€
31.€ More specifically, those patients who ar        " highly   sensitize" have   developed antibodies to
       many different human leukocyte antigens (HAs), which ar genetically predetermined
       proteins located on body tissues, The presence of the antibodies increases the chances that
       the body wil reject a trsplanted organ. Patients develop antibodes     nd thus become
       highly sensitize in a varety of ways-most especially through blood trnsfusions,
       through the trsplantation and rejection of an organ, and through pregnancies. See Task
       Force, pp. 66- 7, 71.

32,     Among paricipating institUtions in the South- Eastern Organ Procurement Foundation,
       there was a more pronounced operative commitment to formal , collaborative efforts
       involving many trsplant centers.

33,    See Task Force, p, 69.

34.    Ibid" p, 68,


35.    A commonly used measure of sensitivity is a patient s Panel Reactive Antibody (PRA)
       level. It is determned by mixing a sample of a trnsplant candidate s serum with rhat of a
       panel of sera representing the population as a whole. On the basis of that mixing of sem, a
       candidate is given a PRA number which represents an estimate of percentage of the
       population against which he/she possesses antibodies and from whom he/she cannot
       receive a transplanted organ. The higher the PRA number of a candidate, the less likely a
       donated organ wil be an acceptable biological    atch for that candidate, Thus, a candidate
       with a PRA of 90 would likely reject 90 of each 100 organs that became available.
       On the basis of advice from several immunologists, we use a PRA level of 75 or over to
       define " highly   sensitize" and   less than 75 as " non- highly sensitized.

36.€   HCFA, ESRD Progrm Management and Medical Information System: November 1989
       update, The 23 percent cit d is for 1988. Through the 1980s, the annual percentage has
       remained betWeen 22 and 24, In 1989, with the data 60- 70 percent complete, black
       recipients accounted for 22 percent of all cadaver kidney trnsplants,

37,    UNOS/OPTN, as reported by PHS. The percentage is for 1989.

38,€   Through this statistical technique we also examined the independent effecrs of PRA level
       and transplant center waiting list size, while holding age and blood type constant,
       Through proportonal hazds analysis, we determined that when age and blood type were
       held constant, blacks on the waiting list were 23 to 31 percent less likely than whites to
       receive a kidney at any point in time (see appendix B, table B- 6).

39.€   As explained in appendix A, we use the term " registration center" because the OPTN data
       base we draw upon contains information on individuals registered at either transplant
       centers or organ procurement organizations.




                                                    C-5
40.	   See S. M, Greenstein, et al" " Does Kidney Distrbution Based upon HLA Matching Dis­
       criminate Against Blacks?" Transplantation Proceedings,   21, December 1989, pp, 3874-
       75, This issue of the journal presents the proeeings of the Second International Samuel
       L. Kountz Symposium on Renal Disease and Trasplantation in Blacks, held on March 28-
          , 1989, in Washington, D.

41.	   Council on Ethical and Judicial Affais Black- White Disparties in Health Care, Journal
       of the American Medical Association,      263, No. 17, May 2, 1990, p. 2345, For other ari­
       cles that address, at least in par, the racial differentials in access to kidney transplantation
       waiting lists, see Philp 1 Held et al. Access to Kidney Transplantation: Has the United
       States Eliminated Income and Racial Differences?" Archives of Internal Medicine, 148,
       December 1988, pp. 2594- 2600; and Paul Eggers, " Effect of Transplantation on the Medi­
       care End- Stage Renal Disease Progrm         New England Journal of Medicine,      318, pp. 223-
       229.

42.    Council on Ethical and Judicial Affairs, p. 2346,

43.    Ibid. , p, 2346.

44.        S. Census aureau Estimates, July 1 , 1988,

45.    HCFA, Progrm Management and Medical Information System: May 1989 update.

46.	   HCFA, ES                Progrm Management and Medical Information System: November 1989
       update,

47.	   For a discussion of factors contrbuting to the lower rates of donations among blacks, see
       Callender, e.O. The Results of Transplantation in Blacks: Just the Tip of the Iceberg,




48.	
       Transplantation Proceedings,




                                              12,
                                      Vol. 21 , No.3, 1989, pp. 3407- 10; and McDonald, J. e.,
        Comment: Issues Related to Race in Transplantation
         , No, 3, 1989, pp, 3411-
                                                                                               Vol.
                                                                              Transplantation Proceedings,




       The Division of Organ Transplantation in the Public Health Service indicates that it has re­
       ceivedinformation from an OPO official that there ar only about 14 black procurement
       coordinators working for OPOs.

49.	   Among non- highly sensitized candidates, we found no significant difference between the
       median waiting time of males and females (see appendix B , table B- 4),

50.	   Every person in the United States that is on a trnsplant center waiting list is supposed to
       be included on the national list. However, as explained later, the great majority of donated
       organs that become available are not distrbuted on the basis of this national list.

51.	   This policy of the OPTN (" mandatory sharng of phenotypically identically matched kid-
       neys ) can be found in Section 3. 3 of the OPTN by- laws,



                                                     C-6
52,    See UNOS Artcles of Incorporation. Policy 3,                 , May 31 1988,

53,€ The proportion of kidneys leaving the OPO service area in which they are procured i
     somewhat higher than 22 percent because of the distrbution arangements that some
       trsplant centers have with donor hospitas outside the OPO services area in which they
       (the trsplant centers) ar locate,

54.€ For furer elaboration on these arguments, see                Sta, T., et al" "A Multifactorial System
       for Equitable Selection of Cadaver Kidney Recipients, " 1 ournal of American Medical
       Association,          257, 1984 . pp, 3073- 5; Congressional Researh Service, " Organ
       Trasplantation in the United States: Analysis of Selected Ethical Issues, " February 1989;
       and " Patient Selection Crteria in Organ Transplantation: The Critical Question
       Transplantation Proceedings,            Vol. 21 , No. 3, 1989, pp, 3377- 3445.

55,€ There is a wide rage in the rate of organ procurement from one OPO to another, In 1988,
       for 44 of 52 reportng OPOs the Association of Organ Procurement Organizations
       (AOPO) found the rate to range from a low of 24 organs per millon population to a high
       of73. For kidneys alone, the rage was from 17 to 49. See Committee Report " AOPO
       Data Acquisition: June 1989, " pp. 13 and 15.


56.€   See Report of the Organ Procurement and Distrbution Committee to the Board of
       Directors, " Washington, D, C., June 20, 1989,

57.€ See OPTN, " Statements of Policy: Inter- Organ Procurement Sharing Agreements
       Definition of Resident Alien, Exportation of Organs, and Payback Syst m for Shared
       Kidneys, " Undated, p. 8,

58.    The letter is from Dr. Raben Kirkman , medical diector of the New England Organ Bank.

59.€   See Evans, R. and Manninen, D" " Public Opinion Concerning Organ Donation
       Prourement, and Distrbution: Results of a National Probabilty Sample Survey,
       Transplantation Studies,              Battelle Human Affairs Research Centers, Undated. The survey
       was conducted in Januar 1987.

60.€   See    Transplantation Proceedings,           December 1989, parcularly   the aricle by Greenstein
       et at In this report. we use the tenn " medcal criteria" in a broad sense that would also
       encompass biologic criteria, This would appear to be consistent with the National Organ
       Transplant Act, which does not specifically refer to biologic criteria,

61.€   A recertfication decision is not, of course,. simply a matter of whether or nOt to recertify
       an OPO. It can involve a decision to grant a conditional recertification, whereby the OPO
       must develop and have approved a corrective action plan addressing specific concerns
       raised by HCFA.




                                                           C-
62,	    In 1988  the 42 OPOs responding to the AOPO' s sUIvey had an average procurement rate
        of 34 per millon; 4 had a rate below HCFA' s minimum of 23 per milion, See Committee
        Repon, p. 16,

63.	    For a useful overview ofperfonnance measures and                                  Final
                                                                                        standards, see   MAXlMUS,


        Repon: Development of Organ Procurement Organization Descriptors, Performance
        Measures, and Criteria, " Prepared for Office of Transplantation , Health Resources and
        Services Admnistrtion, Deparent of Health and Human Services, May 15, 1986,
        II- I to lll- 13,
64.     Council on Ethical and Judicial Affairs, p, 2346.

65.     The study data ar not clear as to what date " age " of a registrnt is correct. Obviously, age
        changes with waiting time, However, since the rage of ages in the study is an order of
        magnitude greater than the range of w.aiting times, the ambiguity of age was not deemed
        imponant.

66. .   The original reference            is Kaplan , E,       , and p, Meier, " Nonparmetric Estimation from
        Incomplete Observations,"             Journal of the American Statistical Association,                      53, 1958, pp.
        457- 481. A good CUIent summar of the method and subsequent modifications appears in
        Kalbfleisch , J, D., and R.L. Prentice, The Statistical Analysis of Failure Time Data, John
        Wiley, 1980, pp. 10- 16,


67.     Brookmeyer, R" and J. Crowley, " A Confidence Interval for the Median Survival Time,
        Biometrics, 38, 1982 , pp. 29- 41.

68.	    See Cnaan, A. ,                 Survival Analysis in Natural History Studies of Disease
                                    and L. Ryan
        Statistics in Medicine,  8, 1989, pp, 1255- 1268, The authors also cite some earlier
        references regaring the adjustment of risk groups. Some of the adjustment methods have
        their origin in the study of AIDS, " ... where the onset time of infection is.., frequently
        unobservable.

69.	    Note that estimated medians do not behave like arthmetic averages,  It isperfecdy
        possible for a group to have an estimated median waiting time of 6 months (for example),
        and to divide into two subgroups with median waiting times of 3 months and 6 months,
        respectively,

70.	    The original reference to proportonal hazards is Cox , D, R., " Regression Models and Life
        Tables, JRSS-       , 1972 , pp, 187- 220, A more recent summar again can be found in
        Kalbfleisch and Prentice, referenced above. We use the PHGLMcompUter program
        written by Frank Hatell for the SAS(TM) system described in F. Harrell The PHGLM
        Procedure," SUGl Supplemental Library User s Guide Version 5, 1986, pp, 437- 466.

71.     See Cnaan and Ryan,




                                                                    C-8
72.   Deviation from strct proportonality was detennined by examining " paral residuals "   tests

      as descrbed by F. Harll (1986), cited above, and Schoenfield, D" " Panial Residuals for
      the Proponional Hazs   Regression Model, Biometrika,   69, 1980, pp, 239- 241.
                                  APPENDIX D

                     DETAILED COMMENTS ON THE DRAFT REPORT
                        AND OIG RESPONSE TO THE COMMENTS

  In this appendix we present the full comments of all the pares that responded to the drt report
  and our brief response to each set of comments- Our response supplements that offere in the
  final section of the text.

. The comments   offer a wide range of views and much pertent infonnation bearg on the issues
 addressed in our report, We urge the reader to review them carfully. In order, the comments
 presented in this appendi are from the following:

            The Public Health Service

            The Health Care Financing Administration

            The Assistant Secreta for Planning and Evaluation

            The United Network for Organ Sharng€

          . The American   Society of Transplant Surgeons

            The American Society of Transplant Physicians

            The American Society for Histocompatibilty and Immunogenetics

            The Association of Organ Procurement Organizations

            The North American Transplant Coordnators Organization

            The New England Organ Bank

           . The South- Eastern Organ Procurment   Foundation
:::Z'z
                                                                           Memorandum
  Date      DEC I 0 190

  From    Assistant Secretary for Health

  Subje   PHS Comments on 01G Draft Report " The Distribution of Organs
          for Transplantation: Expectations and Practices ()EJ- bl-r9-
                                                                                         sstJ
          Inspector beneral. OS

          Attached are . the PHS comments on the subject draft r-eport
          findings and ' recommendations. Ve concur with all
          recommendations directed to PHS and have taken or plan to take
          actions to implement           them.
                                        Regarding the recommendations
          whereby PHS is to collaborate with the Health Care Financing
          Administration (HCFA) in its Medicare recertification of organ
          procurement organizations. we are prepared to provide
          information or assistance to HCFA upon request.
          In the " gene ral commen ts " se ction of the attachment. we expres s
          our concern that this report did not sufficiently consider
          human leukocyte antigen (HLA) matching as a factor contributing
          fi rs t                        t.
          to racial disparity in estimated median waiting time for a
                    kidney t ransplan         Addi tionally. we s
          concept of a single. national list of patients awaiting
                                                                       ta te tha t the

          transplantation needs additiQnal study before conclusions can
          be reached about its utility. and omparable effectiveness.

                                  . fl

                                 .J                son.
                                                          D.     t2A
                                                               1)-;­

          Attachment
     COMMENS OF TH PUBLIC HETH SERVICE (PHS) . ON          OFFICE
 OF INSPECTOR GENERA (OIG) . DRAT 
        RT .      STRIBUTION OF
     ORGANS FOR TRSPLAATION          EXPECTATIONS AN PRACTICES,
                      OEI-01-89-00550, AUGUST 1990.

GEN COMMENTS
The OIG draft report states that access of patients to donated
organs remains Unequal in some            importt
                                         respects. Under the
Health Resources and Services Adstration' s (URA) Organ
Procuement Transplantation Netwrk (OPTN) contract, the United
Netwrk for OrganShar.1g (ONOS) 1s conductg a study of the
organ allocation systems. Where disparities               ar
                                                     found, the
study will explain those differences and, where appropriate,
propose measures to elimnate             them.
                                         This study is scheduled to
be completed in July 1991. Additionally, a study of OPTN and
Scientific Registry data is curently underwy. The study will
evaluate the factors that affect wait.1g            tie
                                                  for renal
transplantation. This particular study evaluates data for all

patients added to the national kidney waitig list s.1ce the

inception of OPTN to identify the biologic, demographic and
Organ Procurement , Organization (OPO) . related factors that
impact time waiting for kidney transplantation. Ths study
will be submitted to the New England              Jourl
                                                 of Hedc.1e .1
early 1991. Furher, the Departent is devloping a Notice of
Proposed Ruleming (NPRM)   that will address the wait.1g list
issue and will be subject to public coment
A concern PHS has with the OIG report is
the OIG did not sufficiently consider
                                                    tht it
                                                   appears that
                                                  hum
                                              leukocye antigen
 (HL) matching as a factor. contributing to the racial disparity
in estimted median waiting times for the
transplant. PHS believes it is a
                                                     firt
                                                  kidney
                                             signficat
                                                variable that
should be considered when             lookig at
                                       the black versus white
waiting times. Although the degree of antigen matchig that
positively affects the outcome of a transplat contiues to
a matter of much controversy,            cuent
                                        ONOS policy requres that
the highest priority be given to six antigen matched Or
phenotypically identical recipients.       s policy may place
blacks at a disadvantage because in may cases antigens in
blacks canot be identified. Therefore, if one holds the
belief that a six antigen match should be given the highest
priority - for transplantation, then by defintion, blacks are at
a disadvantage in term of             organ allocation.
A prelimnary f.1ding of the study entitled " Factors  Affecting
Waiting Periods for Renal Transplantations in the Un! ted
States. (See chart below), is that when ABO blood type, panel
reactive antibody sensitization,           BL
                                      antigen profiles and
recovery rate of organ procuement organzations are controlled
for, much of the difference between white and black males
disappears. For reasons not yet clear, the difference betwen
white and black females remina about the same.
                       Median Wai tinq Times, Per UNOS
                                (Months to Transplant)

                    Black                                  Whi te

           Male           Femle                    Hale          Femle
            13.           16 . 0+

                       tinq Times, Adjusted by Varia
                  Black                                    Whi te

           Male           Femle                    Hale         Female
            12.           15.                      11.

 The OIG advocates the use of a           single, unfied waiting            list of
 patients awaiting transplantation for each OPO. PHS                      supports
 this position.                       he concept of a single national list needs
 addi tional study before any conclusions                     an be reached about
 its utility and comparable effectiveness. Those who favor
 local lists suggest several drawbacks to a national list. For
 example, seeking recipients and transporting organs nationwide
 results in greater time expenditures which may have an effect
 on the quality of the organ .that is           ultitely            transplanted.
 Specifically, preservation time becomes a critical issue and
 success rates may be affected with the             lengt
                                               of time that
 elapses before transplantation can occu. Secondly,
  transporting organs long          distaces
                                      leads to increased costs
  because in same cases a transplant team has to fly to the site
  of the donation to      procue the
                                  organ and then fly back to the
  si te of the recipient to do the transplant. For OPOs, knowing
  that an organ would not be used locally, but shipped off to
  some other location in the United States may provide a
  disincentive. to procuement for the beefit of one' s patients.
  This might discourage those OPOs that are high producers
 because potential recipients in their ara mayor may not have
                                    procued. S.1larly,
  sharing provides     mil
. access to the organs they
 try to step up their efforts as their
                                                    national
                            incentive for less ,successful OPOs to
                                                   ow
                                             procuement rate will
 have little effect on the allocation of organs to individuals
 on the waiting list in their service
 concerned about the deviations          fro areas.
                                                While PHS is
                                       the approved allocation
 system and believes they should be reduced, we are not yet
conv ced that tmplementing a national system is the
appropriate solution to this problem.

organs than other groups and points out
                                        tht
Finally, the OIG states that blacks are less inclined
                                              in 1988, to donate
                                                       only
                                         It furer
about eight percent of all cadaver kidney transplants
              kidney from a black donor.
the use of Iited
                                                     states that
                                                       involved
of an est        300 organ procuement specialists
                                              about
                                                   working in
                                                    14 are
the 72 organ procurement  organzations,  only
black. PHS believes that any efforts to reduce racial
disparities in organ allocation, should include education for
potential donors, recruitment of black  organ procurement
                                   procuement   coordinators
specialists, and training of organ
how to approach famlies of differing
                                       cultural and ethic
background.
OIG RECOMMNDATION
PHS, in collaboration with OPTN, should  issue regulatio
require that each OPO: (1) estalish a (2)single, unified list of
                                            distribute donated
patients awaiting transplantation, and     fixt-served basis,
   ans to those patients on a first-come
subject to established medical criteria.

PHS RESPONSE
We concur.
                                        governng OPTN that
(1)  DHHS is developing regulations for
will address these issues. The proposed regulations will be
                                                      unown at
issued by means of a NPRM. The   date of issuance is
this time.  Additionally, the OPTN contract requres that
                                          estalishing a
study be conducted of the feasibility of
national waiting list. This study is to be
                                              comleted in
 u1y 1991.

 (2) DHHS is exploring includig organ
                                        distribution and
                                                 packg
imlementing P. L. OPTN.
                   99-509, which requres
allocation policies as part of the regulations
                                           transplant  hospitals
to be memers of          The Office of theGeeral    Counsel  has
                                    share  the draft  proposed
advised that the Departent canot  are issued.   Howver, before
regulations with OPTN until they '  distribtion   allocation
undertaking revisions to the organ         BL  matching and other
system, PHS will ascertain the effect of              whtes.
                                        underen if
biological factors on waiting times for blacks and
Additional qualitative studies will be
                                                        actual
 dispariti   are identified.
OIG RECOMMNDATION

PHS, in collaboration with OPTN, should issue regulations to

require that each transplant center and donor hospital in an

OPO service area adhere to the centralized organ distribution

policies of the OPO governing that area.

PHS RESPONSE

We concur.     The proposed regulations will address           ths issue.
OIG RECOMMNDATION

PHS, in collaboration with OPTN, should s pport the development

of medical practice guidelin s addressing organ

transplantation.
PHS RESPONSE

We concur. Following the development and issuance of the
above-referenced regulations, HRSA will            intiate
                                                 discussions
with the Agency for Health Care Policy and Research (AHCPR) and
the National Institutes of Health (NIH) to            dete%'e
                                                     the
feasibili ty ofestablishing medical practice guidelines


guidelines.
addressing organ transplantation. We expect that OPTN will
play an active role in the development of the medical practice

AHCPR has awarded a grant for a 3-year research study which

will comence during the first quarter of fiscal year 1991. The

 study will examne the legal, organizational, and health care

professional factors which affect the donation process of

organs and tissue for transplantation. Characteristics of the

donor and donorfamly that will                     be studied include age, sex,
race, and insurance status. This study should provide useful
info2:tion that                    may address some of the questions raised in
the OIG report and be of assistace in futur gudelines
development. It will be conducted in            tw          geographical areas in
which there are established - required request laws.                      e draft
report does not coment on the fact that 44 States have now
passed a - required request law, - which, among other
requres
                                                                 thgs
                       hospitals in those States to develop protocols related
to organ and tissue procurement.                      e study will also provide
for structured interviews with health care proiders and
admistrators                     and will assess various aspects of the donation
process of organ and tissue transplantation, including the
required request laws, hospi tal policies, and. provider
knowledge and attitudes.
OIG RECOMMENDATION€
PHS should fund a demonstration effort incorprating the€
following two features: (1) the establishment of a single,€
unified waiting list including all patients awating an organ

transplant in - a numer of OPO service areas, and (2) the

mandatory distribution of donated organs to those patients on a€
first-come, first-served basis, subject to estalished medical

cri teria . €

PHS RESPONSE€
We concur in principle. HRSA supports the concept of a single,€
unified waiting lis. t per OPO and an      equitale
                                              organ
transplantation allocation system, and will be proposing these
as part of the NPRM.
OIG RECOMMENDATION€
HCFA and PHS should support research efforts
reduce racial disparities in organ allocation. €
                                                     tht could help

PHS RESPONSE
We concur.      The OPTN contract has been modified to include the
following:
        A specific monitoring requirement to identify and
        explain significant variations in waitig ties among
        racial and    ethic
                          groups and to proote measues to
        elimnate  differences that      exst.
        A specific requirement to      exame     cut
                                                  policies
        Where disparities are found to result      fr
        and practices regarding organ recipient selection.
                                                   those
        policies and practices, the contractor is to         exlain
        those differences and, where appropriate, propose
        measures to    elimnate
                              them.
Addi tionally, BCFA is    undertga study of patient access to
transplantation. The study, being conducted by the
Corporation will    exame            how patients are selecec for
transplantation and why organs are frequently
patients other than those identified
                                                      trplantedasinto
                                                    the UBS' comuter
the best matched recipient.
 OIG RECOMMENDATION
 Before granting Medicare recertification to an OPO, BCFA, in
 collaboration with PHS, should assure that the OPO is
    1. distributing organs equitably among patients, according
       to established medical criteria, and -
                                                  procuement
    2. conducting a rigorous, soundly based organ €
       effort.
 PHS RESPONSE
 We concu. We will provide infor.ation or           assistace requested
 by HCFA to support their Medicare recertification decisions
 regarding OPOs.    PHS, through HRSA        s Division of Organ
 Transplanta tion, periodically meets with UNOS to review the
 acti vi ties and perfor.nce of the OPOs. The infor.tion and
 data obtained through this and other means will continue to be
 made available to BCFA.
 Also, HCFA   sureyors periodically visit   OPOs to evaluate their
 perfor.nce and   compliance with OPTN and   or BCFA      stadars.
                                                                The
                                                             strengten
   proposed regulations that were 'discussed above will
, OPTN  S standards especially regarding' equitable distribution of
   organs among patients awaiting tr splantation.
TECHNICA COMMS
1. Page 6, 3rd paragraph
      Include the foot ote no. 31 in text to offer an explanation
      of highly sensitized patients.
2 .   Page        9., "   last paragraph
      Change .            registration center. to .
                                        transplant hospital. each
      place it occurs, since . registration center. is not a
      commonly used ter. in transplantation discussions.
3. Page 13, 1st paragraph
      Insert .            regiona1 lists           then" after individuals.

4. Page 15, 3rd paragraph
      Change "keep one- donate                     one" to .keep one-share one.

5. Page 18, Recommendation
  . Change .donor hospital. to - transplant hospital. It is the
    transplant hospital and the OPO that mae decisions about
      organ distribution. If the intention here is to get the
      transplant center or surgeons out of the process of mang
      organ distribution policies, this recommendation may fall
      short of reaching that goal. Many OPOs are either diected
      by a transplant surgeon ' or have a medical/advisory                        boar
      that sets organ distribution policies.                         e recomendation
      that OPOs serve as tJe " engine of the organ distribution
      system" will be applauded by the OPO                       comty.
                                                        Conversely,
      transplant surgeons/physicians who believe' that OPOs have
      too much control already, will strongly oppose                        ths
      recommendation.
6. Page C-S, Footnote 24
        e footnote related to the underlying legitimcy and
      continued advancement of organ transplantation is vague and
      should specifically refer to the keep-one shae-one concept
      and the idea that local use encourages                      procuent efforts.
      Additionally, the last sentence which refers to variations
      in the distribution system is incorrect. It is possible to
      do a computer study to                      determe
                                       whether OPOs with variances
      (especially a variance that                      pe1:ts
                                          keep-one share-one) have
      better procuement                        rates. As   par of the OPT   contract,
      UNOS will conduct such study.
7. Page C- 7, Footnote 41
   The articles in the footnote deal with access to thewai ting
   list, not access to transplantation after getting on the
   list.
          GIG Resp onse                        To PHS              Comments
We appreciate PHS' positive response to the report, We paricularly appreciate' its concurrence
with the first two recommendations concerning the single OPO waiting lists. We look forward to
the implementing regulations.

On two of the recommendations, we are unclear about the scope of the PHS concurrence, One
of these is the recommendation calling for PHS to fund a demonstration effort that applies the
single list and first come first served concept to a number of OPO service areas. In response
PHS indicated that it agree in principle but did not indicate if it would proceed with such a
demonstration, Although the NEOB in its comments makes a good point about how the
diversity of medical criteria being used may limit the practical effects of such a demonstration
we continue to think , for the reasons put forth in the text, that such a demonstration could
provide data quite useful to the further development of organ distrbution systems.

The other recommendation is the one to PHS and HCFA calling for research efforts that could
help reduce racial disparties in organ allocation. In this sphere, PHS makes no mention of one
of the two types of research effort we caJ1ed for: those addrssing the immunogenetics of
blacks. In this regard, we continue to urge, as the American Society Histocompatibility and
Immunogenetics noted in its response, that funding be directed " toward improving definition of
HLA antigens unique or nearly unique to blacks.

In view of PHS' introductory comments concerning waiting lists, we wish to emphasize that we
do not advocate the use of a single national waiting list as the basis for organ allocation. We
recognize, as PHS states, that this concept " needs additional study before conclusions can be
reached about its utility and comparable effectiveness. " Our recommendations focus on the
establishment of a single list within each OPO service area that would serve as the basis for
organ allocation within that ara.

It is in that context that we make our second recommendation calling for donor hospitals and
trnsplant centers to abide by the policies of the OPO. Its intent is not, as PHS suggests in its
Technical Comment #5, " to get the trsplant center or surgeons out of the process of makg
organ distrbution policies, " but rather to assure that the OPO' s policies are adhered to by all
trsplant centers and donor hospitas in its service area. As NEOB notes in its response: "
seems strnge to establish OPO terrtories and OPO/OPT rules and then allow individual
hospitals to act outside of them.

A further clarfication, in response to PHS' Technical Comment #2 , concerns the tenn
  registration center, " We use that tenn deliberately, in accord with the methodological
discussion on pp.        and   2, As noted there , when a transplant candidate is registered at more
than one center, we use the transplant center having the earliest registration date as the focus of
analysis.




                                                D-
Finally, with respect to PHS' comment on the importace of HLA matching as a factor
contrbuting to black-white racial disparties, we recognize, as noted in the comments portion of
the text, that this is an important consideration and that further inquir concerning it is needed.




                                              D - 12
                                                                                   Memorandum
Date
           , DEC 3 190

,'Om      - Gail R. Wilens, Ph.     D.

           Administrator
Subject
           OIG Draft Report - ' The Distribution of Orga         for Trantplantat ion:
           Exectations and Practices , OEI- Ol- 89- 00550
          The Inspector General
          Office of the Secretary




              We have reviewed the subject report y.hich concerns the distnoution of
          organs , primariy kidneys, from the point of procurement to the point of
          transpla ntation.


              The report found that there has been improvement in organ distnoution
          practices. However, current practices fall short of providing patients equal
          access to donated organs. Organ distribution remains heavily controUed by local
          Organ Procurement Organizations (OPOs), and OPOs and transplant centers
          imp.ede the national system for distributing organs by acting with a sense of local
          ownership of organs. they have procured. The findings are consistent with those
          reported in the professional    literature on the subject.


              In the report, OIG makes the following recommendations:

                              HCFA and PHS should       support research effort   that could help
                              reduce racial disparities in organ allocation;

                              HCFA, in collaboration with PHS , should assure that the OPOs
                              are distributing organs equitably among patients , accrding to
                              established. medical criteria; and

                              HCFA, in collaboration with PHS, should assure that the OPO
                              is conducting a rigorous , soundly based organ procUment
                              effort.

              HCFA is concerned about the inequity        of the current allocation system ,   and
          has taken steps within this Agency s purview to remedy the situation. We
          concur with all of OIG' s recommendations. Our specific comments on the
          report s recommendations are attached for your consideration.
Page 2 - The Inspector General


    Thank you for the opportunity to review and comment on this draft .report.
We found the methodology and statistical analyses used in the report to be very
reasonable, and the fidigs to be consistent with HCFA' s knowledge of this
             advise us whether you agree with our comments on the report
subjec. Please
recommendations at your earliest convenience.


Attachment
        Comments of the Health Care Financin Administration HCF
           QDG       Draft Report - The Distribution of Organs for
                   Transplantation: Expectations and    Practices
                                   OEI- 01-89- 00550

HCF A and PHS Recommendation

HCFA and PHS should support research        effort that could help   reduce 1acial
disparities in organ allocation,

Response

HCFA concurs with OIG' s recommendation. In response to ths audit report,
HCFA has contracted with the Rand Corporation to complete a study which wil
address racial disparities in organ allocation. The study was started
September 30, 1990 and completion is expected by September 30, 1991.

HCFA and PHS Recommendation           2

Before granting Medicare recertification to an OPO, HCFA, in collaboration
with PHS, should assure that the OPO is distributing organs equitably among
patients , according to established medical criteria.

Response

 HCFA concurs with OIG' s recommendation. We plan to publish manual
                                                                       organs
 instructions that will require HCFA surveyors of OPOs to determine if
 are distributed equitably among patients, It is anticipated that the revid
 manual instructions wil be issued in early De cember 1990. The first certification
 reviews using these manu   a) instructions are scheduled for January 1991.

 However, it should be noted that HCFA does not have the authority to set the
 standards by which organs are distributed, This authority reSts with the Organ
                                                                              of the
  Procurement and Transplantation Network (OPTN), under the auspice
. Public Health Servce. HCFA wil enforce the rules regarding the allocation of
 organs that are established by the OPT.

 HCFA and PHS Recommendation          3

                                                                     collaboration
 Before grnting Medicare recertification to an OPO, HCFA, in
 with paS, should assure that the OPO is conducting a rigorous,      soundly based
 organ procurement effort.
Page 2


Response€

HCFA concurs with this recommendation. Regulations     at   42 CPR 485. 306
outline the standards by which HCFA surveyors evaluate the procurement efforts
of OPOs. If an OPO does n0t meet the procurement performance standards
HCFA will not recertify the OPO, HCFA believes the standards for
procurement currently in effect, are for the most par appropriate
                                                                  , but wil
strengthen the enforcement of those requirements. HCFA has€recived data on
organ transplantation from the Public Health Servce, and will continue
                                                              €        to use


this information to make decisions regarding procurement performance
standards.€
       DIG Res ponse                               HCFA Comments€
We are pleased with HCFA' s support of our methodological and statistical analysis and of our
recommendations. In response, we make two brief points,

First , concerning the recommendation that OPOs distrbute organs equitably among patients, we
continue to urge that as a par of the process of determning the equity of an OPO' s organ
allocation processes , HCFA examine the median waiting time in the OPO service area of those
on transplant waiting lists and compare the characteristics of those on the lists with those
receiving transplants. Although such data alone wil not indicate the equity of an OPO' s organ
allocation efforts, it wil contrbute to more precise and effective inquiry along that line.

Second, in regard to the recommendation that OPOs conduct rigorous procurement efforts , we
understand that varous types of performance indicators are now being considered by HCFA.
This is a constructive development. It would also be constructive to keep a close look at the
number of black transplant coordinators working for OPOs, If the numbers of such coordinators
do not increase significantly, the prospects of increasing donations among blacks may be
hampered,




                                              D - 17
                       RECEIVED                                 w.s        C. 202
                  REGION
                           1 - O,G/OEI
                                         oc: , 2 '
                   OCT f 9 '990
 TO:         Richard P. Kusserow
             Inspector General
 FROM:       Assistant Secretary for
             Planning and Evaluation
 SUBJECT:	   OIG Draft Report:           "The Distribution of Organs for
             Transplantation: Expecttions and Practices,
             OEI-010S9-00550

 I appreciate the opportunity to review this draft report.€
 Because of its sensitive nature, my staff and I have examined it€
 with particular care. Based on that review, while I believe that€
     report raises substantial numers of important issues, I am
 concerned that some of its findings, and the recommendations
 which flow from them, may be premature.
For example, one of the recommendations is "to require that each
OPO (1) establish a singJ.e, unified list of patients awaiting
transplantation, and (2) distribute donated organs to those
patients on a first come first served basis,. .€
addition, ' there is a finding that "While there has been progress,€

time -
current organ distribution practices fall short of congressional€
and professional expectations in each of the three areas.     The
discussion of this shortfall focuses on waiting lists and waiting

The inherent difficulty with these conclusions is that, while
perhaps appearing eminently equitable on its face, a focus on
waiting time with emphasis on "first come, first served" as an
allocation principle belies the complexity of the factors that
are considered, and should be considered, in the organ allocation
process.
Further, there appears to be an underlying assumption in the
report that the principle of "first come,            :first
                                                 served" as an
organ allocation methodology was intended by the Congress.
                                                             While
there is statutory language and legislative history to the effect
tha t transplant patients should be protected by assuring
equitable allocation of the limited supply of organs, no specific
allocation methodology has been delineated in statute or
leqislat1ve history.
In fact, the Organ Transplant Amendments of 1988 deleted the
statutory requirement that the Organ Procurement and
Transplantation Network (oPT) assist organ procurement
organizations (OPO) in the distribution of organs " which cannot
  Page 2 -- Richard P. Kusserow
 be placed within the service area of the organizations.    The
 -stated purposeof the deletion was lito remove any statutory bias
 respecting the important question of criteria for the proper
 distribution of organs among patients. . (See House Report 100-
 383, page 7. The report also states that "The Committee does
 not wish the statute to be read as establishinq a perference
 (sic) for, or against, distribution within the service area of
 the OPO.   This reflects what I believe Congress' intent to be:
 first, that there be equitable allocation of organs; second,
 that extensive work be done to develop appropriate mechanisms to
 meet the desired goal.
 I am also concerned with statements (see, for example, pages
 13, 15 and 18) to the effect that the OPTN imposes various
 requirements on OPOs governing the distribution of      organs.
                                                             This
 is not the case. CUrrently, policies developed by the OPTN are
 being followed voluntarily by OPOs anq transplant hospita
 Further, regulations governing organ distribution have not as yet
 been promulgated by the      Secretary.
                                     HRA has, however, convened a
 workgroup to develop an NPRM on several operational aspects of
 the OPTN, possibly including regulations directed at organ
 distribution.
. Addi t    onal concerns are addressed in the following comments.
           Equity Issues
               Discarate wai tina Times As previously noted, the
               report places great emphasis on "first come, first
               served" as a primary criterion for kidney allocation8
               However, medical criteria are primary. Thus, a finding
               that disparate waiting times based solely on a "first
               come, first served II principle are inappropriate or
               inequitable appears somewhat arbitrary, in light
               other considerations which enter the decision to
               transplant. Many of these are identified in the
               report.  See, for example page 10, where factors such
               as level of sensitization are discussed.

               Lower donation rates among blacks have also been
               associated with lower transplant rates of black' ESRD
               patients. But it is important to note that blacks seek
               transplant at a lower rate than do whites (callender,
              , 1987).

               other waiting time issues are raised for your
               consideration in the attachment. I urge that these be
               explored more fully in the report.
Page 3 -- Richard P. Kusserow

          Sinale List Per OPO   I agree that the distribution

          system should provide for equitable allocation of

         donated organs, and that a single list per OPO 
                  have
         the potential to improve orqan            However, assharing.
         noted above, the focus on " waiting time" as a primary
         cri terion for transplantation in two of the
         recommendations and much of the          inappropriatetex is
         and premature.
         socio-economic Considerations
         A numer of socio-economic factors may influence the
         decision to transplant, including an assessment of a
         patient' s ability to comply with rigid post-transplant
         regimens    This is an area which         exploration
         should be recommended. "Findings from the National
                                                                furer
         Kidney Dialysis and Kidney Transplantation study" might
         be consulted for data in these areas.
         Also, there is no discussion of , the weight given to age
         in the transplant decision, and the age at which

         different racial groups are diagnosed, i. e., as
         juveniles, young                        adults, or the elderly.
                                                     Are younger
         persons expected to have. better outcomes -- longer
         graft survival -- or less likely to have co-morbid

         conditions that may contraindicate transplantation,

         etc.    ? If
                   younger persons are otherwise not better
         candidates than older persons, doesn' t an orqan placed
         in a younger person nonetheless maximize the benefit

         derived from that organ simply because it will
         (statistically) provide- many more years of use?
         Inclusion of data from Eggers' (1988) findings on graft
         survival would be informative.
         Such issues point to the need for additional research

         to determine the causes of disparities rather than for

         flatly stated recommendations for particular allocation

         pol icies .
         Medical criteria . As noted above, medical criteria

         governing organ allocation have not yet been

         promulgated by the Secretary, although the OPT has
         developed consensus guidelines giving preference to

         six-antigen matches. Additionally, the brief
         discussion of level of sensitization (page 12) fails to
       , present the extent to which patients who are highly
         sensitized are more likely to reject organs. It is our
         understanding that this is a significant problem and
         that transplants for highly sensitized patients are
Page 4 -- Richard P. Kusserow

          likely not only to subject them to major trauma

          (initial operation, rejection episodes and medication
          with major adverse side effects, and operation to
          remove the rej ected organ), but also to lead to wastage
           (i.
             e., non-    ductive use) of scarce organs.
          This latter aspect is particularly significant as an

          equi ty issue since an organ wasted is an organ

          unavailable to another patient for whom it might have
          proven more long      lived. (It
                                        also eliminates the
          savings to the Treasury which an earlier IG report
          docuented. I recommend that the report discuss these
          matters explicitly and that the finding on sensitized

          patients be modified to acknowledge prominently the

          problem of non- productive organ use. An organ not
          wasted is effectively the same as an additional organ
          procured.
    The draft recommends that the PHS require, by              reguations,
    that transplant centers and donor hospitals adhere to
    distribution policies. The accompanying discussion fails to

    point out that allocation rules have been under development

    for several months and they will be published in the near
    term.         Although compliance will be            monitored by PHS, the
                                    imDlemented by HCFA under section 1138 of the
    rules will be

    Social Security Act. How ver, until these rules are
    published, there are no binding distribution policies.
    In several places (pages 13 and 18) the draft criticizes the
    right of a transplant center to make arrangements with an
    OPO in a service area other than the one in which it
     located. And, the report recommends that PHS " require that -
                               . in an OPO service area adhere .-

    each transplant center
    to the centralized organ distribution policies of the OPO

    governing that area.


    The arrangement criticized, however, is specifically allowed
    in HCFA regulations governing hospi tal/OPO interactions.
    Therefore, if a y recommendation is to be made it should be

    couched in terms of HCFA modifying its present policy and

     regulation.
     Such a recommendation, however, is inappropriate because the
     IG staff have neither recognized, nor balanced, the
     considerations which led to current HHS policy. The policy
     imp lemented in the current HCFA regulations prevents a
     hospital from being forced to deal exclusively with an
     inefficient or uncooperative OPO. Furter,. the policy gives
Page 5 -- Richard P 8    Kusserow

        leverage on OPOs and was specifically designed to make clear
        that OPOs do  n2 "govern" any areas.
        As the draft report elsewhere acknowledges, there are many
        OPOs whose performance in procuring organs could be
        improved, and the literature on monopolization makes
        abundantly clear that airtight monopolies almost without
        exception have worse performance than system allowing
        competition. These facts suggest the strong possibility
        that the recommendation, if implemented, could have the

        perverse consequence of reducing organ procurement.


        I certainly have no obj ection to a discussion of this issue
        provided that the competing considerations are presented
        fairly.  Nonetheless, I do not see how existing evidence
        could support a strong recommendation to overturn current
    .   policy by establishing OPO monopolies.
        The discussion of the local ownership" sentiment as it
        relates to procurement incentives on pages 14 to 16 is
        generally well balanced. However, my staff is unaware of
        any statistical analysis of the incentives question having

        been performed. If none has been, there seems no basis for

        any conclusion other than that more research . should be done
        to determine whether organ procurement would be weakened if
        local preferences were reduced (or strengtened if local
        preferences were increased).
Again, thank you for the opportunity to comment.



                             Martin

Attachments:	 Edi torial    Comments
                  Waiting List Issues
                                      Editorial Comments€

The "background" should be expanded (at page 3, after the
bullets) to state that, per F. R. 51802, Volume 54, No. 241, to
date, no rules or requirements binding upon transplant hospitals€
and organ procurement organizations have been approved or€
implemented by the Secretary. With that background, care should€
be taken to describe any fortcoming issuances as " rules and
requirements approved by the Secretary.    In no instace should
the terms " mandatory OPT policies and/or regulations" be used.
This applies to endnotes as well, e.g., " regulate" in note 11
should be changed to "facilitate.   See also pages 13 and 15.
Thus, at this time (and throughout the time covered by the IG
study), all OPTN policies are voluntary. Whe er the transplant
community was aware of this HHS distinction or not, the OPT did
DQ monitoring or compliance  ctivities to assure that memers
were following the policies. Therefore, the report should be
careful to couch references to the OPT policies and compliance
with them in terms that reflect the voluntary nature of€
compl iance.€

Page 3, bullets 2 and 4:   regulations" should be cnanged to
 requirements" to conform to statutory and regulatory language.
Also, In the penultimate paragraph, next to the last line:
 coverage of" should be inserted after " proposing.
Page 4, 1 ine one, first word:                change " certified" to
"designated. "
Page 5, under "Expectations, " paragraph one, line one: the word€
 congr ssional" preceding statutes is redundant. Also, docuents
developed by the OPTN should be characterized as " policies, " not
as " regulations.
Page 10, penultimate paragraph: Antigen frequency differences
between blacks and whites are often cited as a possible
explanation of the differences in transplantation rates. The
should analyze                this variable
                              (which we understand. was to be done)
to determine whether it is explanatory. Possible explanations of
the differential may al"so include date of entry on list. For



transplant.
instance, do physicians tend to list blacks earlier than whites?
Another explanation may be that blacks may have multiple complex
medical conditions which tend to militate against receipt of a

Page 12: The discussion of the common " pool" arrangement shoulQ
be followed by a sentence pointing out that this may serve
important purposes in maintaining high donation rates and that
the IG did not explore these in this study.
                                  - 2 -€

 Page 13: Care should be taken not to link the OPT' s "local use"
 philosophy with HCFA' s OPO designations. To overcome .    this
 appearance, the last sentence (after endnote 52) of the
 penultimate paragraph on page 13 should be deleted. The last
 sentence on the page (after endnote 53) also should be deleted.
 The database is only about three years old.
 Also on page 13, two sentences     in the second full paragraph
 should be modified as follows:€
         "That is no longer the norm. Centers  and OPOs have€
         formally stated criteria governing the distribution€
         of organs. OPOs use the national organ center for€
         distributing any organs that they cannot use within€
         their individual service areas.€

 Pages 13-14: The balanced discussion of tissue matching VB. drug€
 regimens is inconsistent with the recommendation to move to a€
  single, unified list" per OPO (see Recommendation 1).€
" Page 14: omitted from the discussion on organ sharing are state
 laws that establish priority for intrastate matching.
 Page 15, fifth paragraph, line    five: insert " excerpt   from a"
 after 'te word following. "
 Page 17: Rewri te the end of paragraph two to state that the OPT
 was established "to facilitate organ procuement and
 transplantation nationally, " not as a policy-making and oversight
 body.
 Page A.  5:
           The description of the " quartile" differentiator is
 not clear. Is the first quartile comprised of the centers with€
 the largest list or the smallest?€
 Appendices A and B: "Size of Cells.   Some     tales include the n
 of the cells. All tables should include this    information.
                                               Wai tina     st Issues

 There are many reasons why reliance on " waiting lists" and/or€
 "first come, first served" as organ allocation principles are€
 unsupportable.
First, there is no definition of " waiting time" which would allow
comparison among individuals on the transplant candidate                          lists,
  e., there is no agreed-upon point in the patient' s course of
disease when that patient can be entered on the
may be listed at any time, regardless of health
                                                        Patients
                                                          Newly
                                                                        list.
                                                                        status.
diagnosed patients, never dialyzed, and patients who are in
extremis may be listed on the same date. The recently concluded
Abt study found that over                           one-thrd of
                                        thos on lists for whom a
perfectly matched organ was found were med cally unsuitable for
transplantation, which may imply many people should be removed
from current lists. There ore, currently, " waiting time" is a
meaningless measure.€
Second, the repeated insistence on "first come, first served" as
          thical principle fails if waiting lists can be " gamed" by
an

physicians and patients. For                              exple,
                                               the statistical analysis
used in this report found that ODe percent of all transplants
                                     earlier
                               date than registration on the waiting
list.
occurred at an

             . If length of time on list became a more important
allocation factor, thousands of additional unsuitable or
premature candidates might be added to preserve a
would not only make such lists aeaningless, but would also impede
                                                                  This   space.
organ matching by creating many -false positives" in the very
short period of time allowed to match organs. Potentially, if
the persons longest on the lists were in fact unsuitable
candidates (and the unsuitable WDuld naturally gravitate to the
top of the list), almost all of the names at the top of a€
computer "hit list" would be unsuitable.€

Third, " waitingtime" is not a suogate for any medical
condition and                     II first
                     come, first served" is not a compelling
ethical principle.  Nei ther should be unduly emphasized as an
organ distribution criterion if there are any potential
al ternati           ves.
Fourth, in the event that "                          waitin time"
                                         became a significant
criterion for organ allocation, ESRD program  osts would likely
increase significantly. Such an increase would be due to the
perceivea advantage of being placed on the list early, regardless
of health status, and the subsequent need for frequent,
relatively expensive; PRA testing.€
                              - 2 -

Therefore, I recommend that consideration be given to developing
both a finding and a recommendation on the need to conduct
                                      organs.
research on lists of potential recipients and on improving their
appropriateness for use in allocating
I also recommend that the term " waiting list" be avoided wherever
possible and replaced with more neutral and techically   correct
terms. It is noteworty in this    regard that the law carefuJ,ly
refrains from using the term " waiting list" and instead refers to
a " national list of individuals who need organs.
Finally, if the recommendations regarding waiting time are
retained in any form, at the least they should be reworded along
the following lines:
    "Require that each OPO.   . (2 ) distribute all donated
    organs to patients based on criteria which maximize
    productive use of organs and consider arbitrary non-
    medical factors such as waiting time (if at all) only
    as tie-breakers between equally qualified potential
     recipients. "
        OIG Response To ASPE Comments

The ASPE' s crtical assessment of the report is obviously a fundaenta one encompassing many
aspects of the study s methodology, findings, and recommendations. Below, we respond to
of the major points.

      On the fist come ftrst selVed reommendation, we believe, as noted in the comments sec­
      tion of the report, that as expressed, it is fully in accord with congressional expectations.
      Further, as explained in the text, we do not view it as a straightjacket on OPT/OPO organ
      allocation policies. The " medical crteria" provision allows for the specifcation of excep­
      tions to fIrst come fIrst selVed as long as they are formally stated, in accord with
      HHS/OPTN policies, and based on mecal considerations. Such an approach would still
      allow for much innovation. However, it would not, in our view, allow for "keep one, share
      one " argements and other such exceptions not rooted in medical considerations.

      We recognize the point of ASPE' s comments about the volunta natur ofOPTN policies.
      After much review, the Deparent has determned that all OPT rules lack the force of
      Federa law because they have not been issued though the Deparent s formal rule mak­
      ing process. Efforts ar now underway to corrt this situation. As ASPE notes, regula­
      tions wil soon be issued that will encompass " several operational aspects of the OPT.

      Accordingly, we have edte die text to miimize any implication that OPTN policies
      tantamount to Deparenta regulations. At the same tie, we recognize that since the es­
      tablishment of the OPT , the operational reality among OPTN members has been that
      OPTN policies ar not merely suggestions but rather authOlj. tative expressions of national
      policy.

      In its supportng comments on waitig list issues, ASPE indicates that if" ' waiting time
      became a signifIcant crterion for organ alocation, ESRD program costs would likely in-
      crease significantly. " This is an importt point, one reinforced by ASTP ' s expressed con­
      cerns that some of those on waiting lists might not be " bona fIde" transplant candidates, be
      it for medcal, financial, social or other reasons.

      We  agr   that this is an importt issue waranting furer inquir. It is an issue we rased
      in a September 1987 report entitled "Organ Allocation Costs: An OvelView. " It could
      help explain the racial inequity we have documente in this report and, because of the on-
      going tests conducted on the sera of those on waitig lists, could be adding unnecessary
      to progr costs.


      ASPE.
      Finaly, we have made a number of edits in response to minor technical points raised by
                                                             LNOS .
                                                        11 00 BOUERS PARAY. SUSDu                         &A-_Of
                                                                                                         IO OfDm UoT.
                                       PI
                                                                                                         AT
                 M.D.a tdT -.2--
                                                             PoOmBox13770                                1lA.18A..
IOIIT ME
     NO M..TaEAI
OO..L'-M..  Ti               vAO"r
                                     RCU
                                      lA   PI            RI.    VIRGINI 2322770
                                                                                                          uu ION.IS.
                                                                                                         A.
                                                                                                          SI LOAOl.
                                                                                                         IO    co M..
                                                                                                                    M..
                                                                                                                        a.
IOPT.. CX.

          AH
                 M..

                                                              TIU (80) 33()                            . CH
                                                                                                         II Lf8,
                                                                                                         1AA.1U  CCC
                                                                                                             tV f'
                                                                                                                w.
                                                                                                                 .
II
II
IlCI 1
      a. JI UC M.. ,N:
      J . JO Mc.
                   A.
                        S.
                                                               FAX (8)   330517                             HOJlIS.
                                                                                                         IM L
                                                                                                         1IA.1W f'.
IICI 4.0. HO flA
                   C.
                                                             TaI No 4950 UNO UI                          Mo S. um
                                                                                                               f'
IECI s,      "ffM..
IlCI.. JO M.IA. Mo                                                                                            MU
                                                                                                         WI T.M&
                                                                                                         IA -.ftMI.H
                                                                                                         JQ
                                                                                                                W.
IlCI 7 snYl mll'.
                '" Mo
IlCI.. mil W. SHW.
IlCI'. 1O SORM M..
IICI 10. .1- TUM..
                                                                                                         II M.

                                                                                                              IO
                                                                                                         .. L om

                                                                                                         IIn.A.IOL
                                                                                                         ..IA
                                                                                                                        M. f'.
                                                                                                                                   M. M..
    II IO
IICI .. .
DI omOi
                         Co
                                      M.. f'.
                                                             September 25, 1990
                                                                                                                f'.  ICIIT S.   SM hc
                                                                                                                                       R.. I


GlHI A.   NIC                                                                                            IA..

                                                                                                         MU L

                                                                                                         Co
                                                                                                         OSMlYlwa
                                                                                                             W\                  M.. I'M-€
                                                                                                            C. Mc. M.. It..€
                                                                                                                                II. M.D. Ita,

            Richard P. Kusserow                                                                          IO
                                                                                                         H.1I     M.. I'_9
            Inpector Genera
            Department of Health and Human Services
            Washington, DC 20201
            Dear Mr. Kusserow:                                                                    tJel- I9/- 39- OOS.s
                                 We would like to tae the opportunity to comment on the       drt
                                                                                                report entitled             rre
            Distribution of Organ for           Traplantation: Expectations and Practices" UNOS is gratiied tht your
            report found w the development of the organ procurement and trplatation network is a signcat
            cooperative achievement of            trplant profesional         and   others. Just as the OPT     ha been              a
            constructive factor in the development of a national organ ditrbution system,           so too ha it been an
            important reflection of the readiess of may diverse interets to work together             cooperatively.

                       UNOS, too, is concerned about the difference in watig ties among miority grups and
            has been conducting an independent study of factors affectig tie watig for kidney patits. The
            donation rate among blacks was 8% in 1989, but despite tht low donation rate. blacks received 21%
            of ' all kidney traplants in 1989. ' We have found tht at over a thd of the U.s trplant centers,
            blacks wait less time than whites to receive a kidney. Thus, the problem described in your report
            is not universal.
                    One aspect of your report which we strongly urge you to personally review and change
            regards statements tht lead the reader to believe that your office ha found tht the diference in
            waiting tie are as a result of racial prejudice. It is unfortuate tht the popula pres foced on
            that aspect of the report and even quoted the American Medica Asociation s Councll and on Ethcal
            and Judicial Affai out of context. (Te Council's comments about a wsubconscious   bia     -racial
            prejudice were about medicine in genera and were not directed at trplantation as the press
            seemed to infer from the report. ) No evidence supportng a findig of racial bias wa presnted in
            the report and indeed we are unaware that any such evidence ha been fortcomig. Thus, the
            inclusion of even a collatera ,dicussion of such a speculative ise may have the unwanted effect
            of further dampening the enthusiasm of minorities to donate organ. This would be parcularly
            trgic since increased donation among minorities is             unversy
                                                                        agreed to be greatly needed

                    If we ca provide your office with any furter inormtion to asist             you in your stUdy, please'
             do not hesitate to contact our office.
                                                             Very truly your,€
                                                                            S.
                                                             James S. Wolf, M.
                                                             President
             GAP:gm


                         THE NATIONAL ORGAN' PROCUREMENT AND TRANSPLANTATION NETORK
       OIG Resp onse                      To UNOS                Comments
As noted in the comments section of the report, we have amended the text to make it clear that€
we are not claiming that the black-white discrepancies documented ar the result of racial
prejudice. At the same time, we feel compelled to include at least " subconscious bias " in the
inventory of possibly contrbutig factors. The comments of the AMA's Council on Ethical and
Judicial Affairs would seem to support this decision.€

We recognize, as UNOS notes, that the disparty in black-white waitig time is not universal
throughout the countr and that the degree of the disparty vares across the countr,
Appendix A provides some data to support these obselVations.€
                             J\merirnn
                                                               nriet nf                   WrnnspImr                               ltgenns
. President:
   Davi E. R. Sutherland. M. , Ph.D.                                                                                                      SeCNtary:
   Univrsit of Minneso Hopitl & Clinic                                                                                                      Mar A. Har, M.
   UMAC Box 280€                                                                                                                            Coumbia Unirsit
  420 Delaware Street, S.E.                                                                                                                 63 West 16B Stret
  Minneapolis, MN 5555                                                                                                                      New Yok, NY 100
  (612) 625-76                                                                                                                              (22)   3055
President Elect:                                                                                                                          TNaaurer:
  Ar G. Dihelm. M.                                                                                                                         Cle
                                                                                                                                           Unirs
                                                                                                                                                   F.
                                                                                                                                                 of P8nnnla
PIat President:
                                                                                                                           Silvrsein Palion
  Barr D, Kahan, M. D.. PhD.€                                                                                                              34 Spr Stee 4th Floo
Councllorsat.Large:                                                                                                                        Philadelphia. PA 19104
  Hans W. Sollnger, M. D.. Ph.                                                                                                             (25) 66.20
  Ronald M. Ferguson, M. D., Ph.
  R. Randal Bollnger, M. o. Ph.
  Byers W. Shaw. Jr., M.
                                                                                                         612-625-7600 Telephone
                                                                                                         612-625-8496 Telefax€
                                                                                                         September 28. 1990€




                The Honorable Richard P. Kusserow€
                Inspector General€
                Department of Health and Human Services€
                HHS North Building 

                330 Independence Avenue. S.€
                Washington. D. C. 20201 €

                Dear Mr. Kusserow:€

               The American Society of Transplant Surgeons (ASTS). welcomes the€
               opportunit to comment on the Draft Document: wThe Distribution of Organs for
               Transplantation: Expectations and Practices . The Draft has been distributed to
               the Members of the ASTS Council. its eJected governing body. The Draft
               Document wil also be the topic of
                                                                            discussion            and for active measures at the
               Annual Fall               Meeting    of the Council (October. 1990). The                               following      comments
               represent a consensus opinion of                              he ASTS Council on the Draft
                                                                                                                                   circulated:
               The 450 Members of the ASTS perform the
                                                                                              majority       of solid organ transplants
               the United States. and the
                                                                is the advancement of scientific
                                                               Society-s mission

               knowledge for the benefit of patients. The  Society     has been active in providing
               information to Congress. and several of its Members served on the Organ€
               Transplanttion Task Force. Thus. on the one hand. several of the points made
               in the Document have already been endorsed by the ASTS and its Members.€
               since they coincide with the major goals of the National Transplantation Act of€
               1984. namely that:€
 Kusserow                                                               Page 2


 1 )    Each person have equal opportunit to transplantation subject to
         established" medical criteria.

        There be uniform policies and standards for organ distribution.

        National cooperative mechanisms be established.

 On the other hand, the ASTS decries the implication in the Draft Document that
 the two-fold longer average waiting time for black versus white renal transplant
 recipients is due to " subconscious prejudice" by transplant centers and
 transplant surgeons in particular. .The ASTS and its Ethics Committee regard
 discriminatory practices as cause for expulsion of a Member.
 The Draft Document explores possible causes of the differences in racial
 proportion of patients listed as waiting for a transplant and the patients who
 actually receive a transplant. The findings that the disparities exist within all
 blood groups, as well as the subgroups with pre-formed antibodies to less than
 and greater than 75% of the population. indicates a need to examine
 demographic and non- demographic factors that could be responsible for
 imbalance in organ distribution. The ASTS believes that examination of other
 recognized components of ttle recipient selection process probably wil show
 the cause for the difference between the demography of the patients listed as
 waiting, versus the demography of the patients that actually receive transplants.
 We also contend that prejudice wil not be a factor. No conclusions should be
 drawn until investigations are completed.
. We note that the Document compares patients on the waiting list only with those
 who are- "transplanted" .   Each Transplant Center or Organ Procurement
 Organization (OPO) has priority criteria approved by the Organ Procurement
 and Transplantation Netwo* (OPTNl for selecti g recipients for a given organ.
 No comparison was made of the racial demographics . of the individuals who are
 first offered an organ and who accept the offer, versus those who'are first
 offered the transplant and exercise an individual decision to refuse the offer.
 There also was no information on the racial demographics of the "back-up
 patients who are offered an organ after there was either a primary refusal, or the
 patient initially Identified as the prospective recipient could not be given the
 organ, for reasons such as a positive crossmatch or detection of a medical
 contraindication at the time the offer was made.

 Social and economic factors that may prevent patients from accepting offered
 organs must be examined. It needs to be determined whether there arEf
 differences In the racial prevalence of the factors that lead potential recipients to
 reject the opportunity to receive a transplant.
Kusserow                                                               Page 3


If the priority distribution schemes approved by the OPTN are being followed,
the differences in the demography of the patients initially offered a transplant
and the demography of those who are waiting for the transplant would reflect a
bias that Is not prejudicial In origin, but inherent in algorithms designed to be
objective. Most algorithms for priority of organ distribution are at least partially
based on HLA matching. Since most donors are white, whites are more- likely to
have better HLA matches than blacks with a given donor; thus, among potential
recipients the proportion of whites first offered a kidney' could be greater than
the proportion of whites waiting because of the increased probabilty of having a
 good match" . Conversely, the proportion of blacks offered a kidney could be
less than the proportion of blacks waiting because of the lower likelihood of
having a good match. However, n o data was given in the Draft Document on
the HLA type of the recipients, nor on the racial and HLA demographics of those
first offered an organ. Such data is needed. Access in terms of being "offered"
   transplant as well as actual "distribution " need to be examined.

Some patients listed as waiting for a kidney, upon receiving an offer, reassess
wheth r to accept the travel and other costs incumbent upon acquiring and
maintaining a transplant. Individual differences in trust of the health care
system, as well as differences in the perceived diffculty of complying with a
medical regimen, may also influence the decision to accept the offered
transplant. There may be dissimilarities in the percentage of blacks and whites
who decide to accept an organ. Disparities in education and in perception of
the transplant process could. lead to a higher rate of refusal of the proposed
transplant for patients from certain socioeconomic groups, and the proportion of
such patients could be higher in the black than in the white population. This
hypothesis needs to be critically examined. When a perishable organ is being
allocated, such factors as telephone access of the patient, or abilty to rapidly
come to the Transplant Center, are not trivial considerations.

Although the Draft implies that these factors may not be suffcient to explain the
data, the ASTS recommends that the Offce of the Inspector General examine
the OPTN documentation (Forms A and B) by Transplant Centers, in order to
ascertain the proportions of blacks, whites and other races that are firs offered
the kidneys procured. The frequencies by which the initial patient Identified
does not receive the transplant should also be determined, as well as the
reason (e. g., ilness disclosed at time of offer, positive crossmatch, refusal of the
offer). The frequency by which patients of different races accept or refuse
offered organs, have medical contraindications, or positive cross matches
should be tabulated. Such documentation should be possible, since the
information on Forms A and B includes a compilation of telephone calls by
organ procurement personnel and the patients' responses to these calls.
Kusserow                                                                              , Page 4


The ASTS also points out that existent legislation contains financial
disincentives for patients to undergo transplantation, and the impact could be
greater in the black than in the white population. The  disincentives include:

1 )€       Automatic cessatiw disabilty payments three years after successful
           transplantation . In contrast, payments for dialysis patients continue
           indefinitely without question and without need to file for special
           dispensation. The ASTS recommends that the Offce of the Inspector
           General divide the recipients, and the patients on waiting lists, accrding
           to a) whether or not they are receiving ongoing disabilty payments, and
            b) whether they reside in a state that provides long-term reimbursement
            for immunosuppressive drugs. The racial proportions in each of these
            subgroups shOuld be determined.
           Ealure o                   icare to Drovi         coverage for immunosuppressive
            drugs after tWLrst postransplant year.            Previous    ASTS surveys have
            documented that most transplant patients have serious problems paying
            for medications. The ASTS has continuously urged Congress to
            authorize funds for reimbursement of patients for the costs of anti-
            rejection therapy.
            Lack of           sms to reimburse for multiple miscellaneous expenses
            jncurred by transolantation . For example, expenses for travel back to the
            Transplant Center for rejection episodes, procedures or routine follow-up
            visits are not reimbursable. Is there a difference between black and
            white recipients in regard to the distances that must be t veled, or the
            abilty to pay for travel as well as other expenses, such as baby-siters,
            etc.
The considerations listed above underscore the need to examine transplant
waiting lists to ensure that those listed are
                                                                       bona fide transplant candidates. It
is presumed that patients listed are not only medically, but also financially and
socially, able to meet the commitments inherent to the transplant process.
Documentation that this is so is missing. When a patient.(or the dialysis
physician) repetitively refuses offered organs, steps should be taken to rectify
the situation leading to the refusals, and if this is not possible the patient should
be removed from the list. Such a measure would remove imbalances in the first
tier of the recipient selection process. The perceived inequites in organ
distribution may not be from deficiency in the distribution process
                                                                                               per se but
related to other factors, medical, financial                        , or social, that need our attention.

There are also several other issues which require further examination. The
study notes that Regions I and VII (a total of 12 States, a fair number of which
Kusserow                                                                     Page 5


have only small minority populations) do not show any significant waiting time
differential between black and white recipients. Unfortunately, the study did not
focus on OPOs from either region and does not offer any explanation for this
lack of a waiting time differential. Furthermore, the report does not analyze
white male: female versus black male: female ratios as accunting for the.
higher average panel reactive antibody (PRA).

The Document's findings may also be flawed by its use of only a few broad.
heterogeneous PRA and age categories for comparison purposes. For
example. the Document itself shows (at Table B-2), that some individuals with
  RA levels less than 75% (i. e. those with 0- 24%) have much higher
transplantation rates that other individuals with PRA values less than 75% 0.
those with 25- 49% and 50-74%). If blacks are disproportionately represented in
the latter categories, the Document' s comparisons of whites and blacks with a
PRA less than 75% may be misleading. The Document does not permit the
reader to determine whether this might provide a partial explanation of waiting
time differences. However, the failure of the statistical proportional hazard
model on this data set suggests the parameter is flawed.

The Offce of the Inspector General proposes that the second tier of allocation
be designed to ensure that t e ratio of whites and blacks receiving transplants
be the same as those waiting ,racial equity" ) by having single waiting lists for
each OPO. The data in . theDraft Doc ument was not analyzed to determine
whether there are significant differences in waiting times for the blacks and
whites registered at the 30 OPOs serving multiple Transplant Centers with
single lists, versus the 13 with multiple, transplant center-based lists. Certainly


Document.
this already existent dat would fulfil the requirement for the "demonstration
effort" proposed. and such an analysis should be incorporated into the final


It is also important to point out that single lists   per   S8 wil not ensure racial
balance in organ distribution unless other factors believed to improve transplant
outcome, such as HLA matching, are ignored. If HLA is to be used as part of the
selection creria, balance in allocation wil be achieved only if the proportion of
black donors (currently 8%) is increased to approach .that oUhe proportion of
blacks waiting for kidneys (currently 31 %). The fin version of the Inspector
Generals Document should advise the Secretary of Health and Human
Services to initiate programs to increase organ donation rates, particularly in

donation rates nation-wide.
blacks. The ASTS also plans to reintensify efforts to increase the organ


Programs for organ distribution should be designed to improve the long-term
function of transplants in blacks, and not to simply increase the black: white
  Kusserow                                                             Page 6


 ratio of recipients over that presently achieved. Specifcally, allocation schemes
 that might decrease the success rate should be avoided. Virtually eveT) paper
 presented at the " Second International Samuel L Kountz Symposium on Renal
 Disease and Blacks" (published in
                                          Transplantatlon Proceedinos 21 :December,
 1989), document an inferior transplant success rate (up to 20% difference),
, increased. mortality, and higher incidence of non-compliance in the black versus
  other racial groups. The general transplant literature is in accrdance wih the
 papers presented at the Symposium. It is essential that the Final Document of
 the Inspector Generals Report not ignore the biological and other factors that
 affect transplant outcome. A first-come, first-served organ distribution scheme
 could produce a result just the opposite of that intended. Furthermore, although
 perhaps secondary, economics should not be ignored. Medicare, and more
 specifically, the End Stage Rena1 Disease (ESRD) program, are an important
 component of the federal dollar expenditure. Congressman Stark has
 estimated that a successful transplant saves $19, 000 per year. All schemes
 designed to ensure equity must include outcome in the equation.

 Most current organ allocation algorithms use a combination of matching and
 waiting time on the list. Any scheme that uses one criterion is just as likely to
 lead to inequities as one which uses multiple factors. Using waiting time alone
 as a sole criteria isnot without medical concern. For example, a patient on
 dialysis for several years probably has less chance of rehabiltation thana
 patient who has never been dialyzed, is entering renal failure, and has only
 been on the list for one month hoping for a preemptive transplant without
 dialysis. Similarly, should children who do not grow on. dialysis wait for as long
 asa stable adult dialysis patient? Data is available showing poor neurologic
 development as well as poor growth for children on dialysis. Finally, there is the
 difficult situation of a "sensitized" patient who may have receiyed multiple prior
 transplants and is at increased risk to lose a subsequent graft. There is an
 equity issue about how many transplants should be given to a single patient
 when there is such a limited pool of donors. While abandoning allocations
 based upon HLA tissue matching would improve the access of black patients to
 organs, a simple mandate to distribute organs based upon time on the waiting
 list is not equitable to all patients.
 Concerns can also be raised about distribution schemes that would result in
                     of organs across the United States. Donor and recpient
. excessive "shipping "
 pools are large enough such that allocation of organs within a single OPO
 should be equitable. Shipping adds to the costs and may reduce organ
 viabilty, impairing short-term function and long-term transplant success. Initial
 transplant nonfunction prolongs hospital stay, thus compromising abilty to
 hospitals to meet financial restrictions of the stipulated payment plan through
 diagnosis-related groups. The Draft Document brings up the topic of ownership
 in a way that implies the procurement and transplant processes can be
Kusserow                                                             Page 7


divorced. It is diffcult to see how this can be achieved. or how It would be
helpful. In the opinion of theASTS it would be better for the Final Document to
focus on such issues as the impact of prolonged Ischemia and transplant
dysfunction on the overall success rates of transplantation.

The Document emphasizes the importance of evaluating OPO performance
relating to organ procurement activities. The ASTS supports this
recommendation. In particular, if OPOs could achieve higher levels of organ
retrieval from minority donors. this would improve the chances of obtaining
better matched organs for minority transplant candidates. The ASTS believes
there isa need to improve local OPO activities. and proposes that
review/recertification procedures be strengthened through the following
measures:


1 ) , Individual OPOs should establish medical criteria for listing patients. as
      well as review/punishment procedures for violations.

      Each OPO should follow guidelines for distribution of organs based
      upon racial. matching;time on the list. as well as exceptional medical
      situations (pediatric. preemptive recipients). The guidelines should be
      designed so that variances between OPOs are allowed. so as not to stifle
      innovation while maintaining fair:ness.

      Quality parameters. in terms of low rates of acute graft dysfunction and/or
      primary non- function . should be set for each OPO to achieve.

      The Department of Health and Human Services should not only establish
      performance goals (number of transplantable kidneys retrieved) for
      local OPOs. but also use them as a basis (together with the above items).
      fora formal biannual review of OPO activities. Organizations that fail to
      meet performance or distribution goals should have well-defined. short
      timeframe plans to correct deficiencies. Procedures must be established
      to create new OPO structures in regions demonstrating poor OPO
      function.
Kusserow                                                             Page 8


Concludlno Statement€
The ASTS is committed, professionally and ethically, to effcient and equitble
use of the national resource of cadaveric donor organs. Indeed, the Society'
Ethics Committee is prepared to investigate dereliction in this area. However,
we are concerned that the Draft Doment did not include other readily
available data that could have shown the causes of the apparent racial
imbalance in org n distribution. The ASTS recommends that such data be
added to the Document and be thoroughly analyzed before .concluslons are
drawn and before re ommendations on organ allocation are formulated. The
ASTS also recommends that the Document address the need to alleviate
systemic defects in the Medicare and National Transplantation Acts that
discourage some patients from accpting transplants for economic reasons,
inadvertently resulting in inequitable distribution of organs. The ASTS has and
continues to lobby Congress to make changes in both of the Acts that we feel
wil encourage patients from the lower economic strata to undergo
transplantation. In addition, the ASTS is willng to: a) Define medical Indices of
patient suitabilty for being placed on transplant waiting lists;.b) Develop an
allocation scheme that addresses all (racial included) factors that affect organ
distribution; and c) Delineate standards to assess OPO activity and
performance.€
Finally, the ASTS is willng to work with the Office of the Inspector General in
both the collection and analysis of the transplant data relative. to organ
allocation and outcome.
Again, the ASTS appreciates the opportunity to comment on the Draft
Document.€
                                                Sincerely yours,



                                                David E. R. Sutherland, M. D. -
                                                President, ASTS
        OIG Response To ASTS Comments€
The ASTS makes a number of goo points concerning the factors that might contrbute to
black -white discrepancy in waiting time. Our revised text reflects most of these points. In fact,
on the matter of HLA matching and its possible contrbution to the discrepancy, our text now
includes a direct quotation from the ASTS response.

On page 4 of its response, ASTS raises an extremely important consideration about the
suitabilty of some candidates on transplant waiting lists. As we noted in response to ASPE'
comments, we concur that this is an issue warnting further inquir.

Finally, the ASTS raises important issues concerning the inclusion of expected graft survival
time as a factor in allocating organs. Allocation approaches, such as first -come first selVed , that
might decrease the success rate should be avoided, it says.

We recognize that factor and accommodate it in our recommendation. The " medical criteria
exclusion provides an opportunity for the OPT and OPOs to addrss the factor. In this regard,
ASHI's suggestion (page 5 of its response) for a thshold level of matching within a region
would seem to   wart   careful consideration.

At the same time, we must all recognize that there is a point where reliance on HLA matching in
allocating organs could necessitate policy guidance that goes beyond medical considerations
however much matching may extend the grt survival time for the transplant recipients. If such
reliance increases and is not accompanied by increasing rates of donations among blacks, the
racial disparties noted in this report could increase significantly. Whether an increasing
disparty of this kind could or should be accepted would appear to be a societal consideration,
callng for guidance from governmental policymakers.




                                                D - 38
                                                                             -.
                                                                          . ..




      .LI.                    -1 ..         u\.     L)' U       .L.&      .LO
                                                                              .I.&a.L       .L
                                                                                                      J' D.&'-.Au.A\:
President:                                                    AMERICA                       SecretaryTreasurer:
 M. Roy Arst, M.
                                                                                Thomas A. Gonwa M.
 University of Cincinnati Medica Center
                      SOCIEl OF                     . Bayl Uners Medica Center
 Division of Nephrology     11585 -

                                                              lRANSPlA                           Trapl Servces
 231 Bethesda Avenue - 5363 MSB
                                                                 3500 Gan Avenue
 Cincinnati, Ohio 45267-0585

 (513) 558. 5471, F   (513) 55.3878€                          PHYSICIANS€                        Dallas, Texas 75246
                                                                                                 (214) 821-3939, F     (214)   21-'
President Elect:                                                                            Councllcnt-Large:
 Ronald H. Kerman, Ph.                                                                           PhU HaDan, M. D. r91)
Past President: .                                                                                Edgar Miord, M. D.
                                                                                                                 r93)
 Willam E. Braun, M.                                                                        . Terr B.   Stm, M. D. r92)

  September 27, 1990



  Richard P. Kusserow
  Inspector General
  Deparent of Health & Human Serces
  Washington, DC 20201
  Dear Sir:
                                                                            IfEr-t/ -J"-IJ()5.s
  I would lie to than you for sendig me the draf report et\titled "Te Distn"bution ot
  Organ for Tranlatation: Exectations and Practices " for my review. I                               wi
  compliment you and your staf for the thoroughness of ths report, and to
  asking for input from the Amercan Society of Tranplant Physician   (AS).
                                                                               you for                th
  The ASTP is in complete agreement with the exectations outled in your report regardig
   the development of organ ditrbution practices. that are equtable, to those in need." There
  are a number of area in your report which 1 wish to address, and I would       like to             al
  respond to your recommendations to the ASTP, and to inorm you of the reprt which the
  Patient Care and Education Committee of the AS ha recently completed. In May of 1988,
  the Executive Counci of the                AS
                                      asked the Patient Care and Education Commttee to
  exaIe the issue of racial inequalty in transplantation. Th Commttee is chaied by
  Ma      G. Whte, M.D. of Dalas. Other membes of the Commttee are. Betr L Kasiske,
     D. (Meapolis), John F. Neylan, M. D. (Atlanta), Robert R Riggio, M.D. (New York),
  Gabriel M. Danovitch, M.D. (Ls Angeles), and Lawrence Kahana, M.D. (Tampa). Thei 39
  page report, titled "The Efect of Race on Access and Outcome in Tranplantanon , was
  completed in July of                 th
                            year and submitted to the New England           of Medcie      Jour
  (NJM for consideration for publication. The intial review from the           was highly    NE
  favorable and the reviewers have suggested certai changes in the manuscrpt. A revied
  paper has now bee reubmitted' to the NEJM The editorial policy of the            prevents     NE
  me from submittg thei report to you unti a                        fi
                                                       deciion has bee made regadig
  publication. As soon as an editorial deciion has been made by the NE, I shal forward
  the entie manuscrpt. Essentialy, the findigs of the Patient Cae and Education
  Committee are in agreement with your report.




                     716 Lee Street         Des Plaines, IL 60016        (708) 824- 5700          FAX (708) 824- 0394
The                          is in agreeent with the fidig of the Patient Cae andths
      AS Executive Commttepotetial
Education Commttee on the           benefts of matchg on tranlant outcome. For
reaon we do not agree with the recommendation to " ditrbute donated
                                                                    orga to those
patients on a fit come fit sered basis" (page 18). Th might wel have an
                                                                        unortate
and untended negative    impact on alograft   surval in black   recpients.


Overal, it would appear that a bigger problem  th    organ dibution is orga donation. As
your report points out, cadaver kidney tranplant numbe are levelg off, or even
decreaing slightly, whie the number of patients waitig on . trlant    lits contiues to
                                                       litte dision of ditrbution. The
grow. If there wa no organ shortage, there would be                of thscace commodity
fist priority of al of us concerned about the equtable distrbution
should be to increase organ donation. Ths could have a major impact in correctgforthe
unequ acces of black patients to donated organ, even using the cuent     crtera
   trbuti . As your report shows, blac: make up 30. 8% of those waitig for a fist kidney
tranplant, and only226% of those tranplanted. However, "in 1988 only about
                                                                         "
                                                                              8% of
                                                                           (page 11). A
cadaver kidney transplants involved the use of a kidney frm a black donor proO:ement
disconcerg asec of the report is the fact that "of an estiated 300 organ
                                                                     about 14 are black"
cordiators workig in the 72 organ procuement organations, only program
(page 11). Some year ago we hied a black social worker in ou   ES              Reated
donor trlantation, which had previously bee neglgible in black in our progr,
                                                                                      rose
substatialy son     af he   tok onthe position. I strongly beeve tht cadaver  orga
donation in black would increae signcatly if black fames wee approached     OPO
                                                                                by black
                                                                                 be strongly
orga procuement coorditors. Therefore, I. would lie to suggest
                                                                   tht the

encouraged to  tr  and hie black tranplant coordiators. Th efort could be coordiated
though NATCO and AOPO.€
 trt  that my remarks have been of some value to you. I would apprecate hearg
                                                                                     your
thoughts about ths letter and would be very interested in a copy of the fina report
Hopefuy, in the relatively near future we shal be lookig at a fa higher rate of organ
donation with equitable organ distrbution for al concered; patients awaitig tranplants
do not have forever and ultimately they are the ones most affeced.-by what we do!

Sincerely yours,€



M. Roy First, M.€
Professor of Interal Medicie€
President, Amercan Society of Transplant Physician€
MRF:mcm
           GIG Comments To ASTP Comments€
The New England Journal of Medicine     arcle mentioned in   the ASTP response was published in
the Januar 31 , 1991 issue under the title "The Effect of Race on Access and Outcome in
Tmnsplantation. " It is an informative piece that as ASTP notes is largely in accord with our€
findings. However, in our view, it does not incorporate the information presented in our report€
about the relative lack of influence of bloo type on the black-white discrepancy.€

We welcomed Dr. First s comments concerning his own experience and views on the hiring of€
black transplant coordinatqrs and have incorporated his comments into our text , in the section€
addressing black-white disparties.€

Our response to the matters concerning the first come first selVed rule and the significance of
organ donation has already been made-both in the comments section of the text and in prior
responses.




                                               D-
                         AMERiCAN                                     Clll'€
                         FOR         HISTOCOMPATILITY€
                        AN IMOGENETICS€
                           O. Box 15804, Lenc KS   6615                913/          PAX 913/541-0156

 September 19, 1990
                                                                                              NM Eo      00     PID.€


 Richard P. Kusscrow€
                                                                                              lI.acr€
                                                                                              (310) a107a€

                                                                                               AI      A. Z8hl. PhD.€
                                                                                              (218)€
 Office of the Inector General€                                                              VI €
                                                                                                        Ec I'.€

                                                                                             'I€
                                                                                              Davi O.
 Deparent of Health and Human Services€                                                               )13€
 Room 5250€                                                                                  ICMY€
 Cohen Building€
                                                                                              NMA8€
                                                                                              (812)   IZ        PhD.€

 330 Independence Avenue S.€                                                                  E., L "'li M..€
 Washington , D. C. 20201€                                                                   IlTIman€
                                                                                              (117)

                                                                                              P'" L
                                                                                                   PUT PREI€
                                                                                                 Tef8        PID,€
                                                                                              (213)      781€
 Dear Sir:€
We have reviewed the draf report " The Distrbution of Organ for Tralantaton:
Expectations and Practices " (referrd to hereafer as the report) and apreciate
opportnity to comment on       thimportant docuent. Organ tranlantation,
many aras of medicine, is undergoing a rapid evolution which                  deds
                                                                            the
intcrdction of  exrts in  multiple disciplines, reflectigdierentapl9acheS to
  achieving a common goal. Unle any other field of medcine, orga trlantation




     -establishent of policies and
     medical practices; €
                                     ar: €
    encumbered with an insuffcient supply of the therautic agent, donor organ
  Before commenting on the content of the 010 reQrt. we believe it is imrtant an
. appropriate to note the achievements of the OPT in its four year exence. Th
most notable of these achievements
                                     crtera   governg professional            crdentials

     -establishmnt of geogrphic regions       as a basis for intercton among€
     tranlant progrs;€
     -achievemnt of a     unonn, high     level of qualty, nationay, in
     histocompatibilty testing (we ar pleased to note that th was . achieved
     through a contractual agrement for ASH! to perfonn laboratory evaluation for
     the OPT;
     .establishmnt of an objective system for ditrbution of organ which assign
     points for waiting tie, presensitiation and HL match.

Despite these achievements, several problems persist and have been identified in the
report. While we agree with the overa fmdings of the report, we comment on
additional or alternative explanations for and solutions to certai problems. .

Eqable Acc€
If equity in acces is defmed as distrbution of organ to each group of patients
accordig to the proporton of the waiting lit they represent, it is clear that
equitable access docs not exit for several groups examined: Blac, women
patients of blood tys 0 and B, sensitized patients, and     chidrenyears old (as
noted in Appendi B of the report). We question the use of median waitig
time as the only stattic to    evauale acss of Blacks to tranlantation. Wenote
that ths   statitic lead to a curous anomaly. If one
                                                     exames th raon of medan
waitig     ties for Black vs. Whte     (as preented in Figu 2, on page 9 of the
report) the ratio is greater for al bloo    tys combined than for any single blood
ty as follows:
                                             Ratio of media waitig tie
                 Bloo Typ                            Blacks vs. Whtes

                                                              1.71

                                                              1.60



                                                              1.57

           al bloo    tys                                     1.83

"T is diCult to interpret.
In addition      waig time doc not take into account severa facors.
     1. Organ frm a donor who is (HL) phenotyicay identical to a recipien
                                                        tenn of extended
           must be offere to that recipient. The medical benefit, in
           graf suval, has     be  accted widely enough that         th    is a madatory
                                                                               donor pol is
           policy of the OP1. It is not suriing       that   when 92%   of th
           Whte, the majority of  patentS with                         alo Whte     and that
                                                                     ty,
                                                such matches

       ,   since these matches involve the most ,  common       HL.          these , patients
           would' be trlanted    more  raidly  than     others  on the waitig    li,  on the
           average. Therfore, any analysis     of   medan waitig tie      should exclude
           the   phenotyicaly iden ca malches.

                                       tie is proportona to the siz of th
     2. & staed in the reort, waig waitig
        waitig lit. An evaluaton of             tie should investigate the
        ditrbution of Blacks accordig to lit siz. "It is possible th a majority of
           Blacks ar' litc with    progr at large, uran medical cente with lare
           waitig lits.
     3. The rert has      not inestigated the effect of multile litig. Patients who
           ar lited with multiple    progr  have access to a lager donor pool
           those lited with a smgle   progr.  Multiply lited patents ar those who
           ar awar of th     advantage provided by multiple liting      and wbo have the
           fiancia reour which pcnnt trvel             to severa intitutions. Patient
           rereentaves to the OP1 surt advantage.
                                            multile litig, quite possibly
           because thy ar capable of tag th           Nonetheless, an anysis
           of med waitig tie should exame the proporton of Blac among
           multiply lited patents.
     4. Waitig     tie is afected by the avaiabilty of the patent at the tie of
           donor rccoveIY. Patents who for medical or othr reasons ar not
           imedely avaiable for trsplantation have their stat lited as
                                        regi.
            inactve" in the compter
           is a dierence
                                     " stats.
                            between Black
           patients have " inactve
                                               It should be detenned whether there
                                           and Whtes in the lengt of tie which


                                              (2)
                                      lantaon. We have noted in teon
                                            c --
     th
 '-AI U'&1; VU.&"". 1&8&"", .... "'"'''''''''--0- ----- ---
, less    the polprUon             waitig for

 the Intitute of Medicin th. th dianty ca be acounted for, in lar par by
 the fac    th the donor pol,. which is preomtly (939&, 1988 UNOS daa) Whte,
                               A  donors and 45% bloo ty 0 donors whe th
 consists of 39% blood
 frequency of A and 0 brood                     ty
                                      among Black patients ar 27% an 49%
 respectively. Furerore, sensitiion to Lewis IDtigens, which ca litedlead to a
                                     prohibits  tu
 positive crossmatch which, in waitig tiettlantaon,   and
                                                            is alost
                                                          prrton   of(M
                                                                            to
                                                                      trlants
 Blacks. Thus, whie both medan
    dihed
 reveal            access of Blacks, MW does not provide inight into the caus
   dihed
 of the            access. We addrs the issue of HL matchg latr. Howeer,
 we note here that: 

         1. durg the fit           ha      of the    tie period covered in the reort, oran
                                                                            waig                      were

             ditrbuted using a point system which gave the highest value to
             tUe and tht even under the prsent point system, 
patnt ar        most€            nm
             often by waitig tie, excet when extrmely goo maches                              oc€
         2. data being preard for publicaton by one
                                                                   th in the
                                                                           of our members show
            experience of one lage intitution, the
                                                                  reivig
                                                 perctae of Blacwag
             tranlants did not change when kidneyswcr ditruted by      tie
             versus under the  cut              antigen maches were eld,
                                   UNOS point system whicb gives. more weight to
             HL      match; more         imrtantly when 6
                                                                                             sam as
             the percntage of Blacks reiving                         trlants      \18S the
             percentage of Black on the waitig list.
 The report raes the pOssiblity of social bias as the caue of inuity in
                                                                      deogrhics
                                                                                                   ac
 Black. A more dict way to exame th question is to exae th
 of' patients passed over for trlantation. For    eac  donor, a    is gerate in        li
 which patients ar raned in descendig numerica order aCCordig to poin
 assigned for waitig tie, senitiation and HL mach Patient with a posite
 crossmatch ar routiely elimated from th lit and organ ar to be offer to the
 reg       patients accordig to reasons which
 system prvides an opprtty for abus, we have      no dat or
                                                                   . Whe
                                                            anecdota
                                                                      ar priary

                                                                     inormon€
 which suggests that racia bia afects organ ditrbution.

 With repect to recommendatons, we submit tht the major facors prcing racia
 diarty in access  are known: dierences in dibution of ABOand Lewis blood
 tys. Oter contnDutig factors have been
 investigated frm exi tig da. Based on   th
                                            noted abve an ca be ready
                                             inormon, it seems
 effort and fudig should be dicted priary towar      incring   organ
                                                                        tht
                                                                     donon
                                                                                               ap
 among Blacks and seconday toward imrovig defition of HL anens unque
 or nearly unque to Black.

 ASioe NatOD               Sys€
 Although the OPT has adopted a point system for ditrbution of kieys, we
 believe that it bas been a IDtake to pennt the many varces requsted by
 indiVidual program. We fuer                     surt
                                            the concept of a. singleregionalit which
 increases the lieliood  of goo   HLA    matches   and of fidig donors coatDle
 with highy' sensitizd  patients. Regardig     concern  abut cost of trlantaon
 and increased ischemia tie,  we  note that  trportation   is a one tie cost whie the€
 benefits derived from matchig extend thrughout the lie of the            Since €            gr.
 surival tie reflects the qualty of match it may be reasonable to    establi a


                                                              (3)€
matchig thshold which          predict a   cer     level of   grthe match exceeds that€
                                                                   surival. Regional€
sharg should be madated for al          situons in which
thshold. Incrases    in ischemia tis ar avoidale by           obtag  and testig donor
specimens prior to recovel) of organ. ' We  shar  the dimay   of  those  who believe
that organ sharg should be practd     for the benefit of the patients  and should not
requir a payback system. It is t1 th    such  a system reflects a  sense of ownershi-€
                  ttlant  team or OPO. 1b is evident from the fact that€
although there was unvers ackowlecgeen' ofth benefit, as mea by
on the pan of the
surival, of phenotyicay identica trlan, it was not possible to estlih a
policy of mandaOI) sharg for these trlats witout alo estalig         the
                                  whe   th may be no madae to   preferece
                                  sp
                                                                         acrd
payback system. We note tht
to the highy sensitid patient,                                                  imlemented
in order for these patients to be
these patients to spndig yea on
                                  tt1a.
                                    wai
                                           procls and prctces must be
                                                 To do othrwise would be to condem
                                              lits at an apciale  cost to th public.

Finaly, we ar  concerned wit th OIO'         s perction of
                                                       the role of the OPO.€
Specifcaly, we note the statement foun on pate il tht the OPO should " shap
and oversee ditrbution J'licies. We intmret the intent of Congrs to be to mae
the OPT    the organion rensible for developing dibution policies, . whie
the OPO is responsible for assur      adce to those policies.€
It is important to recogn that th ungness of may centers to sha organs
resuts from many factors, SOIJ of which ar dicused in the next section.
However, one facor has      be
                             the lack of fai play on the pan of a few center in
which sharg is interpted as "receivig. ony.


We strngly agr        with the rert s obsrvation tht a lare, and                peIhap
inappropriate, level of control lies with th  trlant   sueons. In addition to the
proportion of the OPT board of dictOI which they              ocy, trlan    sugeons
domiate the medical boards of most OPO' s; as UNOS regional counciors,
surgeons have the   oprtty      to oftn, UDaty, detenne region policies and€
reresentaton on UNOS    comm; an diors        as          of trlant progr,€
sugeons have the    oprtty
                      for UNOS
                                to determ     th choices for the single vote aforded
                                                   laws/plicies   appr a1. Th level
tottlant ceter                    elctons
of authority and/or inuence combind wi
                                           and
                                               meant
                                               by-
                                                            of " succs " accordg to

the number of    trlant   performed a miconception of may, ha reulted        in strng
                            SBOPF ha cleary demon th                 organ shag
oposition to organ   shag.
the single most effectve way to prvide a
                          because of th
                                             rec
                                        extenive
                                                 chce for
                                                 diersit of HL
                                                                    seitid patents to
                                                                                tys,
                                                                              organ
be trlanted. Funer,
sharg is the only way to imroe' th degr of HL matchig. Since
                                                           at
                                                              the
                                                              centrs
overwhebng majority of pheotyicay   identical ttla occu
other than tht   at which   the donor was reovered,   the abence of
                                                       it is clear th,   in
the madaol)      sharg policy, thes trlants         which have far and ' away the longest
averae   gr   surval among caverc donor trlan, would not have occud.
It is in establihig and maitaig tne cooraton in organ shag that OPT
has its most serious shortcomis.




                                            (4)€
. m.     yptir
   We note that twice in th rert, HL machg is cited as a possible, signca
   facor conuibutig to die.nces in access betwee Blac and Whes. Fuer, the
   report alo notes th cunt COtrvery regarg the beefit of HL matg.
   We believe it is of utmos imrtance to clar th issue. HL matchg is the
   single major factor afecg
   tranlantaton,     un            gr success that can be
                         imunosuresion,
                                                                  maatd pr
                                             has no major advere afec, and alo
   wie    imunosupsion,       involves  a one          tie
                                                    cost. The beefits of
   matchig ar    well  docente    Anysis    of the UNOS           da
                                                               bas, the UCL
   Tralant Regitr Dat      base and the Inteatonal   Collabrave  Tralan StUdy
   data base al cleary show a stepwise incrment in           gr
                                                       suival as th degr of
                                                                               cmt
   HL matchg imroves. However, although HL. match is one of the alost
   alocaton crteri at an opetional level, patients ar effectely
   exclusively by waiting tie,   with only very well matched patents
                                                                          ra
                                                                          suprsdi      that.
   The few hundrd HL phenotyicay identical tr
                                                    in
                                                       lants
                                                        waitig
                                                                       th
                                                                have ben
   perfonned certy  caot    accoun   for the diarty            tis betWn
   Black and Caucasian. Neveieless, an important goal of the                trlant
   communty should be to extend the benefi of HL machg to more individual.
, Th wil requ regionation    and spcifcay, for Blac patents wi reui
   fuer elucidaton of those HL antigens found predomiately in: the Black
                                    encourge mcreed organ donation from
   populaton. It wil alo    be   importt t
   the Black communty.
   Many of our members beeve that the cunt contrvers is not realy about the
   benefits of HL' machg but raer abut sharg. As note earer, becase of the
   diversity of the HL
   level, to achive any
                         sy       it is necessar to shar organ, at least at the regiona
                          appciable    numbe of goo HL maches. It, is evidet that
   there is.a strng reluctance, on the par of many surgeons, to "shar organ. As we
   have note abve, the    incrd       beefit of some lesser matches may be     incient
   to .wart    the cost involved (trrtaton.. etc. ). A reasonable co
                                                          shg,    with
                                                                         mpro         is to
   establish a thhold leve of mach and        to madate                  a  region,  for
   organ for which a match better than the thshold level is found.      wit     the region
   Th concet of regiona     shg ha        severa important  benefits. FJIt, it provide   the.
   opprtty of multile litig to aU          patent. Second,   for some  patents
                                                                  incrased
                                                                                 to have  a
   realistic oportty for trlantaon,           they must  have an             access.  That
   is, they must have a larger donor pol avaiable. Th is parcuarly tre of th
   sensiti patient. Regional shag, when combined with the use of               regiona
   crossmatch trys, provide the bet     oprtty       for trlantation of sensitd
                                                                            the
   patient.
   Pat 010U:
   It is of concem  th the issue of patient choice is not addrsed in any legilation nor
   in' any policies of the OP'. Imlicit in the right choice, is th' rement for
   patient educaton. Under the prent                atents do not have a choice abt
   donor selecton. The rert' s
                                           system,

                                   analysis of eqwty in access     uti$ waiting patents
   which implies a diadvantae associated with waitig tie. However, soDi
   who ar   awar of the beefits of HLA matchig and of their lielioo of fidig a
   well-matched donor, may elect to wait for such a donor. Oters may not. Th
   factors which detenne selecton of a             center ar unown It is not
                                               trlant
   unasonable to exct that at least some sensitized patients would choose to be

                                                 (5)
 trated at a center which panicipatesin regional sharg,i they weIe awar of the
 incIeascd lieliood   of trlantation.
In sumar, we    fid that:€
     .we agre with the conlusions of the Ieport that
        - some groups of patents have   dihed oponuty for trsplantaon
           progr of mandaed Iegional sharg
        - a                                        should be inestigated
        - goverance of the trlantation         €
                                               network should involve grater

        parcipation by   those in non-surgical aras€
     -the basis for the reuced access of Black has not been adquately.
     investigated; becausemed waitig tie can be afected by so may
    varles, we recommend altemative aproaches, spcifcay propIton
    trlants€
   , -since ABO diarty clearly reresents a major barer to trlantaton of
     Blacks, effons should be diected at increasing organ donaon by Blac
    -regional sharg should be mandated for certai      HL matches which extend€
    beyond the present level of mandatory sharg.€




Nancy E. Goeken, Ph.€
President , ASm€




                                        (6)€
        OIG Response To ASHI Comments€
The ASHI response is a thoughtful review of many imponant issues bearng on organ allocation.
We have reflected some of their comments in our revised text concerning the, black-white
disparties and have addrssed many of the points' in prior responses. We have also referenced
some of their comments in some of our previous responses.

One point that we have not addrssed is the one that ASH! raises concerning figure 2. It notes
that in that ftgure, which provides the median waiting time for blacks and whites on the basis of
blood type the ratio is greater for all bloo types combined than for any single blood type.
                                                                                            " It
then notes that this result is difficult to interpret.€

The explanation is that our data address the median waiting time, not the average waiting time.€
In converting that data to ratios, as ASH! has done, it is tang a parametrc model (averages)€
and applying it to a nonparametrc statistic (medians).€

An additional clarfication concerns the role of the OPO. In urging that the OPOs " shape and
oversee distrbution policies in their service areas, " we do not intend to imply that they do that€
independent of OPTN and HHS policies, rules, and guidelines. What we urge is that they, rather€
than individual trnsplant centers be the primar, authoritative vehicles for allocating organs in€
accord with those policies, rules, and guidelines.€
               It)          November 7 , 1990

Association                 The Honorable Richard P. Kusserow€
                            Inspector General€
                            Departent of Health and Human Services€
of Organ                    HHS Nort Building                          RECEIVED
                            330 Independence Avenue, S.           REGION 1-
                                                                              OIG/OEI
                            Washington, D.   C. 20201             INOV.L      . 1990
                            Dear Mr. Kusserow,
Procurement                 On behalf of
                            Association of
                                              the Executive Committee of the
                                               Organ Procurement Organizations
                            (AOPO), I am pleased to be able to respond to the
Organizations               Draft Dpcument: "The Distribution of Organs for
                            Transplantation: Expectations and Practices.
                            This response     represents the consensus of               the
:.h ,' ""rl.1n. :.I.D.      AOPO   s Executive Committee.
""n l id,.IrJ,,'n
                            The AOPO,          - .:ixty-two of the sixty-nine
                                        represents
\1.1n' ,\nn,' II..u,"

l",,,.. :\".\1
                            in the united States, both independent and
                            recognized Organ Procurement Organizations (OPO)
                            hospital based, who are collectively involved in
                            over ninety percent of , the solid organ
IIri.n 1\"'l.nl(1.


R"-:IIM \\ ,.,L:m.
                            procurements that occur each
                            purpose is to expand the public'
                                                               year.
                                                               The AOPO' s
                                                             awareness of,
    . . : 0 . 0 0'. -:":,
                            and  receptiveness to organ       donation.
                                                                   We are
                            committed to promulgating the distribution of
                            transplantable organs         in an equitable and
                            expeditious manner as     determined by the designated
                            Organ Procurement and Transplantation Network.
                            Lastly, its purpose is to study and evaluate the
                            organizational, administrative and educational
                            methodologies which will lead to tbe att          inment of
                            the above purposes.

                            First, let me say that AOPO does not - at all
                            disagree with the        basic
                                                      findings of the draft
                            document your office has produced. ' We do ' agree
                            that there is a significant disparity between the
                            percentage of Black Americans on the transplant
                            wai ting lists and the percentage transplanted each
                            year. Secondly,  it certainly appears that a Black
                            American waits significantly longer than a White
Administrative Office
1714 Hayes Street
Nashvilie, TN 37203
(615) 321- 3756
(0) 5) 329- 2513 (Fax)
 Mr. Kusserow
 November 7, 1990

- page Two

 American for a kidney transplant. And, AOPO would
 concur that these disparities do not seem to be
 related to        aither
                    recipient age or blood type.
 Nonetheless, AOPO feels that this report is far
 too limited to -identify       the causes of these very
 real disparities.

 It would seem to us that there are three broad
 areas that should be studied in much greater
 detail. First, are there medical-scientific
 biasgs - eithgr justified or unjustified - that
 account for these disparities? secondly, what
 part do socia-economic and cuI tural factors play
 in the equi table -      distribution of transplantable
 organs? Thirdly,
 not some         of   the seeming inequi ty  in
                          AOPO would question whether or
 practice might arise from local organizational
                                                 current
 strcture rather than from the system as a whole?
 Certainly Organ Procuement organizations differ
 just as regions differ.

 AOPO would point      out,
                       however, that neither the
 AOPO nor
 They carry it
                 its out.
               members make distribution policy.
                     Policy is determined by the
 organ Procurement Transplant Network (OPT) and
 the local medical and scientific oversight
 committees. And, in the final analysis, whether
 or not a given patient is transplantable with a
 given donor organ is initially decided by that
         s physician and/or surgeon and eventually
 in
 patient
           conj unction with   the patient.
                                        The common
 thread throughout thealgorith is   the transplant
 physician or  surgeon - both at the donor and
 recipient selection and evaluation, and at the
 transplantation event.

 AOPO and              its member Organ       Procurement
 Organizations are ready to assist your Qffice in
 the design and/or performance of any studies
 deemed appropriate. When root pauses for the
 racial disparity in the distribution
 transplantable organs are determined, the AOPO and
 its members will be happy to assist in the design
 and implementation of appropriate solutions.
Mr. Kusserow
November 7, 1990
?age Three

                                     to' comment
The AOPO thanks you for the opportunity
on the draft report and would be most happy to
provide your office with any  furterinformation
you require. Our ongoing dedication is to the
donor and recipient public and we stand ready to
help you assure that they are equitably served.
Thank you.


Il1y€
Mike P. K plan, M.
Preside
Associa on of Organ
Procurement Organizations

MPK/krk€
       OIG        Response                To AOPO Comments
We agre that the report does not identify the causes of the black-white disparty. We have
shown that some factors thought to contrbute to that disparty (such as bloo type) have little or
no effect. Beyond that we have simply identified a number of possibly contrbuting causes and
called for more research to examine such causes. Some such researh, such as the Rand study
mentioned by HCFA, is already underway.

We regret that AOPO was not more supportive of our observation that the OPOs rather than
individual transplant centers should be regarded as the engies of the organ distrbution system.
We recognize, as we noted in our response to ASH!, that allocation policies must be made in
accord with OPTN (and HHS) policies. Yet, within that context, OPOs still have a very
important role to play in developing and overseeing the particular approaches in their service
areas. Indeed, many OPOs and trsplant centers have already been quite active and successful
in obtaining varances from OPTN policies.




                                              D - 52€
                                   October 1,            1990





                                   R I chard         Kusserow
 NATCO                             I nspector Genera I
North                             Of f I ce of          the
                                                 Inspector Gener:
American
Transplant
Coordinators
                                  Washington, D.        20201      C.
                                  Department of Hea I th and Human Serv Ices


Organization                      RE:             I G Dr aft Repor t OE I - 01- 89- 00550

f'ld
l\a
TM T'-:I11        C8nl.'
           A. EloCk
                                  Dear Mr.
                                  Enclosed for
                                                       Kusserow:
                                                            your     consideration Is the response of the North

PIlipW'nglHnBuiin American Transplant Coordinators .organization (NATCO) to the

....Id.Elect€
                ,:;es'
                            Ro2' 20 draft report titled, " The Distribution of Organs
                                  Transp I antat            Ion: Expectat Ions and Pract                Ices"

                                                                                                                   for€
Linda L.   JoS€
Lo.1o 01 0N Organ€                NATCO Is the pro esslonal society representing organ
  Proc.-II (LOO)
700 Acrmn Ao. Su
Cous. OH         432
                            58    procureMent and clinical trf3nsplant coordinators. . Our
                                  membership totaling 1200 Is composed of practitioners from
Nty S. 08..                       over 300 transp I ant centers and organ procurement agenc I es I r"
T..... Do Sennl.                  the Un I ted States.     Our   organ I zat Ion has pos I t I ve I y
Na. TN 3720
1714 Hire. SItHI
                                  I nf I uenced the spec I a I ty of organ procurement and
T......€                          transplantation by assuring Quality care for organ donors and
Ao   C. Sm. ok.€                  their families as well as recipients of organ transplants.

ROPA 01 Solh Caom
8SO V.Wan Ave,           Ro 123
LoAnIe. CA            804
                        We have developed and promoted the recognition of standards

Co
Li Tuln
           at           of practice, provided professional and public education,

C8bfom T,anSl81 Do NeIW
                        encouraged      ertlflcatlon (by the American Board of Transplant

170 Caor Sl'Hl Su.. 36
San FtIl. CA 84109
                        Coordinators)     for           practitioners
                                                              In this specialty and

                        part I c I pated In ongo I ng research to advance Immunosuppress I ve

Co
T"'A SnIl'€
                                  therap I es and hi stocompat I bill ty techn I Ques.€
Hilt" Meth.S! For Woh€
1301   Ptylni AVtnu€              Our proact I ve I nvo I vement In Federa I and State
Ir
fo Wo. TX 76104€


Lo
Lo      M.€
              'ut€
              Prnt           Ag

                                 enab I ed us to work with profess I ona I sta f f and elected

                                 of f I c I a I s to further support our goa Is. : These are def I ned 

                                                                                                                 government ha



24SO   SeOrnAVt_. Su S2           our organizational legislative policy                               statement, which I   hav


Mell'., LA 701                    enc losed for             your     rev I ew.€
ElIC €
De. GiSh Pada€                    In - respond I  to each of the I ssues addressed I n your report.
eo. 153€
LeIl.., KS 6615€                  I w    I I I f 0 I I ow
                                                  the format of the report coment I ng first on
                                  the Execut I ve Sunvary and concluding WI th the rec    endatlon
                                  sect'l on.
                                  1) THE REPORT CITES THAT BLACK PATIENTS ARE WAITING TWICE AS

                                     LONG AS WHITE PATIENTS FOR FIRST KIDNEY TRANSPLANTATION.

                                  I t appears           that even when factors such as blood type and age
                                  were taken I nto account, a d I spar I ty was st III found between
                                  the wa I t I ng time for black ' pat I ents and wh I te pat I ents.


                                                   O. Box 1538 .    lenexa. KS 66215 . 913/492.3600
Richard Kusserow
October 1.         1990
Page 2

However. we are concerned that hi stocompat I bill ty factors.
spec I fica Ily HLA match I ng. were not adequate I' y addressed
your report. 1989 data from the Un I ted Network for Organ
Sharing (UNOS) Indicates that only 8% of U.            kidney donorsS.
were black      This  Is In  sharp contrast  wtth  the  fact that
blacks const                                   of the kl dney transp I ant rec I p lent
                     tuted 22.

population for that same year.                       . It
                                        ls well known that the HLJ
antigen  pool   for blacks   differs from  that of whites. One
reason for the d I spar I ty between black and wh I te pat I ents
that      Is more          difficult to
                                  locate HLA compatible kidneys
that match black recipients when available kidneys are
prlmarl ty from white donors. It Is our opinion that the
I ssue of ant I gen match g and dopor lrec I lent poo I reQu I res
specific analysis and strongly recomend that research In
this area be Identl fled as a priority If the disparity
between black and wh I te pat I ents I s based on pure I y
histocompatibility factors.
2) VAR I AT ION IN TIME AWA I T I NG TRANSPLANTAT ION

The time on a waiting" list                      varies dependent on the     transplan'
center. Th I s occurs for many reasons. Some transp I s)     ant
                                                                simp
centers andlor organ procurement organizations (OPO'
have longer wa  I t f ng I I sts . Thus a pat lent' s chances are
reduced as the wa                I t I ng II   st I ncreases un I ess there I s an
eQua I rat 10 of           onor kidneys procured I n the I oca             I area.
Herein lies the real   Issue - the balance between the number
of  locally procured kJdneys, the number of Imported kidneys.
and the number of patients awaiting transplantation. Clear I:
this balance differs from center to center and OPO to OPO an'
subsequent Iy pat lent wa I t I ng times vary accord I ng Iy.

A comparison between waiting times to transplant and the
actual transplant does not take Into account patients who
have declined the transplant or who have not been
transp I anted because of med I ca I or techn Ica I reasons. NATCO
recomends closer analysis of existing data to Identify
accurate Information on which to base an assumption.
3) fMPACT OF ANTIGEN MATCHING ON WAITING TIME
The rate of  locally procured kidneys Is higher In some areas
than I n other areas. Certa I n transp I ant centers are ab I e
Import more kidneys through regional and national sharing
because they have pat I ents II sted who
                                      have been wa I t I ng
greater than three (or more) years and thus have a hi
number of accumulated waiting points giving them priority
accord I ng to the cur rent UNOS kidney shar I ng system.
R I chard   Kusserow
October 1.     1990
Page 3


At some centers. both HLA- DR antigens cannot. be        Identified
a I I pat I ents due to a number of techn I ca I and/or med I ca I
reasons.     Subsequent I y. pat I ents without comp I ete
Identification will not have the opportunity to receive a si
ant I gen or phenotyp I ca I I Y matched kidney on a na t I ona I
sharing basis. All of these factors Influence why patients
at some transplant centers walt longer than at other center
for kidney transp antat Ion.
4) HIGHLY SENSITIZED PATIENTS AWAITING TRANSPLANTATION

NATCO agrees that the highly sensitized patient walts much
Ionger for a kidney transp I ant than other pat ents. There
no Question that this patient           placed at a disadvantage
because of the I r Immuno I og I ca I status and thus. may wa I t for
a number of years before a suitably matched donor Is found.
I t is Important to note that a I arge percentage of high I Y
sens I t I zed pat I ents are those who have rece I ved a pr lor
kidney transplant and have become - sensltlzed- ; although mal
patients are sensitized due to pregnancy and blood

transfus Ions.


All sensitized patients experience great difficulty
find I n9 a su I tab I y matched kidney but have a better chance
for transplant If their sera Is crossmatched with a large
poo I of    donors.   Therefore. NATCO supports a system to of fel
kidneys to these patients from a large pool which affords
them the best tissue match.

A I so, the I ssue of   ty must be addressed. to answer the
                        eQu
Quest Ion of how many kidney transp ants shou I d one have
access to with such a severe shortage of donor organs.

5) ORGAN PROCUREMENT TRANSPLANT NETWORK (OPTN)
NATCO Is coml tted to further I ng the deve lopment of the OPT!
and a national system for organ sharing. We agree that muci
work has been done and progress has been made In estab I I sh I
a national system with uniform policies for the dlstrlbutlol
of organs since the creat Ion of the OPTN. The OPTN has
I ncreased organ shar I ng I n an order I y , manner resu I t Ing
more equitable distribution than prior to their         formation.
It Is a Iso true however. that organ d str I but Ion Is st I II
somewhat controlled on the local level and within the reglol
R I chard   Kusserow
October 1,     1990
Page 4


of each OPO. There  are some acceptable reasons to maintain
limited control at this level:
a) assuring viable organs because of time constraints with
    preservat Ion
'b) limiting travel time to  prevent wastage of the organ, an.
c) exercising efficient and cost effective processing of
   transp I antab I e organs
We be I , eve however, that. these factors can be taken Into
account In a conso II dated rec I p lent wa I t I ng II st per
des I gna ted OPO.

6) ORGAN D ISTR IBUT JON

There appear to be documented evidence that variances
distribution are based on local scientific studies. Such
pract I ces foster comun Ity I nvo I vement I n the organ
procurement and transp I ant process and I ncrease organ donor
referral and eventual consent to donate. As there exists
dlffer ences In opinions as to histocompatibility             matching
transplantation, local variances play an We          Important part
se I ect I ng pat I ents for transp antatl on.          support ongo I ng
research to effect      I ve I y ana I yze the benef I ts and risks of
histocompatibility matching but realize the Importance of
system wh Ich      akes I nto account accumu I ated wa I t I ng time.
7)" SINGLE   UN I F I ED WA I T I NG LIST

NATCO endorses the recomendation that there should be
movement toward a sing I e un I fled II st for pat I ents awa I         tint
transplantation per each designated OPO service            area.
                                                        first-served,
add It Ion to us I ng the cr ter I a of first-come
 'S Important that object I ve med I ca I cr I ter I a be emp loyed tc
address the urgency of the rec I p lent' s need for€
transp I antat Ion as we II as hi stocompat I    bill tyfactors such€
HLA match I ng   and sens I t I za t Ion rates (react I ve ant I body
I eve I ) .
A point system which Includes objective medical criteria a
                             It I ng time I s Important to assure.
we II as the rec I p I ents wa
opt Imum resu I ts of the kidney transp I ant wi th reasonab I
expectat Ions of       success.
  chard Kusserow
October 1. 1990
Page 5

8) RELA    T IONS WITH DONOR HOSP IT ALS
NATCO has concerns relating to the            recomendation that the
Pub lie Hea    I th Serv I ce                  I at Ions reQu I ring each
                               shou I d Issue regu
OPO and     donor hosp I ta I to
                               adhere  to  reQU  I red organ
distribution arrangements within the designated OPO service
area.    I t is a shared respons I b II I ty of the Organ Procurement
Organ I zat Ion (OPO). re I ated tissue and eye banks. and the
donor hosp I ta I to create an open work I ng re I at lonsh I p that
fosters organ and tissue donat Ion and d str I but Ion.
As critical as this working relatl. onshlp Is. NATCO cautions
against the development of any regulations whIch have the
potent I a I to negat I ye I y Impact on the re I at I onsh I p of the
OPOs. re I ated t Issue and eye banks and the donor hosp I ta Is.
9) RELA    T IONS WITH TRANSPLANT CENTERS
In the same spirit of fairness. NATCO supports a consistent
system which assures eQultable d.lstrlbutlon following
ob Ject I ve med I ca I cr I ter Ia.  As respons I b II I ty for organ
dona t Ion I I es with the OPO. tissue and eye banks and donor
hosp I ta I. res pons I b I II ty for the transp I ant opportun I ty for
each pat lent ' 1 s shared by the transp I ant center and OPO and
fostered by a sJmllar open working relationship.
10) MEDICAL PRACTICE GUIDELINES

NATCO endorses the deve lopment of med I ca I pract Ice gu I de II ne
wh I ch address organ transp I antat Ion. Add I t I ona I stud I es and
more conc I us I ve find I ngs are needed to assure that po I I c I es
gover n I ng organ shar I ng are sc I ent I fica I I Y based and that we
continue to provide optimum patient care . to those seeking
transplantation.
11) DEMONSTRATIO€ PROJECT EVALUATION A REGIONAL DISTRIBUTION
     SYSTEM

NATCO also supports funding for a demonstration effort which
wou I d   estab II sh a sing   Ie. un   fled wa   I t1 ng II   st for a II
pa t I ents I n a spec fled number of comb I ned OPO serv I ce areas
and mandates shar I ng of organs to those pat I ents on a
first-come first-served basis subject to objective medical
criteria.      Such a project would evaluate the potential of a
regional patient driven distribution system as well as asses
the cost ef fect I veness of such a         system.
                                                Before undertak I ng
an attempt at a national distribution system. a regional
system demands further evaluation.
Richard Kusserow
October " 1990
Page 6


 12) ORGAN PROUREMENT ORGAN I ZA T ION RESPONS I B I LIT I ES

NA TOO recogn I zes that  I t is the respons I b I I I ty of the Organ
Procurement Organ I za t Ion to assure eQu I tab le d I str I but Ion of
organs and thus supports that th I s respons I     bill ty   be a
criteria for Medicare recertification. In addition. rigorous
and sound I y based organ procurement cr I ter I a shou I d be
des I gned to measure the procurement efforts of the OPO as
we I I as measure other per. formance beyond actua I recovery
organs wh I ch has a direct Impact on organ donat Ion (I. e., the
development of comunity outreach programs).
As organ donation and transplanta      tlon Is   a responsibility
shared by the medical comunity. we encourage the
professional associations, In particular the American Society
of Transplant Surgeons (ASTS) and the American Society of
Transp I ant Phys Iclans
                      (ASTP) to conduct the I r own ana I ys I s
those factors wh Ich may lead. to longer med Ian wa I t Ing times
for black patients versus white patients. NAToo would
welcome the opportunity to work with these groups In studyl.ng
these Issues.
As NATOO Is com tted to assur I ng opt I mum standards of
practice, we appreciate the opportunity to coment on this
draft report and . look forward to providing additional
Information to your office as the need arises.
Thank you.
S J ncere   Iy

  t-aJ
Barbara A. Elick, R. N.. CCTC/CPTC
Pres I dent
      OIG Resp onse                       To NATCO                    Comments€
The NATCO' s response to our recommendations was generaly         supponive. We agree that more
attention must be given to the influence ofllA matching on the black-white differential and, as
previously noted, have modfied the text accordingly. We also recognize, as NATCO notes, that
there ar numerous other factors that might contrbute to the situation.€

We welcome NATCO' s support on our reommendation callng for a single waiting list per OPO
service area as the basis for allocation. We fully agree that in accord with the first come first€
served principle, it is importt to use "objective medical criteria" to indicate " the urgency of the€
recipient s need for transplantation " and to use " histocompatibilty factors such as HLA€
matching and sensitization rates. . ..

On the matter of relationships with donor hospitals, we accept NATCO' s caution about issuing
regulations that would have a negative impact " on the relationship of the OPOs, related tissue€
and eye banks and the donor hospitas. " Indeed, the intent of our proposed regulation is to foster€
and protect goo working relationships by calling for transplant centers and donor hospitals in an€
OPO selVice area to abide by the policies developed by the OPO.€




                                               D - 59€
                                                                                                               .... UUYI UU.&UUf&   Ouvo-   s:UD
                                                                                                                  Offcc number (617) 277-6200



                   New England Organ Bank' , Inc.
-.nrw. IIJe



                                                                    December 27, 1990 


    Richard P. Kusserow
    Inspector General

    Department of Health and Human Services

    HHS North Building
    330 Independence Avenue, S.
    Washington, D. C. 20201


    Dear Mr. Kusserow:


    The New England Organ Bank (NEOB) appreciates the opportunity to comment on
    the draft report issued by your office, II The Distribution of Organs for
    Transplant tion: Expectations and Practices.                          II
                                                                                         J'9- OtJ5.stJ


    NEOB is the oldest and Jargest organ procurement organization in the United
    States. Founded in 1968, NEOB now serves 11. 5 milion people, more than 200
    hospitals, and 14 transplant centers in the six New England states. Giventhe
    number and               institutions we serve, NEOB has had extensive experience
                       diversity of
    dealing with many of the logistical , political and scientific issues analyzed in
    the report. , While we are generally supportive of the intent of the
    recommendations, equitable access for all in need of a transplant, we do not
    agree with some of the methods proposed to achieve this. Our concerns are based
    around three general issues:

       Although, (as quoted on page 7 of the                report) the 1986 Task force on Organ
    Transplantation noted                 that transplantation had developed sufficiently to " allow
    for the establishment                 of certain standards of practice," we believe their
    conclusion was somewhat premature.                             Transplantation continues to be                              rapidly
    evolving clinical field which is stil categorized by diverse protocols and
    practices. Within limits, it is essential to encourage this diversity if we are to
    continue to progress. However, legitimate scientiic disagreements should not
    be allowed to obscure the issue of equal access.




              Promoting the procurement. preservation 
   and   distribution of organs      and   tissues lor transplantation
Richard P.   Kusserow
December 27, 1990
Page 2

   - - While an    absolutely uniform national system is appealing.      It is more
realistic and practical to organize at a regional level.   This provides    sufficient
scale of activity while minimizing logistical problems.

     - Any system of organ distribution should focus on the outcome. i. e..      equal

access. There wil be more than one       legitimate way of achieving that end.
national system should encourage multiple models In order to . assess       which
proves to be    most effective.

More specifically, we would offer the following thoughts on the report'
recommendations.

Recommendation #        - "The PHS. in collaboration with the OPTN. should Issue
regulations to require thateach OPO ' (1) establish a single, unified list of
patients awaiting transplantation and (2) distribute organs to these patients on a


Comments:
first come first served basis. subject to established medical criteria.

- It is not reasonable to assume that - established medical criteria-
agreed upon by the transplant community or that they could be in
                                                                          have been
                                                                         the immediate

future. There are    legiti,mate scientific disagreements on issues such as HLA
matching. prioritization of highly                          While it is
                                     sensitized patients, etc.
inappropriate to allow any surgeon or transplant center to decide these issues
unilaterally, it is equally unreasonable to suggest that there
                                                                  is only one correct
answer for all the nation. Instead we would suggest that equal access can best
be assured by requiring that each region of the countr .establish an
                                                                        objective
process for distribution. which is evenly applied to all waiting in the region.
This system would have to be     prospectively justified and should then be under the
scrutiny of all the transplant centers in the region, the OPO(s). , and a national
bodysuch as UNOS. In addition, complete and timely sharing of data should be
required so that periodic retrospective analysis may be performed.. This
                                                                              would
allow comparisons among the regions.

- Some proposals     suggest the establishment of OPO-wide lists rather than region-
wide lists.   This is acceptable if the OPO encompasses a sufficient number of
transplant centers to assure patient equity. If this option is adopted, it must be
accompanied by rules preventing the proliferation of OPOs and encouraging
consolidation of   existing ones. The alternative wil be the creation of new. one
or two transplant center OPO' s   to avoid impact of a shared    list.
 Richard P.    Kusserow€
 December 27. 1990€
 Page 3 .


Recommendation # 2 - "The PHS. in collaboration with the OPTN. should issue
regulations to require that each transplant center and donor hospital in' an OPO
service area adhere to' the centralized organ distribution policies of the OPO
governing that area.€

Comments:€
- Such regulations are appropriate. It seems strange to establish OPO territories
and OPO/OPTN rules and then a1l0w individual hospitals to act .outside of them.
- Such regulations wil need to be accompanied by compliance monitoring and
reasonable penaltes for violations. Current sanctions. (e. g..   denial of all
Medicare and Medicaid payments),   are so severe that they are never   invoked.

Recommendation # 3 - " The PHS, in collaboration with the OPTN, should support
the development of medical practice guidelines addressing organ transplantation.

Comment:
It wil be difficult to develop guidelines given the disagreements within the
transplant C?ommunity on appropriate methods of selecting potential recipients.
matching organs to  recipients. and protocols for post-transplant patient care.
It may be possible for all transplant centers , within a regional OPO to agree on a
general set of medical criteria, b4t national consensus is unlikely. Whatever is
developed must have suffcient flexibilty to allow for the uniqueness of each
patient. Unfortunately, guidelines which are developed in a' regulatory framework
frequently become absolute rules when implemented.

Recommendation # 4    - " The PHS should fund a demonstration effort incorporating
the following two features: (1) the establishment of a single, unified waiting list
including all patients awaiting an organ transplant in a number of OPO service
areas and (2) mandatory distribution of donated organs to those patients on a
first come first served basis, subject to established medical criteria.
. Comment:
Such a study, while desireable, is likely to be impractical given the lack of
agreement on what constitutes "established medical criteria. " (See comments
above), and political concerns of adjacent OPO' s. However . it might be more
practical to       organ allocation at those larger OPO' s which already have
               study,

unified lists and include a large number of transplant centers. This would also
allow examination of different sets of " established medical criteria " which have
been implemented in different regions of the country. Given the existing
         Kusserow
Richard P.
December 27, 1990
Page 4


diversity of approaches to organ distribution, it would seem the structure Is
already In place to determine which methods have proven effective In achieving
the goal of equal access. Once again, we stress the plural nature of the answer
based on our belief that there witl be more than one - right- way.

Recommendation # 5                - - The HCFA and the PHS should support research efforts
that could help reduce racial             disparities in organ allocation.


Comment:
We strongly support this recommendation. It Is critical- to determine If the
apparent di"sparities in waiting times are truly related to inherent clinical
issues. discriminatory behavior (intentional           or unintentional), or a combination of
factors. Given the apparent disparity             among regions (e. g. no difference in waiting
time NEOB' s region but varyirig lev els of difference In most others) this is
obvious a complex issue. For example, is there a significant difference between
the experience at single-transplant center OPO' s versus those that serve many
transplant centers? Is there a difference between those OPO's that already have
a single unified list and those that stil allocate among each individual center
list? These dat already exist, could be analyzed further now, and the results
included in the final version of the report.

Finally, NEOB would be pleased to work with the Ofice of the Inspector General
ifi collecting and analyzing data, as well as the testing of any proposals.

We loo    forward to conversations with            you   and/or members of    your   staff
concerning these           important issues.

                                                     Sincerely yours,

                                                                             CC
                                                     Richard S. L
                                                     Executive ' Director
            OIG Response To NEOB Comments€
    We recognize the importnce of NEOB ' s caution on the danger of seeking premature consensus
    on medical practice guidelines concerning organ trsplantation. Yet, there is an extensive body
    of information which has been developed which, it appears, could be drawn upon to provide
    some authoritative framework for guiding (not prescrbing) medcal practice in this ara. If the
    medical criteria exception serves as the only legitimate basis for deviating from the first cOp1e
    first served rule, such a frework would seem to be especially imponant. The matter of
    determining a threshold level of match , as suggested by ASHI , might be one panicular to focus
    on in this regard.

    We also recognize the limitation that NEOB notes concerning the relevance of a demonstration
    project concerning the use of the first come first served concept. Yet,. as we note in the text, such
    an effort can provide some useful data and can help us gain a better understanding of the costs
.   and benefits of allocating organs from larger donor pools. If two or more adjacent OPOs are
    ready to participate, we think such a demonstration warants the effon.




                                                    D- 64

                                                 ' (                                                          ..




                                             n organ procurement fO. ndation€
                                                              January 22, 1991

                     II. D.. €
  P.trila A"-.. II.D     v". €
  lI""I."t. II.€
  .I-            Soar€
         . Wil., II.D.
  WI. LeF.t, I'.,€
  11 At utClliw'
         A.                       Do.afM-€

    Honorable Richard P. Kusserow

Inspector General

Department of Health and Human Services

BBS North Building

330 Independence Avenue, S.€
Washington, D.                   C. 20201€
Dear Mr. Kusserow:


      The South-Eastern Organ Procurement Foundation (SEOPF) wishes to comme

on the Draft Document: " The                                   Distribution of Organs for                                 Transplantatio:€
Expectations and Practices . SEOPF has been an imprtant contributor for mQ

than 20 years to the science of transplantation including(bibliograp:€
                                                                 the use €
histocompatibility matching as a basis for organ distribution
attached).  Several issues concerning the equitable distribution of orga'€
for transplantation raised inThese
                               yourissues
                                    Drafthave  be addressed by scientif€
                                          can sparked
organizations such as SEOPF.                          some controversy a

considerable debate within our organization. The observation that blacks wa

longer than ' whites, the fin ing that women wait longer than men, the foc

upon short-term rather than long-term results, the ' role of histocompatibili€
testing and the availability of particular patients for transplantation wh

an organ comes available are examles of important questions discussed with

the committees of SEOPF. Data from a SEOPF Member Organ Procurement Agen

indicate that black patients are more often Ynavailable for an identifi€
donor organ                 than whites                            Ol).
                                       SEOPF believes that additional da

collection and analysis will be important to a correct interpretation of 

findings in                  your Draft
                             Document. The SEOPF Scientific                                                                 . Projects €
Publications . Commi ttee is undertaking studies of Center effectsWeand       

                                                                           exp

access of minorities to cadaver donor kidneys for transplantation.
that the results of these SEOPF research studies will be helpful to you 2

the entire transplant community in our effort to understand the reasons

differential access of     particular patient groups to cadaver organs f€

later this year. €
transplantation. SEOPF appreciates the opportunity to comment on the Dr,€
Document and looks forward to sharing the results ' of its resea   rch€
                                                            ,------_u----€

                                                     Sincerely yours,

                                                                                 'J €




                                                     R. Randal Bollinger, M. D., Ph.

                                                                                                                   ir'€
                                                     President, SEOPF

RRB:lc€


                    7740 Shradr        Road. Suite   A . Richmond. Virginia 23228 . Telephne 1801   672. 2m   . FAX 1801672. 2643€
      OIG        Response                To      SEOPF Comments
We are pleased that SEPOF has been examining many of the issues raised in our repon and that
its Scientific Projects and Publications Committee is devoting panicular attention to the access
of minorities to cadaver kidney transplantation.  EOPF and its member institutions bring much
expertise to such inquir. We look forward to the results.
  In  MIlir
  We note th twice in th rert. HL machg is cited as a possible, signca
                     diernces in access betwee Blac and Whes. Furer, the
        also notes th cu cotrvery regarg the beefit of HL matg.
  facor contrbutig to
  rert
  We believe it is of utmos imrtance to clar th issue. HL machg is the
  single major factor afecg gr success that can be maatd         pD
  tranlantaton,   un
  une inunosuppresion.
                        imunosuresion,    has no major advere afec, and alo
                             involves a one tie cost. The beefits of
  matchig ar    well docented    Anysis of the UNOS da bas, the UCL
                          base and the Interatonal Collabrave Tralan Study
  Tralant Regitr Dat
  data base al cleary show a stepwise incrment in        gr
                                                        suival as th degr of
                                      although IU match is one of the cmt
  HL matchg imoves. However,level,         patients ar effectely raed alost
  alocaton crteria, at an opetional
                                                      matche patents suprsdi that.
                                      identical tranlants th bave ben
  exclusively by waiting tie,   with only very well
  The few hundr   IU phenotyicay                     waitig tis between
  perfonned certy caot accoun for the     diarty ingoal of the trlant
  Blac and Caucasia. Nevereless,      an imrtant
  communty should be to extend the benefi of IU  matchg   to more indiviual.
" Th wilrequ regionation and spcifcay, for         Blac p atents wil reui
                           HL antigens found
  fuer elucidaton of thoseimportt              predomiately in the Black
  populaton. It wil alo   be      to. encourge mcrcdorgan donation from
  the Black communty.
  May of our membe beeve that the Cunt contrvers is not realy about thethe
  benefits of HL machg but raer abut sharg. As note earer, becase of
  diverity of the HL    syit is necsar to shar organ, at least at the regional

  level, to achive any appcible numbe of goo HL maches. It is evidet that
  there is.a strng reluctce, on the par of many surgeons, to "shar organ. As
                        incrd     beefi of some lesser matches may be incient
  have note abve, the
  to ' wart the cost involv (trrtaton,. etc. ). A reasonable
                                                                    comp         is to
  establis a thhold leve of mach and to mada shg, with a region.     wi    the
                                                                                for
                                                                               region.
  organ for which a match better than the thshold  level  is found.
  The concet of regiona shg ha severa important benefits. F11, it provide the
  oprtty       of multile litig to al patent. Second, for some patents to have a
  realistic oportty for trlantaon. they must have an incrased access.             That
  is, they must have a larr donor pol    avaiable. Th    is  parcuarly   tre  of  th
  sensiti patient. Regional shag,      when  combined    with   the use of regiona
                                                for trlantation of the sensitd
  crossmatch trys, provide the bet     oprtty
  patient.
  Pat O1oke
  It is of concernth    the ise. of patient choice is not addrsed in an legilationfornor
  in. any policies of the OFI. Imlicit in the      rit  choice, is the. rCment
                                                                                abt
  patient educaton.. Under the prsent    system,   t'aUents do not have awaig
                                                                          choice tie
  donor selecton. The rert' s     analysis of eqwty in access u
  which implies a diadvantae associated with waitig       tie. However, some    patents
  who ar awar of the beefits of HLA matchig and of their lielioo of
                                                                      fidig a
  well-matched donor, may elect to wait for such a donor. Oters may not. Th
  factors which detenne selecton of a      trlant center ar unown It is not
  unasonable to exct that at least some sensitized patients would choose to be

                                            (5)
trated at a center which paricipatcs in regional sharg,i they were awar of the
increased lieliood   of trlantation.
In sunar, we    fid that:
     .we agre with the conlusions of the report tht
        - some groups of patents have   dihed oportty for trsplantaon
        - a program of mandaed regional sharg     should be inestigated
        - goverance of the trlantaion          network should involve grater
        parcipation by those   in non-surgica aras
    .the basis for the reuced accss of Black ha not been adquately.
    investigated; because   med waitig tie caD be afected by so may
    varles, we recommend altemative aproaches, spcifcay proprton
    trlants
    .since ABO diarty clearly reresents a major barer to trlantaton
    Blacks, effort should be diected at increasing organ donaon by Blac
    .regional sharg should be mandated for certai     HL matches which extend
    beyond the present level of madatory shag.




Nancy E. Goeken, Ph.
President, ASID




                                        (6)€
         OIG Response To ASHI Comments€
The ASHI response is a thoughtful review of many importnt issues bearng on organ allocation.€
We have reflected some of their comments in our revised text concerning the. black-white€
disparties and have addrssed many of the points ' in prior responses. We have also referenced€
some of their comments in some of our previous responses.€

. One point that we have not addrssed is the one that ASHI raises concerning figure 2. It notes€
  that in that figure, which provides the median waiting time for blacks and whites on the basis II of€
                                                                                                    It€
  blood type, " the ratio is greater for all bloo types combined than for any single blood type. €
  then notes that this result is difficult to interpret.€

The explanation is that our data address the median waiting time, not the average waiting time.€
In convertng that data to ratios, as ASHI has done, it is takng a parametrc model (averages)€
 and applying it to a nonparametrc statistic (medans).€

An additional clarfication concerns the role of the GPO. In urging that the OPOs " shape and€
oversee distrbution policies in their service areas," we do not intend to imply that they do that€
independent of OPT and IfS policies, rules, and guidelines. What we urge is that they, rather€
than individual trnsplant centers be the priar, authoritative vehicles for allocating organs in€
accord with those policies, rules, and guidelines.€
                             November 7 , 1990

Association                 The Honorable Richard P. Kusserow€
                            Inspector General€
                            Departent of Health and Human Services€
of Organ                    HUS Nort Building                         RECEIVED
                            330 Independence Avenue, S.            REGION 1 - OIG/OEI
                            Washington, D.      C. 20201           INOV,.    . J990
                            Dear Mr. Kusserow,
Procurement
                            On behalf of          the Executive Committee        of     the
                            Association of  Organ Procurement Organizations
                            (AOPO), I am pleased to be able to respond to the
Organizations               Draft Document: "The Distribution of Organs for
                            Transplantation: Expectations and Practices.
                            This response        represents the consensus of            the
:l1I!.,'   K.rl.n.   I.O,   AOPO   S Executi ve       ttee.
                                                  Commi
""n Rkh.IrJ....,
                            The AOPO    represents - .:ixty-two of the sixty-nine
                                                         Organizations
"..n' An..' II"u",'

L'nw.. :\,'1.11
                            in
                            recognized Organ Procurement
                                the          states,  both  independent
                            hospital based, who are collectively involved and
                                        Uni t
                                                                                      (OPO)


                                           percent of . the solid organ
                                                                           in
IIri.n Kn''-n..!.
  0 00 .
                            over  ninety
                            procurements that occur each year. The AOPO'
  'lII\'1 W,'rkm.           purpose is to expand the public' awareness of,
                            and receptiveness to organ          donation.
                                                                   We are
                            committed to promulgating the distribution of
                            transplantable organs          in   an equitable and:
                            expeditious manner as determined by the designated
                            Organ Procurement and Transplantation Network.
                            Lastly, its purpose is to study and evaluate the
                            organizational, administrative and educational
                            methodologies which will lead to toe att         inment of
                            the above purposes.

                            First, let me say that AOPO does not' at all
                            disagree with the basic findings    of the draft
                            document your office has produced. ' We do ' agree
                            that there is a significant disparity between the
                            percentage of Black Americans on the transplant
                            waiting lists and the percentage transplanted each
                            year.  Secondly, it certainly appears that a Black
                            American waits significantly longer than a White
Administrative Office
1714 Haves Street
Nashvilie, TN 37203
(615) 321- 3756
u; 15) 329- 2513 (Fax)
    Kr. Kusserow €
    November 7, 1990
.   J'ge Two

    American for a kidney transplant. And, AOPO would
    concur that these disparities do not seem to be
    related to  aither recipient age or   blood type.
    Nonetheless, AOPO feels that this report is far
    too limited to -identify the causes of these very
    real disparities.

    It would seem to us that there are three broad
    areas that should be studied in much greater
    detail. First, are there medical-scientific
    biases - either justified or unjustified - that
    account for these disparities? Secondly, what
    part do socio-economic and cul tural factors play
    in the equitable " distribution of transplantable
    organs? . Thirdly, AOPO would question whether or
    not  some of  the
                   arise
                        seeming inequi tyin   current
                            from local organizational
    practice might
    strcture rather than from the system as a whole?
    certainly Organ Procuement organizations differ
    just as regions differ.

    AOPO would point    out,
                         however, that neither the
    AOPO nor its members make distribution policy.
    They carry it  out.Policy is determined by the
    Organ Procurement Transplant Network (OPT) and
    the local medical and scientific oversight
    committees. And, in the final analysis, whether
    or not a given patient is transplantable with   a
    given donor organ is initially decided by that
                                      arid eventually
    patient' s physician and/or patient.
    in conj unction with the surgeon The common
                             algorith is the
    thread throughout the
    physician or surgeon - both      at the transplant
                                         donor and
                                            at the
    recipient selection and evaluation, and
    transplantation event.

    AOPO and      its member Organ             Procurement
    organizations are ready to assist your Qffice in
    the design and/or performance       of any studies
    deemed appropriate. When root
             dispari ty in the distribution
                                        causes for the
    racial
    transplantable organs are determined, the AOPO and
    its members will be happy to assist in the design
    and implementation of appropriate solutions.
Mr. Kusserow
November 7, 1990
?age Three


The AOPO thanks you for the opportunity to comment
on the draft report and would be most happy to
provide your office wi th any furter information
you require.   Our ongoing dedication is to the
donor and recipient public and we stand ready
help you assure that they are equitably served.

Thank you.


i:1y€
Mike P. K plan, M.
presidel'€
Associa on of Organ€
Procurement Organizations

MPK/krk€
       01 G Res p €           o n s       To     A O P €          Comments€
We agre that the repon does not identiy the causes of the black-white disparty. We have
shown that some factors thought to contrbute to that disparty (such as bloo type) have little or€
no effect. Beyond that we have simply identified a number of possibly contrbuting causes and€
called for more research to examine such causes. Some such research, such as the Rand study€
mentioned by HCFA, is already underway.€

We regret that AOPO was not more supponive of our observation that the OPOs rather than
individual transplant centers should be regarded as the engies of the organ distrbution system.
We recognize, as we noted in our response to ASHI, that allocation policies must be made in
accord with OPTN (and HHS) policies. Yet, within that context, OPOs still have a very
imponant role to play in developing and overseeing the particular approaches in their service
areas. Indeed, many OPOs and trsplant centers have already been quite active and successful
in obtaining vararces fromOPTN policies.
                                  October 1,          1990




                                  R I chardKusserow
 NATCO                             nspector Genera
North                             Of flee of the Inspector Gener:
American
Transplant
Coordinators€
                                  Washington ,         D.   C.
                                  Department of Health and Human Services
                                                                    20201
Organization                      RE:      IG Draft Report OEI- 01- B9- 00550€

..1d
8Ia A. Etok
TII Tr8111
PlIiWengl..n8uiin
Pr81.Elect€
            Ao2.20
                    CeRi.'        Dear Mr.

                   American Transplant,Coordinators
                                        li
                                                   Kusserow:
                   Enclosed for your consideration Is the response of the North
                                                    .organization (NATCO) to the
                                 draft report titled The Distribution of Organs for
                                 Transplantation: Expectations and Practices.
Lin L Jos
Lo   01 0N OrQ8n
 Pt-II (LOI                      NATCO Is the professional society representing organ
700 kkrmn           Rod. Su 58   procurement and clinical tr nsplant coordinators. . . Our
Cous. OH            432
                                 membership totaling 1200 Is composed of practitioners from
                                 over 300 transp I ant centers and organ procurement agenc I es I r
Ney S. DaVI
T._- Do SeNit
1714 Hayes     S-I
                                 the Un I ted        States.
                                                       Our organ I zat Ion has pos I t I ve I y
                                 Influenced the spec I a I ty of organ procurement and
          . TN 3720
TN..€                            transplantation by assuring Quality care for organ donors and
fI c.Son
     Sm .I.€
ROPA 01    Caom€
                                 their families as well as recipients of organ transplants.
850 V...an Ave. Ro 123€
Lo Ans. CA 804€                  We have deve loped and promoted the recogn I t Ion of standards€
CG at €                          of practice, provided professional and public education,€
Li Tuln€                                      ertlflcatlon (by the American Board of Transplant€
CeIo Tranll Do NeIW              encouraged

170 CaOM Slr"L Su 36             Coordinators) for practitioners In this specialty and€
San Franc. CA 84'09
Co                               participated  In ongoing research to advance Immunosuppressive€
T.r.sa Shfe'€
             at €
                                 therap I es and hi stocompat I bill               ty techn I Ques.€
Hams Ma\lrs Fo Wonh
1301       ni AV8
Fo Wo. TX 7610.                  Our proact I ve I nvo I vement In Federa I and State government ha
Im
Lo
   "8I1'                         enabled us to work with professional staff and elected€
                                 of f I c I a I s  to
                                                  f.urther support our go a Is. . These are def I ned I r,€
        s. I'Il
        M.

2450
             Oon
              AlInu, Su $2       our     organizational legislative policy statement, which I          hav€
MaLaria, LA 7001                 enc losed for             your rev I ew.€
&tc €
De Git                           In - respond I  to each of the I ssues addressed I n your repor t .
80x 1
I.nexa KS 66'5€                  I w    I I I f 0 I I ow
                                                 the format of the report coment I ng first on
                                 the Execut I ve Summary and conc I ud I ng WI th the rec enda t Ion
                                 sect     on .

                                 1) THE REPORT CITES THAT BLACK PATIENTS ARE WAITING TWICE AS
                                    LONG AS WHITE PATIENTS FOR FIRST KIDNEY TRANSPLANTATION.
                                 I t appears that even when factors such as blood type and age
                                 were taken I nto account , a d       y was st II I found between
                                                                               I spar I

                                 the waiting time for black ' patlents and white patients.

                                              O. Box 1538 .    lenexa, KS 66215 . 913/492- 3600
Richard Kusserow
October 1.    1990
Page 2

However, we are concerned that hi stocompat I bill ty factors.
specifically HLA matching, were not adeQuatel"y addressed
your report. 1989 data from the Un I ted Network for Organ
Sharing (UNOS) Indicates that only 8% of U.           S.   kidney donors
were black      This  Is  In  sharp  contrast    wtth  the  fact that
blacks const    tuted  22. 4%  of the  kidney   transp  I ant rec I p lent
popu I at Ion for that  same   year.    I t is we II  known  that   the HLJ
antigen pool for blacks differs from that of whites.                One
reason for the disparity between black and white patients
that It Is more      difficult to   locate HLA compatible kidneys
 ha t match black rec I p I ents when ava I I ab I e kidneys are
prlmar11y from white donors. It Is our opinion that the
Issue of antigen matchl g and dopor/reclplent pool reQuires
specific analysis and strongly recomend that research In
this area be Identlfled as a priority If the dls              arlty
between black and wh I te pat I ents I s based on pure I y
histocompatibility factors.
2) VAR I AT ION IN TIME AWAI T I NG TRANSPLANTAT ION€

The time on a wa I t I ng list var    I es dependent      on the transp I an'
center.       Th I s occurs for many reasons.
                                                I
                                                   Some
                                                  za t
                                                          transp I ant
                                                       Ions  (OPO' s) simp
have longer wa I t I ng    Ists.
centers and/or organ procurement organ
                             I       ThUS a pat
reduced as the waiting' list Increases unless
                                                lent'   s Chances
                                                           there  Is
                                                                     are
                                                                      an
eQual ratio of , donor kidneys procured In between   the   local  area.
Here I n II es the rea I Issue - the ba I ance                  the number
of  I oca I I Y procured k     dneys. the  number  of   Imported
                                              transplantation.
                                                      Clearl
                                                                   kidneys,
and the number of patients awaiting
this balance differs from center to center and OPO to OPO an
subseQuently patient waiting times vary accordingly.
A campar I son between wa I t I ng times to transp I ant and the
actua I transp I ant does not take Into ac ount pat ents who
ha ve dec I I ned the t r ansp I an t or WhO have not been
transplanted because of medical or technical reasons. NATCO
recomends closer analysis of existing data to Identify
accurate I nformat Ion on which to base an assumpt Ion.
3) IMPACT OF ANTIGEN MATCHING ON WAITING TIME€
The rate of  locally procured kidneys Is higher In some areas
than I n other areas. Certa I n transp I ant centers are ab I e
Import more kidneys through regional and national sharing
because they have pat ents II sted WhO have been wa I t I ng
greater than three (or more) years and thus have a hi
number of accumulated waiting points giving them priority€
accord I ng to the current UNOS kidney shar I ng system.
R I chard   Kusserow
October 1,     1990
Page 3

At some centers, both HLA- DR antigens cannot. be Ident I fled
all patients due to a number of technical and/or medical
reasons.    SUbseQuent Iy, pat I ents without comp ete DR
Identification will not have the opportunity to receive a si
ant I gen or phenotyp I ca I I Y matched kidney on a na t I ona I
shar I ng bas Is. A II of these factors I nf I uence why pat I ents
at some transplant centers walt longer than at other center
for kidney transplantation.
4) HIGHLY SENSITIZED PATtENTS AWAITING TRANSPLANTATION
NATCO agrees that the highly sensitized patient walts much
Ionger for a kidney transplant than other patients. There
no Question that this patient           placed at a disadvantage
because of the I r Invuno I og I ca I status and thus, may wa I t fOI
a number of years before a su I tab Iy matched donor I s found.
I t is Important to note that a I arge percentage of high I Y
sensitized patients are those who have received a prior
kidney transplant and have become - sensltlzed- ; although mal
pat I ents are sens I t I zed due to pregnancy and blood
transfusions.€
All sen ltlzed patients experience great difficulty
finding a suitably matched kidney but have a better chance
for transplant If thel        sera Is
                                 crossmatched with a large
poo I of    donors.
                  Therefore, NATCO supports a system to of fel
kidneys to these patients from a large pool which affords
them the best t Issue match.
A I so, the I ssue of   ty must be addressed. to answer the
                        eQu
Question of. how many kidney transplants should one have
access to with such a severe shortage of donor organs.
5) ORGAN PROCUREMENT TRANSPLANT NETWORK (OPTN)
NATCO Is comitted to furthering the development of the OPT!
and a natlon 1 system for organ sharing. We agree that muc
work has been done and progress has been made In estab II sh I'
a national system with uniform policies for the dlstrlbutlol
of organs s1nce the creat Ion of the OPTN. The OPTN has
I ncreased organ shar I ng I n an order I y . manner resu I t lng
more eQu  tab le d I str I but Ion than pr lor to the I r format Ion.
It I.   also true however, that organ distribution Is stili
somewhat contro II ed on the I oca I I eve I and with I n   the reg 101
    R I chard          Kusserow
    October 1,            1990
    Page 4

    of each OPO. There   are some acceptab            I e reasons   to ma I nta I ri
     limited control at this level:
    a) assur I ng v I ab I               because of time constra I nts with
                                   e organs
       preservat Ion
    'b) 11m      I t I ng trave I time to prevent wastage of the organ t an
    c) exercising efficient and cost effective processing of
             transp I an tab I e organs
    We bel      'eve      however, that. these factors can be taken Into
    account            In a consolidated recipient waiting list per
    designated OPO.
    S) ORGAN DISTR IBUT JON

    There appear to be documented evidence that variances
    distribution are based on local scientific studies. Such
    pract I ces foster conun I"ty I nvo I vement I n the organ
    procurement and transp I ant process and I ncrease organ donor
    referra I and eventua             I consent to donate. As there ex     I sts
    d I f fer    nces In op I n Ions as to hi stocompat I bill ty match I ng f€
    transp      I antat lon, I oca I var lances play an Important part
    selecting patients for transplantation. We       support ongoing
    research to effectively analyze the benefits and risks of
    hlstoc.ompatlbl Uty matching but realize the Importance of
    system wh I ch akes I nto account accumu I a ted wa I t I ng t I me.
    7)'      SINGLE UNIFIED WAITING LIST

    NATCO endorses the reconendatlon that there should be
    movement toward a single unified list for patients awaltlnf
    transp I antat Ion per each des I gnated OPO serv I ce          area.
.   add It Ion to us I ng the cr I ter I a of first-come first-served,
    Is Important that objective medical criteria be employed
    address the urgency of the recipient' s ' need for
    transplantation as well as histocompatibility factors such
    HLA matching and sensitization rates (reactive antibody
     I eve I ) .
    A point system which Includes objective medical criteria
    we II asthe reel p I ents wa It I ng time I s Important to assure.
    opt'mum resu' ts of the kidney transp I ant wi th reasonab I
    expectat Ions of              success.
R I chard   Kusserow
October 1.     1990
Page 5

8) RELA T IONS WITH DONOR HOSP IT ALS

NATCO has concerns relating to the             recomendation that the
Pub II c Hea I th Serv   I ce shou             I at Ions reQu I ring each
                                     I d Issue regu
OPO and donor hosp       I ta I to
                                adhere to  reQU  I red organ
distribution arrangements within the designated OPO service
area.     I t is a shared respons
Organ I zat Ion (OPO) , re I ated tissue
                                         bill ty of
                                          and
                                                the Organ Procurement
                                               eye   banks. and the
donor hospital to create an open working relationship that
fosters organ and tissue donat Ion and d str I but Ion.
As critical as this working relatl.onshlp Is, NATCO cautions
agaInst the development of any regulations wh'ch have the
potential to negatlyely Impact on the relationship of the
OPOs, re I ated t I$sue and eye banks and the donor hosp I ta Is.
9) RELA T IONS WITH TRANSPLANT CENTERS

In the same spirit of fairness, NATCO supports a consistent
system wh I ch assures. eQu I tab Ie d.l str I but Ion fo II ow I ng
objective medical criteria. As responsibility for organ
donat Ion I I es with the OPO, tissue        nd eye banks and donor
hosp I ta I, respons     bill ty for the    transp    I ant opportun   I ty   for
each pat lent ' 1 s shared ' by the transp I ant center and            OPO and"
fostered by a sJmllar open working relationship.
10) MEDICAL PRACTICE G UIDELINES

NATCO endorses the development of medical practice gUldellne
wh I ch address organ transp I antat Ion. Add I t I ona I stud I es and
more conclusive findings are needed to assure that policies
govern I ng organ shar I ng are sc I ent I fica I Iy based and that we
           antat Ion.
continue to provide optimum patient care . to those . seeklng
transp I
11) DEMONSTRATIO         PROJECT EVALUATION A REGIONAL DISTRIBUTION
    SYSTEM

NATCO a I so supports fund I ng for a demonstrat Ion effort wh Ich
would establish a single, unified waiting list for all
patients   In a specified number of combined OPO service areas
and mandates shar I ng of organs to t'hose pat I ents on a
first-come first-served basis subject to objective medical
criteria.    Such a project would evaluate the potential of a
regional patient driven distribution system as well as asses
the cost effectiveness of such a system. Before undertaking
an attempt at a national distribution system, a regional
system demands further evaluation.
RI chard Kusserow€
October 1. 1990

Page 6


12) ORGAN PROUR MENT ORGAN I ZA T ION RESPONS I B I LIT I ES€

NATCO recognizes that I t is the respons bill ty of           he Organ

Procurement Organization to assure equitable distribution of

or gans and thus suppor ts that th I s respons I b I I I tylon.
                                                             be a

                                                                rigorous

criteria for Medicare recertification.       In  addl
and sound      I y based organ procurement cr I ter I a   shou   I d be€
des I gned to measure the procurement efforts of the OPO as

wel I as measure other per.formance beyond actua I recovery 

organs which has a direct Impact on organ donation (I. e., the

development of comunity outreach programs).€
As organ donat Ion and transp I ant t Ion Is a respons I b II I ty€
shared by the med I ca I comun I ty. we encourage the

professional associations, In particular the American Society

of Transp I ant Surgeons (ASTS)' and the Amer I can Soc I ety of

Transplant Physicians (ASTP) to conduct their own analysis of

those factors wh I ch may I ead       to
                                    longer med I an wa I t I ng times€
for black patients versus white patients. NATCO would

we I come the opportun I ty to work with these groups In study I.ng€
these Issues.€
As NATCO Is comitted to assuring       optimum standards of

practice, we appreciate'    the opportunity   to coment on this€
draft report and   , look forward to  providing  additional

I nforma t Ion to your of flee as the  need ar I ses.€

Thank you.€
S J ncere   I y,€

  6-aJf4€
Barbara A. Ell ck, R.      N.,   CCTC/CPTC€
Pres dent€
     OIG Response To NATCO Comments€
The NATCO' s response to our recommendations was generaly supponive. We agree that more
attention must be given to the influence of HLA matching on the black-white differential and, as
previously noted, have modfied the text accordingly. We also recognize, as NATCO notes, that
there ar numerous other factors that might contrbute to the situation.

We welcome NATCO' s suppon on our reommendation calling for a single waiting list per OPO
service area as the basis for allocation. We fully agree that in accord with the first come first
served principle, it is importnt to use " objective medical criteria" to indicate " the urgency of the
recipient s need for transplantation " and to use " histocompatibilty factors such as HLA
matching and sensitization rates. . "

On the matter of relationships with donor hospitas, we accept NATCO' s caution about issuing
regulations that would have a negative impact " on the relationship of the OPOs, related tissue
and eye banks and the donor hospitas. " Indeed, iheintent of our proposed regulation is to foster
and protect goo working relationships by calling for transplant centers and donor hospitals in an
OPO service area to abide by the policies developed by the OPO.




                                                 D- 59

                                                                                                           ... ..""... ......."'''. UVV""V-I.'
                                                                                                              Offce n mbcr (617) 277-6200€
, t€



                           New England Organ Bank- , Inc.
       neW' 8 IIIe€




                                                                            December 27, 1990 


         Richard P. Kusserow€
         Inspector General

         Department of Health and Human Services
         HHS North Building€
         330 Independence Avenue, S.
         Washington, D. C. 20201


         Dear Mr. Kusserow:


         The New England Organ Bank (NEOB) appreciates the opportunity to comment on
         the draft report issued by your office, . The Distribution of Organs fQr
         Transplant tion: Expectations and                   J'9- O()5$tJ
                                                             Practices. -




         NEOB Is the oldest and Jargest organ procurement organization in the United€
         States. Founded   in 1968, NEOB now serves 11. 5 milion people, more than 200
         hospitals, and 14 transplant centers in the six New England states. Given the
         number and diversity of institutions we serve, NEOB has had extensive experience
         dealing with many of the logistical, political and scientific issues analyzed in
         the report, While we are generally                      supportive of the intent of the
         recommendations, equitable access for all in need of a transplant, we do not
         agree with some of the methods proposed to achieve this. Our concerns are based€
         around three general issues:€

           Although, (as quoted on page 7 of the report) the 1986 Task Force on Organ
        Transplantation noted that transplantation had developed suffciently to " allow
        for the establishment of certain standards of practice, - we believe their
        conclusion was somewhat premature. Transplantation continues to be rapidly
         evolving clinical field which is stil categorized by diverse protocols and€
         practices. Within limits, it is essential to encourage this diversity if we are to
         continue to progress.   However, legitimate scientific disagreements should not
         be allowed to obscure the issue of equal access.




                      Promoting the procurement, preservation and distrlbullon of organs and IIssues for transplantallon
Richard P.   Kusserow
December 27, 1990
Page 2

   - - While an    absolutely uniform national system is appealing.          it is more
realistic and practical   to organize at a regional level. This provides        sufficient
scale of   activity while minimizing logistical problems.
      - Any system of organ distribution should focus on the outcome, i. e.,          equal

access. There wil be more than one        legitimate way of achieving that end.
national system should encourage multiple models in order to . assess           which
proves to be most effective.
More specifically, we would offer the following thoughts on the report'
recommendations.

Recommendation #          - 8fhe PHS. in collaboration with the OPTN, should issue
regulations to require thateach OPO ' (1) establish a single, unified list of
patients awaiting transplantation and (2) distribute organs to these patients on a


Comments:
first come first served basis, subject to established medical criteria.

- It Is not reasonable to assume that "established medical criteria-
agreed upon by the transplant community or that they could be
                                                                              have been
                                                                          in the immediate
future. There are legiti mate scientific disagreements on issues such as HLA
matching. prioritization of highly sensitized patients, etc While it is '
inappropriate to allow any surgeon or transplant center to decide these issues
unilaterally, it is equally unreasonable to suggest that there
                                                               is only one correct
answer for all the nation. Instead we would suggest that equal access can best
be assured by  requiring that each region of the countr establish an objective
process for distribution, which is evenly applied to all waiting in the region.
This system would have. to be prospectively justified and should then be under the
scrutiny of all the transplant centers in the region, the OPO(s); -and a national
bodysuch as UNOS. In addition, complete and timely sharing of data should be
required so thatperiodic retrospective analysis may be performed..            This   would
allow comparisons among the regions.

  Some proposals suggest the establishment        OPO-wide lists rather than region-
                                                  of
wide lists. This is acceptable if the OPO encompasses a sufficient number of
transplant centers to assure patient equity. If this option is adopted, it must be
accompanied by rules preventing the proliferation ofOPOs and encouraging
consolidation of   existing ones. The alternative wil be the' creation of        new. one
or two transplant center OPO' s     to avoid impact of a shared   list.
Richard P.   Kusserow
December 27, 1990
Page 3 .


Becommendation # 2     - "The PHS, in collaboration with the OPTN, should issue
regulations to require that each transplant center and donor hospital in an OPO
service area adhere to'   the centralized organ distribution policies of the OPO
governing that area.

Comments:
- Such regulations are appropriate. It seems strange to establish OPO territories
and OPOIOPTN rules and then allow individual hospitals to act .outside of". them.
- Such regulations wil need to be accompanied by compliance monitoring and
reasonable penalties for violations. Current sanctions, (e. g.,   denial of all

Medicare and Medicaid payments), are so severe that they are      never invoked.


Recommendation # 3 - " The PHS, in collaboration with the OPTN, should support
the development of medical practice guidelines addressing organ transplantation.

Comment:

It wil be diffcult to develop guidelines given the disagreements within the

transplant gomniunity on appropriate methods of selecting potential recipients.
matching organs to recipients, and protocols for post-transplant patient care.
It may be possible for all transplant centers . within a regional OPO to agree on a
general set of medical criteria, bqt national consensus is unlikely.
                                                                       Whatever is
developed must have                         allow for the uniqueness of each
                        sufficient flexibilty to
patient. Unfortunately, guidelines which are developed in a' regulatory framework
frequently become absolute rules when implemented.

Recommendation # 4    - " The PHS should fund a demonstration effort incorporating
the following two features: (1) the establishment of a single, unified waiting list
including all patients awaiting an organ transplant in a number of OPO service
areas and (2) mandatory distribution of donated organs to those patients on a
first come first served basis, subject to established medical criteria.
. Comment:
Such a study, while desireable, is likely to be impractical given the lack of
agreement on what constitutes " established medical criteria. - (See comments
above), and political concerns of adjacent OPO' s. However , it might be more
practical to study. organ allocation at those larger OPO' s which already have
unified lists and include a large number of transplant centers. This would also
allow examination of different sets of " established medical criteria - which have
been implemented in different regions of the country. Given the existing
         Kusserow
Richard P.
December 27, 1990
Page 4

diversity of approaches to organ distribution, It would seem the structure Is
already In place to determine which methods have' proven eff ctive In achieving
the goal of equal access. Once again, we stress the plural nature of the answer
based on our belief that there witl be more than one - right- way.

Recommendation # 5     - - The HCFA and the PHS should support research efforts
that could help reduce racial    disparities in organ allocation.


Comment:
We strongly support this recommendation. It Is critical' to determine If the
apparent di"sparities in waiting times are truly related to inherent clinical
issues, discriminatory behavior (intentional or unintentional), or a    combination
factors, Given the apparent    disparity among regions (e. g. no difference
                                                                         in waiting
time NEOB' s region but varyirig lev els of difference in most others) this is
obvious a complex issue. For example,       Is there a signifcant difference between
the experience at  single-transplant center OPO' s versus those that serve many
transplant centers? Is there a difference between those OPO's that already have
a single unified list and those that stil allocate among each individual center
list? These dat already exist, could be analyzed further now, and the results
included in the final version of the report.

Finally, NEOB would be pleased     to work with the Ofice of the Inspector General
iricollecting and analyzing   data, as well as the   testing of any proposals.

We loo~ forward to conversations with you and/or members of your staff
concerning these    important issues.
                                           Sincerely yours,



                                            chard . s . L
                                           Executive ' Director
           OIG Response To NEOB Comments€
    We recognize the importance of NEOB' s caution on the danger of seeking premature consensus
    on medical practice guidelines concerning organ trsplantation. Yet, there is an extensive body
    of information which has been developed which, it appears, could be drwn upon to provide
    some authoritative framework for guiding (not prescribing) medcal practice in this ara. If the
    medical criteria exception serves as the only legitimate basis for deviating from the first cOp1e
    first served rule, such a frework would seem to be especially imponant. The matter of
    determining a threshold level of match , as suggested by ASHI , might be one paricular to focus
    on in this regard.

    We also recognize the limitation that NEOB notes concerning the relevance of a demonstration
    project concerning the use of the first come first served concept. Yet, as we note in the text, such
    an effon can provide some useful data and can help us gain a better understanding of the costs
.   and benefits of allocating organs from larger donor pools. If two or more adjacent OPOs are
    ready to paricipate, we think such a demonstration warants the effon.
                                                   n - organ                  procurement fO. ndation€
                                                                       January 22, 1991

                            11. 0..
      P.trila AU., II.D~
      lI""I"'t. II. O~
                              v".     Prl
      H-~.  Wil" M.D.5K
      WI. LeF.t, 1'..
      n..      A.   At utClliw' Do.afM-
The Honorable Richard P. Kusserow

Inspector General

Department of Health and Human Services

BRS North Building

330 Independence Avenue, S.
Washington, D.                      C. 20201
Dear Mr. Kusserow:


             The South-Eastern Organ Procurement Foundation (SEOPF) wishes to comme:
on the Draft                          Document: " The Distribution of Organs                for Transplantatio'
Expectations and Practices                                       . SEOPF has been an imrtant contributor for mo
than 20 years                          to      the science                 transplantation including the use
                                                                              of
histocompatibility matching as a basis for organ distribution (bibliograp
attached) . Several issues concerning the equitable distribution of orga
for transplantation raised in your Draft can be addressed by scient
organizations such as SEOPF. These issues have sparked some controversy a
considerable debate within our organization. The observation that blacks wa
longer than ' whites, the fin ing that women wait longer than men, the foe
upon short-term rather than long-term results, the ' role of histocompatibili
testing and the availability of particular patients for transplantation wh 

an organ comes available are examples of important questions discussed with

the committees of SEOPF. . Data from a SEOPF Member Organ Procurement Age

indicate that black patients are more often Ynavailable for an identifi
donor organ                 than whites    Ol).
                                      SEOPF believes that additional da
collection and analysis will be important to a correct interpretation of
findings                 in your Draft Document.                                        The SEOPF Scientific Projects
Publications Committee is undertaking studies of                                                   Center et.fects and
access of minorities to cadaver donor kidneys for transplantation. We expe
that the results of these SEOPF research studies will be helpful to you 


the entire transplant community in our effort to understand the reasons
differential access of particular patient groups         cadaver organs f                                          to

later this year.
transplantation. SEOPF appreciates the opportunity to comment on the Dr,
Document and looks forward to sharing the results ' of its research wit


                                                             Sincerely yours, .

                                                                            Ja.
                                                             R. Randal Bollinger, M. D., Ph.

                                                             President, SEOPF
RR:lc

                           7740 ShraMr Road .       Suil   A . Richmond.    Virginia 23228 .   lephM (801 672.2m   . FAX (80) 672. 2643
      OIG Resp onse                     To      SEOPF Comments
We are pleased that SEPOF has been examining many of the issues raised in our repon and that
its Scientifc Projects and Publications Committee is devoting parcular attention to the access
of minorities to cadaver kidney transplantation. EOPF and its member institutions bring much
expertse to such inquir. We look forward to the results.
